Semiannual Report of the
Inspector General.
U.S. Department of Labor
Office of Inspector General
J. Brian Hyland
Inspector General

April 1,1985-September   30, 1985
                                      TABLE     OF    CONTENTS



Inspector         General's        Message           .............                  i

Overview         .......................                                      iii

Office      of    Audit         ...................                             1

Office      of     Investigations             ...............                  55

Office    of Resource    Management    and
   Legislative    Assessment     ...............                               75

Office      of    Labor      Racketeering            .............             83

Complaint         Handling        Activities           ............            93

Money     Owed      to    the   Department             ............            99

Appendix         .......................                                      103

        Selected         Statistics           ...............                 105
        Summary    of Audit    Activity    of DOL Programs         ....       106
        Summary    of Audit    Activity    of ETA Programs         ....       107
        Summary    of Audits    Performed     Under    the
           Single   Audit   Act   ................                            108
        Summary    of Audit    Resolution     Activity     .......            109
        Status    of Audit   Resolution     Actions     on
          Beginning    Balance    of Unresolved     Audits            .....   ii0
        Unresolved    Audits   Over  6 Months    Precluded
           From  Resolution     ................                              iii
        Summary    of Audit    Reports    Issued   During    the
           Current   Reporting     Period    ............                     112
        List   of Final   Audit    Reports    Issued    ........              113
                       INSPECTOR     GENERAL'   S MESSAGE



This   is the fourteenth     semiannual     report    of the Department
of Labor's   Office    of Inspector     General    and marks   the
completion    of seven   years   of operation      of this Office     since
the passage    of the Inspector      General    Act of 1978.      I
continue   to be pleased     at the very      real progress    that   this
Department    has been making     in addressing       some  of the problem
areas   or issues   that we have     noted    in our prior    reports.

I am very     gratified    with   the strong    support     that    I have
received     from  Secretary     Brock.     In the half year        that   he has
served    as Secretary     he has demonstrated       his concern        for good
management      in the Department       and in the operation         and
delivery     of efficient     and effective     programs.        Similarly,     I
have   noted    a clear   trend   by Agency    managers     and their      staffs
toward    an increased     sense    of cooperation     with    my Office.

I am also     pleased   to see a growing      reliance     by the
Department     upon the OIG     for not only     detecting     fraud,    but
for also    providing    real   technical    expertise     and skills     to
the solution      of management     and operational      problems.       To
further    this,   we have made     a greater    effort    to focus    our
audit   and investigations       work   on broad    programmatic      and
management     issues,   such   as some   of our initiatives         in the
Employment     and Training     and Employment      Standards
Administrations.

In the management        of our own programs,          we have     placed
greater    reliance    on utilizing      ADP tools       and techniques       to
improve    our operational       efficiency:       initiated      five-year
audit   plans;    conducted     fraud,    integrity      and
labor-racketeering        investigations        consistent      with   certain
defined    priorities;      and greatly      increased      internal
coordination      of audits     and investigations.            Clearly
cognizant     of the resource       constraints       that   government     needs
to operate     within,    these    efforts    are enabling        us to increase
our   impact   by better     ensuring    that    each    audit    and
investigation      contributes      to improvements         in the
Department's      programs.

Despite    these   improvements      in operations,     all of us in the
Department     recognize    the need     to continue    to set new,   higher
goals   and strive     to achieve     them.    I am confident    of the
continued     dedication    and fine     work  of the employees    of the
Office    of Inspector     General.      That  effort   has made  possible
the accomplishments        described     in this   report.




                                       -i-
I trust that the information      contained   in the following
pages will continue     to be helpful   to the Congressv    the
Secretary,   and others   who are interested    in the efforts   of
the Department    of Labor to detect and control      fraud, waste,
and mismanagement    in its programs    and operations°




/
Jo BRIAN HYLAND
Inspector  General




                               -ii-
                                 OVERVIEW


This semiannual      report covers the activities        of the
Department    of Labor's    Office  of Inspector     General    for the
period April 1 through       September    30, 1985.     Indicative    of
audit trends are the numerous         economy   and efficiency
findings   and recommendations      pertaining     to the operations      of
the various    Agencies    of the Department.       Investigations,
meanwhile,    continued    to show strong statistical        increases,
partially    attributable    to our success     in clustering     similar
cases for prosecution       and in seeking     recovery   for the cost
of investigations      from successful     prosecutions.      Labor
Racketeering     continues   to pursue significant       employee
pension   and health fund embezzlements.


EMPLOYMENT    AND   TRAINING   ADMINISTRATION

The final audit report on Unemployment             Insurance    Experience
Rating was issued during this semlannual              period.     Although
we discussed     the draft report in the previous           semiannual
report,   we believe    the subject      is worth    repeating   because
of the tremendous      external     response   to the report.       Our
audit shows that the application            of experience     rating has
declined   over time to where 49 percent           of the cost of the
system   in the sampleo     states has become socialized.
Financing   UI benefits     has shifted      from a system based on
individual    employers'     responsibility      to a system where all
employers    share in the costs,        regardless    of their individual
unemployment     experience.      We recommended      that ETA establish
an experience     rating index, which would reflect            the
effectiveness     of the states'      experience    rating systems      and
facilitate    monitoring    and analysis.        (See page 3.)

We continue    to strongly      support   establishment    of an
Unemployment     Insurance    quality    control  system   as a means    to
improve   program    integrity    by accurately     identifying   and
correcting    payment    errors    in the multibillion     dollar
system°     (See page 7o)

In our ongoing   review  of the Federal  share of Unemployment
Compensation,   we have issued 14 reports to date covering
approximately   $1.7 billion  of Federal  unemployment  benefits
and have found approximately    $52 million   in audit
exceptions.    (See page 8.)

Followup   on potential   overpayment   cases resulting    from a
crossmatch    of payroll   information  against  unemployment
benefit   payments   shows that $98,158    out of _535,011    in
overpayments    has been collected,    to date.   (See page ii.)


                                  -iii-
Findings   during   a review of the     Unemployment    Insurance
operations    in the Kentucky     State Employment    Security    Agency
included   $3.1 million     in interest    earnings,  which had not
been returned     to the UI account.       Further,  approximately
$932,000   in interest    was not earned for the UI account
because   the State had excessive       daily cash balances     and a
delayed   billing   cycle.    (See page 12.)

As a result of activity       by the ETA/OIG   Unemployment
Insurance    Task Force,    ETA has agreed   to develop   a series of
alternatives     to our original    report recommendation    that
legislative     changes  are needed to improve     cash management.
 (See page 13.)

Investigation's     clustering   approach    of grouping   similar
cases for prosecution      continued   to not only increase      the
dollar   amount of the prosecutions       but also demonstrated      the
more widespread     nature of various     UI fraud schemes.      Because
these cases are not isolated,        U.S. attorneys    increasingly
recognize    the need for criminal     sanctions    for the commission
of these crimes.       (See page 70.)

We also increased   our efforts to emphasize    civil recoveries
and the recovery   of investigative   costs from individuals   who
have been successfully    prosecuted.    (See page 71.)

Within  the programs   funded  by the Job Training     Partnership
Act, we continued    our efforts   to provide   technical
assistance  and training    in financial   management    to Indian
and Native  American   and Migrant   and Seasonal    Farmworker
grantees.   (See page 15.)

Our investigative     work has co ntinuea      into areas of
identified   or suspected     vulnerability     and has been closely
coordinated   with audit activities.         For example,    with regard
to JTPA verification,      our investigators       have assisted   the
audit staff by locating       individuals    the auditors    are unable
to find when performing       verification.      This method    has not
only provided    useful   support    to Audit,   but also provides     a
source   of investigative     leadsw   since fraud is sometimes
involved.

In the Job Corps,      we found that the organizational       structure
of the procurement      function    does not separate   contracting
authority    from program     responsibility,    which is inconsistent
with Federal     procurement    guidelines    and sound internal
control   practices.      (See page 16.)

In the alien certification   area, we       have discovered
fraudulent  attempts to obtain   alien      certification   for


                                 - iv-
employment.      As a result    of our efforts,    alien  certification
filings    have  shown  a decrease    of 60-70  percent,   while   the
withdrawals     of applications     increased   200 percent.      (See
page 71. )


EMPLOYMENT     STANDARDS      ADMINISTRATION

A third    report    on our continuing          monitoring     of the
development      of a major      new ADP     system     in the Federal
Employees'     Compensation        (FECA)    program     was  issued   during
this   period.      This   report    focused     on omissions      and
weaknesses     in the general        functional       design   specifications
for the financial        management       subsystem.        We also   found
problems    with    the lack     of contractor        performance,     funding
issues,    problem     resolution      issues,     and the absence       of
contingency      plans.      (See page     19.)

A review    of vocational       rehabilitation      services     provided   to
FECA   claimants     found  the program       to be a viable,       cost
effective     method    of reducing     FECA   payments;    however,
opportunities       exist  for more     effective     administration      of the
program.       (See page   24.)

We must   again    report  that    regulations    are still    pending     on
medical   fee schedules      and administrative       procedures     needed
to better    manage    the FECA    program    and that   the Department's
proposed   legislative     package     has  still  not been     introduced
in Congress.       (See page    25.)

In the Black     Lung    program,      we found      that 5 of the 127
self-insured      coal   mine    operators      were    collectively
underbonded     by $116 million.            (See page      27.)    We also     report
on our support       of proposed       Black    Lung    legislation,      which
would   assist    in reducing       the over      $2.5 billion       deficit    in
the Black    Lung    Trust    Fund.      (See page      28.)     In addition,      we
support    the departmental         plan   to eliminate         the over    21,000
case   backlog    of Black     Lung    benefit     claims     awaiting
hearings.      (See page 28.)

In an investigative        effort    performed     in cooperation      with
program    officials    to institute       a controlled     retesting     of
miners    eligible   for oxygen      related    equipment     and to verify
charges    by Black   Lung    durable    medical    equipment    providers,
it was disclosed      that    90 per    cent of the retested        miners
were   unqualified    for benefits       and that overpayments         to one
provider     totaled  $2.1 million.          (See page    57.)

A survey  of the Office       of Federal    Contract   Compliance
Program  found   that   the 1978    consolidation     of responsibility
for Federal    contract    compliance    from   ii Federal    agencies


                                       -v-
into   the Office     of Federal      Contract    Compliance     Programs
caused    structural      imbalances     which   continue    to exist     today°
As a result,      there    is limited     effectiveness      in carrying      out
the mandated      mission     and functions      because    of the program's
organization      and structure,       enforcement      procedures,      and
failure    to regularly       measure    results°      (See page    29°)

We continued     to follow     up on corrective        action    taken    to
implem_it    our   recommendation       that   undistributed      back wages
owed   to employees     for violations       of the Fair      Labor    Standards
Act  be deposited      in the U.S.      Treasury     as miscellaneous
receipts    (see page     33) and performed        a limited     review    of the
internal   controls     over   back   wage   payments     processed     in the
Chicago   regional     office.      (See page     34.)


DEPARTMENTAL      MANAGEMENT

During   this   reporting    period,    we completed     debt  collection
audits    in the Employment      Standards    Administration      and the
Occupational     Safety   and Health     Administration°       In both
areas   we found    that  collection     activities     have  been   slow and
significant     interest   and penalty        revenue     has   been   lost   on
delinquent     debts.    (See page 36.)

As a result     of our previous        recommendation     that   the
Department     needed    to significantly        improve  its overall
management     of indirect     costs,     the Assistant     Secretary    for
Administration      and Management        formed   an indirect     cost
technical    workgroup     to address      the   issues  raised    in our
audit   report.      (See page    38.)

In reviewing     the Department's     management   of consultant
services,    we found    a weakness   in the failure    to obtain     the
required   independent     review   by the Procurement     Review    Board
of certain    consultant    or related    services  actions.      However,
one major      reason  for this     condition  is the       lack  of a clear
definition      of consultants      in OMB guidance.          (See page 39.)

An audit    of the Department's       Working     Capital    Fund   disclosed
that   the financial     statements     presented     fairly    the financial
condition     of the fund    and the    results     of its operations;
however,    the evaluation      of internal      accounting     and
administrative      controls    disclosed     several    areas   where
improvements      were    needed.    (See   page   39°)


ADDITIONAL     ACTIVITIES

A limited     review     of the Occupational       Safety   and Health
Administration's         New Directions    Grant    Program    found  that         the


                                     -vi-
program    seems    to have   excellent        results    when   funding   is not
prematurely      terminated    prior    to     completion      of the full   grant
cycle.     (See page     34.)

In the Office     of the Solicitor,     severe    case  backlogs            created
by a lack   of sufficient     legal  staff   in the Division               of
Employee  Benefits    caused   us to inform      the Solicitor             that
this weakness    will   need to be reported       in the annual
internal   controls   certification     by the Secretary       to          the
President   and Congress.       (See page   40.)

As a result      of a review    of the Department's         appellate
function,     we concluded    that   improvements      are needed      in        the
operations     of each organization        and that    Department-wide
changes    could   further   improve    the overall      effectiveness            and
efficiency     of the function.        (See page    41.)

In keeping    with    past  practices     to highlight    initiatives    we
believe  should     receive    separate    attention    in the semiannual
report,  we discuss       a comprehensive      OIG approach     to planning
future  audit    work    in major   agency    programs.     (See page   45°)

In addition,       joint  endeavors    between       Audit      and
Investigations       will   have a positive         impact      by employing      both
disciplines       in conducting     a review.

We also have     improved  cooperation    with the program   agencies
-- particularly      in the Black   Lung  and UI areas.    As a
result,   agencies    have provided    a great deal  of assistance    in
various   investigations.

In the area  of ADP, we          made major      strides   in     meeting   the    ADP
goals set forth  in our          ADP Master      Plan.   (See     page 79.)


LABOR   RACKETEERING

Concentration       of investigations        by the Office      of Labor
Racketeering       (OLR)   into employee      benefit    and pension     plans
continues     to produce      significant     cases    of embezzlement.
The   cases   demonstrate      the   continuing     vulnerability     of
employee     benefit    plans.     (See page    84.)

Finally,    we    remain    concerned     and stress      the    need for
legislative       action    to grant     law   enforcement       authority     for
OLR special       agents.      This   authority     includes      the power     to
make   arrests,      administer     oaths    to witnesses,        carry    firearms,
and execute       search   warrants.       (See page    77.)




                                       -vii-
                                    OFFICE       OF    AUDIT


During   this      reporting    period, 346                audits of program
activities,        grants,   and contracts                 were issued.   Of these:

     --      35 were       performed        by OIG         auditors,

    --       80 by contract             auditors       under        OIG's   direct
             supervision,

    --       64 by       state    and    local     government          auditors,

    --       139    by    CPA    firms    hired       by    grantees,       and

     --      28 by       other    Federal       audit       agencies.

The 346 audit reports       issued during this period consisted        of
45 program    audits,    93 financial    and compliance   audits,
6 preaward    audits,    13 postaward    audits,  8 indirect   cost
audits,  and 181 audits       conducted    under the provisions    of OMB
Circular   A-102, Attachment       P.   The Department   of Labor was
the cognizant     agency   for 84 of these audits.

The Office    of Audit section       of this semiannual      report is
divided   into three chapters.         Chapter    I (below) contains
information     on audit activities       in the program     areas within
the Department.       Chapter    2 is a discussion     of an initiative
we began during this semiannual           period that will have a
major   impact on our audit planning          process  throughout     the
Department.      Specifically,     we are using the audit survey for
long-term    planning    and are reporting       on the results     of our
work in the Office       of Workers'    Compensation     Programs
 (page 45).     Audit resolution      during the period is covered         in
Chapter   3 (page 49).       Money owed to the Department          is
separately     reported   later in this report followed          by the
appendix   which    contains    tables on audit activity        including
audit reports      issued and resolved.


                    Chapter       1 --.Activities              by    Program


EMPLOYMENT      AND      TRAINING       ADMINISTRATION

The Employment     and Training     Administration      (ETA) administers
programs   to enhance     employment    opportunities     and provide
temporary    benefits   to the unemployed.        This mission    is
accomplished     primarily    through   employment    and training
programs   authorized     by the Job Training      Partnership    Act
 (JTPA), the Unemployment        Insurance   (UI) program    authorized


                                          -i-
by the original   Social   Security   Act and other Federal    laws,
and the Employment    Service   authorized   by the Wagner-Peyser
Act.   For Fiscal Year 1985, ETA's budget authority        was $25°2
billion.   Of that amount,     $21.2 billion   was for the Unem-
ployment  Insurance   Trust Fund, and $3.5 billion      was for JTPA
programs.

During   this reporting   period,   OIG had significant                  audit
activities   in Unemployment    Insurance  and programs                  funded     by
JTPA.


                    Unemployment         Insurance     Program

The Unemployment      Insurance    (UI) program   is a unique
Federal-state     partnership    that was established      in 1935 under
the Social    Security   Act (42 USC 501).       Under this Federal-
state system,     each state has developed       programs   that are
adapted   to conditions     prevailing    within  its jurisdiction°
As a result,    no two state laws are alike.         The UI program    is
administered    in the 50 states and three other entities            (the
District   of Columbia,     Puerto   Rico, and the Virgin     Islands)
by State Employment       Security   Agencies°    Throughout    this
report,   the term "state agency"        refers  to the 50 states and
the three entities.

In Fiscal Year      1985, total unemployment                benefits    to be     paid
were estimated      at $15o9 billion°

Activities     in the     UI   program     during    this    period    include:

     --      issuing   a final report         on UI Experience    Rating
             advocating   adoption  of        an Experience   Rating   Index,

    --       continuing    to support  implementation of a UI
             quality   control  effort which we recommended   for                   the
             UI program,

    --       issuing     additional  reports on         our review of the
             Federal     share of unemployment          compensation in 45
             states,

    --       monitoring   the status         of a crossmatch   on        Federal
             employee/Unemployment           Insurance  payments,

    --       reporting     on our review of UI and administrative
             funds in     the Kentucky  state agency, and

     --      reporting  on the       progress  of      the joint ETA/OIG           Task
             Force established        to address       UI issues.



                                     -2-
Experience   Rating

In our last semiannual       report,    we reported   the completion    of
our review of experience        rating in the Unemployment
Insurance   system.    In August     1985, the final audit report
entitled   "Financing   the Unemployment       Insurance   Program  Has
Shifted   From A System    Based on Individual       Employer's
Responsibility    Towards   A Socialized      System" was formally
issued   to the Acting    Deputy    Assistant   Secretary   for
Employment    and Training.      Subsequently,     the report was
issued   to the Secretary     of Labor.

The review,    performed    in 12 of the 53 state agencies,       was
made to determine      the degree   of experience    rating in the
states'   Unemployment    Insurance    (UI) tax systems    and the
effects   this relative     level of experience     rating may have on
the UI environment.       Unemployment    benefits   in the states
reviewed   represented    about 35 percent      of total benefits    paid
nationally    in 1983.    UI programs    in the selected    states
represent    a broad range of such factors        as experience    rating
methodology,    tax structure,     unemployment    rate, and
geographic    distribution.

Background    -- The Federal     Unemployment    Tax Act (FUTA)
promotes   experience    rating.     Experience    rating is based on
the concept    that states assign higher        or lower tax rates to
employers   in direct    proportion    to each employer's      experience
with layoffs     (experience   rating).     According    to the Social
Security   Board and the Employment        and Training    Adminis-
tration,   the objectives     of experience     rating are to promote
employment    stability   and to equitably      allocate   benefit   costs
to employers.

Employers  in states that have experience       rating systems   and
have received   certification    by the Secretary    of Labor  are
entitled  to tax credits.      In the past, all states have been
certified  regardless    of the degree   to which   their UI program
was experience   rated.

Types of Experience     Rating    Formulas   -- While there are
different   methods,   all states     use formulas   to compute
experience   rates which     establish   the relative    experience   of
individual   employers    with unemployment      or other factors
bearing   a direct   relation    to unemployment    risk.    Two major
methods,   reserve   ratio and benefit      ratio, are used by 44 of
the 53 state agencies.

Thirty-two  states  use the reserve   ratio method.    This method
bases the employer    tax rate upon the relationship     between
total historical   benefits   paid to former  employees,    total



                                -3-
historical    contributions,     and   taxable   payrolls.   Nine    of    the
twelve   states   audited  use   the   reserve   ratio method°

The remaining     12 states   use the benefit    ratio method.      The
ratio is computed       using benefit  payments   made to former
employees   which are chargeable      to the employers'     account    for
a specific    period   of timer usually    3 years,   divided   by
taxable   payroll    for the same period°     This method was used
by three of the states audited°

The Finding    -- Although    Federal    law promotes    experience
rating,   evidence    collected   during    our audit shows that the
application    of experience     rating has declined      over time to
where 49 percent      of the cost of the system       in the sampled
states   has become    socialized°     Financing    UI benefits    has
shifted   from a system based on individual          employers'
responsibility     to manage    their workforce     to a system where
all employers     share in the costs regardless        of their
individual    unemployment    experience°

To illustrate     the problem,      data reported      to ETA from the
nine audited     states    using the reserve       ratio method    suggest
that the amount      of effective     benefit     charges  have generally
decreased    for the 14-year      period    since 19700      (Effective
charges   are charges     made to employers        whose contributions
exceed   their benefits      charged,     i.e., positive    balance    em-
ployers.)     Effective     charges    fell by 29 percent      from 1970 to
1983.    Conversely,     ineffective     charges    increased   by 42
percent.     These were benefits        charged    to negative    balance
(benefits    charged    greater   than tax contributions)         or   in-
active   employers    or not charged       to any employer.       In 1983
alone,   our calculations       show that $3.1 billion        or 49 percent
of the $6.3 billion        in total benefit      payment   costs were
socialized    costs in the 12 audited          states.

Factors   Contributing     to the Decline    -- A major factor
contributing    to the decline      in experience  rating was state
practices   which    resulted   from an unclear   Federal  definition
of experience     rating°     Other contributing   factors  were
insufficient    data collected      by ETA and inaccurate   data
reported   by the states°

Due to the failure       to define how experience     rating would         be
measured   and the degree     of experience   rating which would
constitute    an acceptable     level, numerous   state practices
evolved   which   eroded   the effectiveness    of the experience
rating   concept.     These include:

     --    low maximum    tax rates, which       account   for   about    39
           percent  of   socialized  costs,



                                 -4-
     --    not charging   individual    employers'  accounts          for
           certain  benefit   payments,   which account   for         about
           17 percent   of socialized    costs,

     --    writing-off    past benefit charges  from the         benefit
           payment   history  used to set an employer's          tax rate,

     --    using alternate   tax schedules    (schedules  put in
           place when state UI funds are low), which typically
           levy the greatest    increases  in taxes on employers
           with favorable  unemployment    experience,   and

     --    using fixed taxable   wage bases which         did   not
           increase  when benefits   increased.

Also affecting     the decline   were data collection         practices
and procedures.       ETA was not collecting       data necessary      to
properly   measure    experience   rating.    Reports     required   by ETA
did not include      all information    necessary     to accurately
determine    the amount    of socialized    costs.     Additionally,
information     received   by ETA from the states was frequently
inaccurate    and often not reported       in accordance      with ETA
guidelines.

Consequences    of the Decline    in Experience    Rating -- There
are indications     that the historic    decline   in the degree   of
experience   rating has had adverse      consequences    on employer
tax equity,    control  of unemployment     costs through   employer
participation,     and employment   stability.

     --    Employers   with low unemployment        inequitably
           subsidized    employers   with high unemployment        by $i.6
           billion   in the 12 audited      states   in 1983.    Rela-
           tively   stable industries     such as finance,      retail-
           ing, and services      subsidized    construction    and
           manufacturing.      These latter     two industries    were
           responsible    for approximately      $3.40 in unemployment
           benefits   paid for each $1.00 of tax contributions.

     --    Employers   who pay the maximum      possible    tax rate
           file fewer appeals     than employers     whose tax rates
           can be increased.      While   experience    rating provides
           an incentive    for employers     to monitor   UI benefit
           claims   and contest   improper    or fraudulent    claims
           thereby   promoting   the integrity     of the UI system,
           the maximum    tax rate serves as a disincentive         for
           employers   to appeal    improper   payments.

     --    Low levels of experience     rating   reduce employer
           incentives   to stabilize   employment    and contribute
           to increased   overall  levels of unemployment.


                                -5-
           Recent  research   literature      corroborates   the     link
           between  experience    rating     and unemployment°

Although  Congress   intended  to strengthen   experience  rating
in the Tax Equity    and Fiscal Responsibility     Act of 1982, we
estimate  the degree   of experience   rating will be increased
only slightly   by this change.

Recommendation    -- The primary    recommendation     of the audit
report   is to establish    an experience    rating index based on
data provided    by the states via a revised       experience  rating
reporting   system.    This index would    reflect   the effective-
ness of the states'     experience   rating provisions     and
facilitate   monitoring    and analysis°

External    Response   to the Report      -- The response       this report
has received     from outside     the Department       of Labor has been
tremendous°      Since its issuance,        we have received      dozens   of
requests    for copies,    more than for any report          in the history
of the Office     of Inspector     General.      The response     from the
business    community   and public      interest    groups   has been
particularly     enthusiastic°       For example,      numerous   corpora-
tions have expressed       an interest      in the experience       rating
issue, many of which are Fortune            500 corporations.        In
addition,    several   major business       groups,    such as the
National   Association     of Manufacturers,        the Chamber     of
Commerce    of the United     States,    the Council     of State Chambers
of Commerce,     and the National       Federation     of Independent
Businesses,     are planning     "round table"      discussions     on the
issues   contained    in the report      in the near future°

In addition,    at their request,       we provided     briefings   to OMB,
the Canadian    Parliament,    the Interstate      Conference     of Em-
ployment  Security    Agencies     (ICESA),   and Unemployment      Benefit
Advisors   (UBA), Inco, an organization          devoted    to research
and lobbying    unemployment     compensation     issues for business
and industry.      In addition,     we are currently      planning   a full
briefing  for Senate     Finance    Committee    staff.

Internal   Response   to the Report   -- In response   to        the draft
report   issued in May 1985, the Assistant      Secretary         for
Employment    and Training  indicated   that:

     Experience    rating is a critical    element of the UI
     system,   and there is a need for thorough     technical
     and policy   review   of this subject   which has not
     received   sufficient   attention  in recent years at
     all levels   of government°     As a result,  the degree




                                 -6-
     of experience   nationwide    has declined  seriously  as
     has been documented     in your report°    The time has
     come for policy    officials   to focus attention   on
     this issue.

Subsequent   to this response,     the Acting Assistant   Secretary
in a June 1985 memorandum      stated that "ETA does plan some
followup   actions,  although   we do not agree entirely     with the
findings   of the report.     We do think additional    exploration
of the issues    it raises  is needed° "

ETA has commissioned     a review of the policy       issues regarding
experience   rating in the UI system°        The paper is to be
"usable   a8 a background    document  for an experience     rating
work group or similar     group of policy makers who wish to
review   the subject  and consider    policy    optionso"

Conclusion    --   The recommendations      made in the report are
well within    the ability    of the Department      to enact insofar
as they relate to revising        an existing    reporting    system and
creating   an experience     rating index from state reports°           We
believe   it is absolutely     essential    that such an experience
rating   index be developed      at the earliest     possible    date°    We
also believe     that regular    and routine    publishing    of indices
for each state is a necessary         prerequisite    to effective
dialogue   between    the Federal   Government,     the state govern-
ments,   and   employers--the     three principal     parties    involved
in addressing     the experience     rating issue°


Unemployment    Insurance    Quality   Control    Systems

In 1983, this office was instrumental            in establishing     a
joint ETA/OIG     Benefit   Payment    Control  Oversight    Committee°
During   the committee's      deliberations,    OIG strongly     supported
establishing     a quality    control    (QC) system   in UI as a means
to improve    program   integrity     by accurately    identifying     and
measuring    payment   errors   so that states could take appro-
priate   corrective    action.     The UI QC initiative      was a
primary   product    of the committee°

State unemployment      benefits   in Fiscal Year 1984 were $15
billion.    Because   of the enormity     of this amount, we believe
it is absolutely     essential   that the Department    of Labor have
an effective    control   mechanism   to assure the integrity    of
benefits   paid to claimants.       A UI QC system can fill this
vital  need.

We understand   concerns have been expressed     regarding   how QC
data will be used and whether     sanctions  will be taken
against  states with unacceptable     error rates°    We believe


                                 -7-
neither   of these concerns    should be a major obstacle°      It is
our position    that sanctions   are not necessary   or desirable.
However,   we feel that routine     publication  of QC measurement
results will focus attention       on the problems,  thereby
encouraging   corrective   action.

We continue   to strongly   support   implementation   of a QC
system as an effective     mechanism    to meet the Secretary's
statutory   responsibility    to assure   the accurate  and timely
payment   of the billions   of dollars    in annual UI benefits°


Federal   Share   of   the   Unemployment   Compensation    Program

We are continuing     our review     of the Federal     share of the
Unemployment   Compensation      (UC) program.      The Federal    share
of the UC program     is comprised      of benefits   paid to
ex-Federal   and ex-military      personnel,    the Federal    portion   of
the extended    benefits    program,    and benefits    originating    from
the federally    funded   Federal    Supplemental    Compensation    and
CETA Public Service      Employment     programs.

As reported    in our last semiannual         report,    our objectives    in
this review are to determine          the validity,      timeliness,   and
accuracy   of the charges      reported    by the states to the
Department    of Labor.     We will also determine          the accuracy   of
the chargebacks     from DOL to the Federal          employing   and
military   agencies   whose    former    employees    collected
unemployment    benefits.      Ultimately,     we plan to assess      the
adequacy   of the Department's        system of controls       to ensure
that Federal    agencies    provide    timely,    accurate,    and complete
claimant   information    to states for use in determining
benefit   entitlement.

We will review 45 state agencies.           To date, we have issued
14 reports     (9 final and 5 draft).       We have audited     approxi-
mately   $1.7 billion     of Federal   unemployment    benefits    and
have recommended      for disallowance,     or identified    as ques-
tionable    costs, approximately     $45 million.      This $45 million
is net of approximately       $7 million    of unallowable    costs
already   refunded    by state agencies.       The following    para-
graphs   describe    these overclaimed     charges.

Work Search/Suitable      Work Extended   Benefit  Exceptions     --
Federal   law provides    that there is no Federal     sharing    of
extended   benefits   if the state's    UI law does not require
extended   benefit   recipients   to accept any offer of suitable
employment,    to apply for suitable     work to which referred      by
the state agency,     or to actively    engage  in seeking work.       We
identified    two states which had charged      the Federal    Govern-
ment for $20 million      of Federal  share of extended     benefits


                                   -8-
when the states did not enforce   the "work search and
suitable work" provisions  required  by Federal  lawo

State and Local Extended     Benefit   Charges   -- Eight states
erroneously   obtained  $7 million    in Federal    funds for 50
percent   of extended  benefits   paid to ex-employees     of state
and local governments.      Extended   benefits   paid to former
employees   of state and local governments       are not subject   to
the Federal   share.

First Week Extended     Benefit   Payments    -- Federal   law provides
that, if the state law allows        for a compensable     waiting  week
for regular   benefits,    no Federal    share should be paid for
the first week on individual       extended    benefit   claims°   Five
states overcharged     the Federal    Government    by a net $4.1
million  for 50 percent     of first week extended       benefit
payments  because   the state law did not take this Federal           law
into consideration.      Three of these five states overcharged
the Federal   share while two states undercharged          the program.

Combined  Wage Claims     -- Eleven    states overcharged      the
Federal  share of extended      benefits    on combined    wage claims
by a net $2.4 million.       Combined    wage claims are claims paid
by one state based on an individual's           wages earned    in two or
more states.    The state paying      the benefits     bills the other
state(s)  for their share of the claim and is reimbursed              100
percent  of the other states'       share of the benefits,        in-
cluding  extended   benefit    charges.     Nine of these eleven
states claimed    the 50 percent     Federal    share of extended
benefits  at the time the extended         benefit   payments   were
paid, but they did not credit        the Federal     accounts   when the
other states   reimbursed    them.    Two of the eleven       states did
not seek Federal     reimbursement    for the extended      benefit
charges  reimbursed    to other states      on combined    wage claims.

Public Service     Employment    (PSE) Benefits    -- Nine states
overclaimed    Federal   PSE unemployment     benefits   by $2.2
million   mainly   because   regular  state unemployment     benefits
were classified _as PSE benefits.         Eight of the nine states
overclaimed    while   one state underclaimed      these benefits.

Reporting   Errors -- System      and clerical    errors   resulted   in
an additional     $4.1 million    of overreported     Federal   benefits
for various    programs.

Miscellaneous     Exceptions   -- Six states had undercharged        the
Federal   Government    for a net $1.4 million      in Federal   benefit
charges   for a variety     of reasons.     The largest   exception   was
one state's    undercharging    $1.9 million    of UCFE benefits
because   of. computer   programming    errors.



                                 -9-
Federal   Supplemental    Compensation    (FSC) Benefits--We
identified    approximately    $10.5 million    in FSC overpayments°
During   our audit period,     an individual's    FSC benefit
entitlement    was determined    by the state's    insured   unem-
ployment    rate (IUR).     If the state IUR increased,      the
claimant's    FSC entitlement    also increased;     if the IUR
decreased,    the claimant's    FSC entitlement    decreased.     These
overpayments    were mainly    caused by the state's     failure   to
timely   implement   new FSC entitlement     levels when the IUR
changed   and failure    to limit entitlements     to levels   estab-
lished   by lawo

Participant    Eligibility   -- Three states    reported   approxi-
mately   $40,009   of extended   benefits   and Federal   Supplemental
Compensation     (FSC) on behalf of ineligible      claimants   and one
state reported     extended  benefits    and FSC benefits   of $3.4
million   on behalf of claimants      whose eligibility    for Federal
benefits   had not been fully documented.

Unemployment    Compensation      for Federal     Employees    (UCFE)
Benefits   -- Since January       i, 1981, Federal      employing
agencies   are required      to reimburse     the Federal    Employee
Compensation    Account     in the Unemployment       Trust Fund for all
UCFE benefit     charges   based on Federal       wages earned after
December    31, 1980o     The state agencies        are responsible    for
identifying    UCFE charges      by Federal     agency and reporting
these charges     quarterly     to ETA.     ETA, in turn, bills the
Federal   employing    agencies,     which   then reimburse     the Federal
Employee   Compensation      Account.     We found that ii states
failed   to properly     charge    the Federal    employing   agencies
with $8°5 million      of UCPE charges.         One state was respon-
sible for a net $6°9 million          of these undercharges       while two
states   overcharged     the Federal     agencies.     Since the account
operates   as a revolving       fund, failure     to charge benefits      to
the Federal    employing     agencies    results    in additional    funds
being appropriated       to ensure     that the account     has sufficient
funds to cover UCFE benefit          disbursements.

Unemployment     Compensation     for ex-Service     Members    (UCX) --
Since October     I, 1983, states     are required      to identify   and
report UCX benefits       by Federal    military    agency responsible
for such benefits.        ETA then bills the Federal         military
agencies,    which are, in turn, responsible          for reimbursing
the Federal     Employee   Compensation     Account   in the
Unemployment     Trust Fund for their share of UCX benefits.
One state overcharged        these military     agencies   by $1o2
million   because    of a computer    programming     error.

We recommended    that states  reconcile  total UCFE/UCX
disbursements    quarterly  to the amount of UCFE/UCX    charged            to



                                 -10-
the Federal  employing      and military  agencies.     Any UCFE/UCX
benefits  not charged      should be thoroughly    documented°

Corrective   Action--Resolution      and corrective   action is
proceeding   on the reports     issued.    ETA has issued two final
findings   and determinations     disallowing   all $6.4 million
that was recommended     for disallowance     in these state
reports,   and the disallowed     amount has already    been refunded
to the U.S. Treasury.       In addition,    as a result of our
audit, one state collected       and returned   to the UoSo Treasury
$379,878   in FSC overpayments.


Federal   Employees/UI     Crossmatch

As discussed     in our prior     semiannual     report, we matched
payroll   information     for eight participating         Federal   agencies
against   unemployment     benefit    payments    in 14 states     for the
period October      4, 1980, through      October    2, 1982.     Partici-
pating   Federal    agencies   were the Departments        of Agriculture,
Commerce,    Health    and Human Services,       Interior,    Labor, and
Treasury    (including    IRS); the Tennessee        Valley Authority;
and the Veterans      Administration.        Participating     states were
selected   based on the number of total and seasonal               employees
of participating      Federal   agencies.

We are continuing      to follow   up with the states and Federal
agencies   on the overpayment      cases submitted.      As a result of
our audit report,      the states declared     a total of 954 over-
payments,    representing    $535,011   in unemployment    benefits°
Of this total, 528 cases were determined           fraudulent,   with
benefits   totaling    $401,884.    To date, 427 of the over-
payments   have had some repayment       activity,   with a total of
$98,158   being collected.       Of the overpayments     identified,
281 cases have been totally        repaid.

 In the Department      of Labor, 123 claimants    were overpaid
 $59,267.     Of this total,    41 cases were fraudulent,
 representing    $31,580.     Forty-eight  employees   have made
repayments     totaling   $12,058;   15 of the overpayments    have
 been repaid in full.

We have provided      state responses    to the Federal      agencies    to
assist   the Inspectors     General   in taking appropriate       adminis-
trative   or prosecutive     action   at the Federal     level.    Appro-
priate   actions   to recover    the benefit    overpayments,     assess
penalties,    and seek state prosecutions        are also being pur-
sued at the state levels        in coordination     with the Department
of Labor.     Several    of the states and Federal       agencies    are
actively   pursuing    these corrective     actions.     However,
complete    data on actions     taken are not available       at this


                                 -ii-
time due to the      lengthy  process    involved   in   investigating
and prosecuting      the cases.

The Treasury     Department    elected   to independently     review    its
potential    UI overpayment     cases.    Treasury    has provided
periodic    statistical    data to DOL on the progress        of its
efforts°     Based on the information        provided,   Treasury    has
initiated    772 investigations      and anticipates     initiating    16
more.    These cases involve       $331,427   in UI overpayments.        Of
these cases, 304 have been referred           for Federal    prosecution,
and 132 have been accepted°          An additional     45 cases have
been referred     for state prosecution,        and 4 have been ac-
cepted.     Administrative     referrals    have been initiated      or are
anticipated     in an additional     2,197 cases involving       $500,827
in UI overpayments°

We plan to issue a final followup    report summarizing    actions
taken on all overpayment  cases identified    in the crossmatcho
We will also report on actions   taken at the Federal    level to
prevent or deter future  UI overpayments    to Federal  employ-
eeso


Review     of Kentucky   SESA   Operations

We reviewed    Unemployment     Insurance    (UI) operations    in the
Kentucky    State Employment     Security   Agency   (SESA) o Our
review   included    UI tax operations     and benefit    payment
controls    and limited    reviews   of employment    services    and
administrative      funds°    We found weaknesses     in cash
management,     field audits,    benefit   payment   controls,    and
administrative      operations°

The State was earning     interest   through     overnight   investments
of UI funds which were on deposit         in local bank accounts.
However,  the State failed      to return    interest   earnings
totaling  $3ol million    to the UI account.         As a result   of our
review,  $1o5 million   was returned,      and we are recommending
that the remaining    outstanding    interest     be returned    to the
UI account°   Further,    we estimate     that an additional
$614,539  in interest    could have been earned        in Fiscal Year
1984 had the Agency    not maintained      excessive    daily cash
balances  in the benefit     payment   account°

Combined     wage claims were not being charged    to       the employer
reserve     account°   This created  a $58.9 million        deficit  in
another     account  as of September  30, 1984o

Documentation   did not     adequately  support  designation   of
"reimbursable   status"     employers.   In Kentucky,   reimbursable
employers   do not have     to post surety bonds or pay security


                                  -]2-
deposits;  they are exempt from FUTA and, thus, do not share
in the cost of administering       the UI program+    In addition,
the Kentucky   system allows    these employers    to avoid payment
to cover UI benefits     paid to employees    for 90 to 120 days+
As a result of this delayed      billing  cycle, the UI Account
lost interest   earnings    of $318,194  for the period July I,
1983, to June 30, 1984.

Kentucky   utilizes   a computerized     model crossmatch      system to
identify   potential   overpayments.      The effectiveness       of this
system   has been minimized     because    (i) five large employers
were excluded    from the crossmatch,       (2) claimants     with less
than 4 consecutive     weeks of benefit      payments    were bypassed,
and (3) the system was not used to generate             second requests
to employers    who had not responded       to initial    correspon-
dence.    Further,   benefit  payment    recoveries    were not
properly   managed,   and repayment     agreements    were not effec-
tively   enforced,   even in cases involving       legal action.

Various     problems     were   identified   in the   administrative     area:

     --      Funds totaling     about $i°I million   were expended
             and/or   obligated    in excess of total obligational
             authority    for Fiscal Years 1979 through    1984.

     --      Resources  on order were not being effectively
             controlled  and monitored.   As of September   30,
             1984, resources   on order had been overstated    by
             $435,250+

     --      A total of $25,221     in excessive   amortization         and
             interest   was charged   against   DOL grants for         two
             state office   buildings    that had been fully
             amor tiz ed.

The Kentucky   Agency   provided   a positive   response  to our
monetary  findings    and has corrective    action   under way in
many areas.    The Agency    also agreed   to work with ETA to
resolve  all administrative      findings+


Joint     ETA/OIG   UI   Task   Force

As discussed   in our previous    semiannual report, we agreed to
establish   a joint ETA/OIG   task force to develop    options   for
resolution   of findings  cited in our 1983 national      audit of
tax and cash management     in the UI program.    Outstanding
audit issues which have not been fully settled        remain   in the
following  areas:




                                    -13-
     --        cash    management,

     --        reimbursable        employers,

     --        status     determination,

     --        field     audit,    and

     --        delinquency        controls.

In this reporting    period,  the task force met twice.        As a
result of these meetings,     UI agreed    to develop   a series of
alternatives  to our original      report recommendation     that
legislative  changes    are needed    to improve  cash management.
UI contends  that legislative      changes   are inappropriate    or
infeasible°

On September     30, 1985, we received     a copy of an internal       UI
memorandum    which   refers  to the fact that ETA has indepen-
dently   reviewed    the UI tax and cash management       operations     in
41 of the state agencies       and has encouraged    states    to
conform   to many of the OIG recommendations.          Additionally,
ETA indicated     that they have established     two internal      task
forces   to address    the issues.    We have requested     more
detailed   information     on the corrective   actions    referred    to
in this memorandum.

We still believe      that an ETA/OIG      task force approach      is a
viable   means of correcting       outstanding     tax and cash manage-
ment audit issues°        However,    until we receive     reports   and
documentation     supporting    corrective     actions  taken in
response    to the original     audit findings,      we cannot   consider
these issues closed.


                          Job   Training      Partnership   Act

Grants    to    States

The purpose     of the Job Training     Partnership     Act (JTPA) is to
provide   job training     to economically     disadvantaged      individ-
uals,   individuals    with special    barriers    to employment,      and
dislocated    workers    to assist  them in obtaining       productive
employment°      Under Titles    II and III of JTPA, the Secretary
of Labor    grants funds to 57 states       and entities      that, in
turn, distribute      funds to service     delivery    areaso     Grants
are used for (1) adult and youth programs,             (2) summer youth
programs,    and (3) dislocated     worker    assistance°      Fiscal    Year
1985 budget     authority   for these programs      was $2°9 billion.




                                         -14-
We have concentrated       our JTPA review efforts       on evaluating
major components     of the JTPA program.         As explained   in
previous   semiannual    reports,    our reviews    go beyond the
normal,   routine   financial     and compliance    audits,  which are
the responsibility      of the states,     to evaluations     of the
economy,   efficiency,     and effectiveness      of operations   from a
nationwide    perspective.      For example,     a review of partici-
pant eligibility     will determine      the extent to which     the
program   is serving    those individuals      whom the Act intended,
i.e., those persons      economically     disadvantaged,    with serious
barriers   to employment,      or who have been dislocated       from
their jobs.     While   field work on this project        has been
essentially    completed,     analysis   is still in process.


Special   Targeted    Programs

Indian and Native      American    programs    are federally     adminis-
tered programs     authorized     by JTPA.     The purpose    of the
Indian and Native      American    program   is to provide     job
training   to economically      disadvantaged,      unemployed,    or
underemployed     Indian and other Native Americans.             Migrant
and Seasonal    Farmworker     programs    provide   the same oppor-
tunities   to migrant     and seasonal     farmworkers    who are
unemployed    or underemployed      in the agriculture       industry.      In
the past, the services        offered    in these programs     have been
provided   by grantees     funded   under the Comprehensive         Employ-
ment and Training       (CETA) program.      Most of these same
grantees   continue    to provide     many of the services       under
JTPA.    Fiscal Year 1985 budget authority           was $62 million      for
the Indian and Native American          programs    and $60 million      for
the Migrant    and Seasonal     Farmworker     programs.

We have traditionally      performed   financial   and compliance
audits for these grantees.        However,   with the enactment     of
the Single Audit Act, we will be emphasizing          reviews   of
program  results   and economy    and efficiency.     Additionally,
our technical    assistance    and training   efforts  continue.

Technical   Assistance    and Training    in Financial   Management    --
In our last semiannual       report, we discussed     a joint initia-
tive with ETA to provide       technical   assistance   and training
in financial    management    for the Indian and Native American
and Migrant    and Seasonal    Farmworker    (MSFW) grantees.     Audits
of these grantees'     programs    have historically    disclosed
weaknesses    in financial    management   systems.

The training  for the grantees   was two-phased.     The first
phase consisted   of workshops  which addressed    grantee   prob-
lems in budgeting,   cost allocation,   contracting,    accounting



                                  -15-
systems,   internal   controls,     and   eligibility   systems.   The
results   of these workshops       were   discussed   in the previous
semiannual    report.

The second phase of the training       for Indians    and Native
American   grantees  consisted   of onsite visits     to 23 selected
grantees   primarily  for technical    assistance    in accounting
systems,   financial  reporting,   eligibility    systems,   and
contracting°

We revisited    10 of the 23 grantees    to determine     the impact
of this assistance°      Results  of the visits     indicated    that
our efforts    improved  their accounting    systems,    produced   more
accurate    and useful  financial  reports,     improved    their
eligibility    systems,  and facilitated    revision    of contracting
procedureso

For phase two of the MSFW training,          both the grantees      and
ETA agreed    that an additional     workshop    would  be more
beneficial    than onsite   technical    assistance    visits.     The
primary   focus of this workshop      was to prepare      grantees    for
procuring   their own audits     as required     by new regulations.
The information    provided    should assist     the grantees    in
selecting   qualified   CPA firms to perform        the audits and
monitoring    the auditors'    compliance    with GAO standards°


Job   Corps

Title   IV of JTPA reauthorized        the federally     administered    Job
Corps program.      The Job Corps provides         programs   of educa-
tion, vocational      training,    work experience,      and counseling
to disadvantaged     youth    aged 16-21.      The program    is designed
to assist young individuals         who need and can benefit        from an
unusually    intensive    program,    operated    in a group setting,     to
become more responsible,        employable,     and productive     citi-
zens.    Budget authority      for Fiscal Year 1985 was
approximately     $616 million.

Procurement    -- Job Corps has made considerable      progress   in
improving    its procurement    process.   However,  the organiza-
tional   structure   of the procurement    function  does not
separate   contracting    authority   from program  responsibility.

Executive   Order 12352,    signed by the President       on March 17,
1982, ordered    reforms   in Government    procurement.      To make
procurement   more effective     in support   of mission     accom-
plishment,   the heads of executive      agencies    engaged    in the
procurement    of products   and services    from the private       sector
were to establish     clear lines of contracting       authority     and
accountability.


                                  -16-
On June 30, 1983, OMB issued implementation          guidance    on the
various   provisions   of this Executive    Order.     The guidance
points out that the events       of the past decade,      from the
recommendations     of the Commission    on Government     Procurement
to the issuance     of Executive   Order 12352,    have reinforced
the need to recognize      the importance   of the procurement
function.

The   guidance   further   provides     that:

      • . . program     responsibilities     and contracting
      authority   are distinct     and separate     functions•
      Therefore,    in order to establish       clear lines
      of contracting     authority    and accountability,
      contracting    authority    should flow through      a
      clearly   defined   path or paths in each agency
      separate   from the program      missions   of the agency.

The implementation      guidance    emphasized   that the independent
character   of judgments     and decisions     of the contracting
officer   must be preserved•       OMB Circular    A-123,   Internal
Control   Systems,   provides    that work should     be assigned    so
that no one individual       controls    all phases   of an activity,
thereby   preventing    a situation     that permits   errors or
irregularities     to go undetected.

In the current     organizational     structure   of Job Corps,   each
of the 10 regional      directors    has contracting    as well as
program   authority.     As a result,     the potential   exists  for
procurement    actions   to be unduly     influenced   by a regional
director's    subjective    impressions    of a current   or prior
contractor's    daily program     performance.

Although   no abuses    resulting     from this organizational
structure   have come to our attention          to date, the current
vesting   of both program      and contracting      authority    in the
regional   directors    is not, in our opinion,         consistent    with
Federal   procurement    guidelines      (Executive   Order 12352) and
sound internal     control    practices•     To improve     internal
controls   and enhance     program    and contract     integrity,    we
recommended    in a September      1985 memorandum      to ETA that the
Job Corps procurement       function    be consolidated      into the ETA
National   Office with procurement         negotiations     conducted    by
independent    contracting     officers.

ETA believes    that the internal     controls   established    are
operating   well, provide    adequate   lines of authority      and
responsibility,     and ensure   effective   checks and balances.
In the absence    of any evidence     that existing    controls    are




                                 -17-
inadequate,  ETA believes   it is inadvisable   to dismantle           the
Job Corps procurement   system through   centralizing   the
procurement  function.


EMPLOYMENT     STANDARDS   ADMINISTRATION

The Employment    Standards   Administration     (ESA) is composed     of
three program    offices:    the Office    of Workers'    Compensation
Programs   (OWCP), the Wage and Hour Division,         and the Office
of Federal   Contract   Compliance    Programs   (OFCCP)o

     --      OWCP administers    three laws providing      compensation
             and medical   benefits,   primarily    for on-the-job
             injuries  and occupational     diseases,   to civilian
             employees   of the Federal    Government,   coal miners,
             and longshore    and harbor   workers°

     --      Wage and Hour enforces      minimum  wage and overtime
             standards,    establishes   wage and other standards   for
             Federal   contracts,    and enforces  aspects of other
             employment    standards   lawso

     --      OFCCP administers     an Executive   Order and portions
             of two statutes    which prohibit    Federal  contractors
             from engaging   in employment    discrimination    and
             require  affirmative    action  to ensure equal employ-
             ment opportunity°

During   this reporting     period,    in OWCP's    Federal   Employees'
Compensation    Act (FECA) program,        we continued     to monitor   the
development    and implementation        of a new ADP system,      com-
pleted   a survey of OWCPIs vocational          rehabilitation     program,
and continued     to support     regulatory    reform and proposed
legislation.      In OWCP's    Black Lung program,       we completed    a
review of the self-insured         employers    program    and support
legislation    to eliminate      the deficit    in the Black Lung Trust
Fund and a plan submitted         to Congress    to eliminate     the
current   case backlog     pending    appellate    review.    We also
completed    an extensive     survey   in OFCCP,    continued   followup
in Wage and Hour on our recommendation             to require   employers
to deposit    undistributed     back wages     in the UoS. Treasury      as
miscellaneous     receipts,    and performed     a limited    review of
internal   controls    over back wage payments.

A discussion  of our review of ESA          debt collection   activities
is in the section  on Departmental          Management  beginning   on
page 36.




                                 -18-
             Federal    Employees'      Compensation   Program

The Federal   Employees'    Compensation    Act (FECA) is the sole
form of workers'    compensation     available  for Federal     employ-
ees who suffer on-the-job       injury or occupational      disease°
The Department    of Labor   is responsible    for administering      the
Act, but all Federal     employing    agencies  including    the Office
of Personnel   Management    and the Office    of Management     and
Budget  influence   how effectively      it is implemented.

To administer     the program     for Fiscal Year 1985, FECA had a
nationwide    staffing    level of 928 and a budget of almost
$52.3 million.       The appropriation     for Federal    employees'
compensation     benefits    totaled  $1.08 billion,    of which     $879
million   _epresented     reimbursements    from other Federal       agen-
cies' appropriations       or revenues.     Approximately     45,800
claimants    received   long-term    benefits,   and about 1.4 million
payments   were made in Fiscal       Year 1985.


Federal   Employees'    Compensation      System   (FECS)   Development
and OIG   Monitoring    Activities

Since early 1984 we have been monitoring         the development          of
the FECS Level II system.       Our overall    assessment    of the
Level II development    effort leads us to question        whether        the
system will correct    program   problems,    be cost effective,          and
be implemented  within   a reasonable     timeframe.     Following        is
a comprehensive   discussion    of the system development       and       the
results  of our monitoring     to date.

Background    -- In 1974, the Division      of Federal    Employees'
Compensation     began to develop    a comprehensive     claims  proc-
essing   support    system.   A feature   of the system was instal-
lation of data processing       equipment   and application     software
in all district      offices.   However,   initial   attempts   at
operating    the contractor-developed      application    software
system were unsuccessful.

After this attempt,       the Division     initiated   a two-phase
effort   to develop    software    for a claims processing        support
system.    The first phase, Level        I, focused    primarily    on
automating    clerical    and manual    processing    activities    and was
implemented    in four stages°        The four stages,     which were
installed   from August     1977 through     June 1981,    included    the
claimant/case     data base, management        reporting,    bill and
compensation     payments,    and word processing.        This system
currently    processes    approximately     $1.08 billion     annually    in
benefits.




                                 -19-
PECS Level II System Development    -- In 1978, with contractor
support,   the Division began the initial   design   for the Level
II system,   the second phase°   The objectives    of the system
are to :

    --     provide   automated   support and improved             manual
           procedures    for case processing,

    --     improve    productivity      and    throughput    within    district
           offices,

    --     provide  cost avoidance    and savings   through    improved
           control  of administrative     costs, benefit    disburse-
           ments,  and benefit   recovery,    and

    --     provide  more     timely   and     higher   quality    service   to
           claimants o

Thus far, ESA has obligated       $24.6 million--S8.9      million    for
systems   development   activities    performed    by the MITRE
Corporation    from 1978 through    1984 and $15o7 million        for
systems   development   activities    performed    by Martin   Marietta
Data Systems     (MMDS) from 1984 to the present°         The MMDS
contract   was awarded   in January    1984 and entailed      life cycle
costs of up to $102 million,       assuming    exercise   of all avail-
able options°

ESA has received     approval    from Congress    and OMB for two
reprogramming    requests     to accommodate    high front-end    costs
and comply with GAO financing         requirements.      Of the $11.6
million   needed  in Fiscal Year 1984 for Level          II, $3.4 mil-
lion was reprogrammed       from other program      areas; and in
Fiscal  Year 1985, of the $11.7 million          needed,   $5.2 million
was reprogrammedo       Funds reprogrammed      from other areas
account   for over 36 percent      of the amount     needed for Fiscal
Years 1984 and 1985.        While costs for the contract       were
shifted   from one year to another,        the reprogramming     has not
caused  the overall     cost of the contract      to be materially
changed   at this time°

In March 1985, ESA suspended   progress   payments    to MMDS until
the delays  in the project  had been remedied    and an accept-
able level of progress   had been achieved    and maintained.     In
June 1985, ESA and MMDS reached    an agreement    which:

    --     required   MMDS    to deliver   new baseline          design
           specifications      by September   5, 1985,

    --     extended   the implementation schedule for a baseline
           acceptance   test from May 20, 1985, to May 20, 1986,



                                 -20-
     --    provided an additional         $850,000   to MMDS     for    changes
           in the original  design        specifications,

     --    provided     for an upgrade   of some     equipment     and
           operating     system software,   and

     --    changed     the liquidated     damages   provisions     of    the
           original     contract.

OIG Monitoring     Activities    -- Since 1981, OIG has issued
several   audit reports     recommending     corrective     action    on
problems   with case management,        fraud and abuse       in FECA
program   operations     by claimants    and employees,       and financial
reporting.     For example,     a recent audit of the Fiscal Year
1983 chargeback      billings   to Federal     agencies    for their
employees'    compensation     benefits    resulted    in an adverse
auditor's    opinion   on the chargeback      listings     because    they
were not found to fairly present          FECA disbursements        and
recoveries.      In responding     to the draft report,        OWCP
officials    advised    us that they plan limited        corrective
action   on the current     automated    Level    I system    because    they
believe   that the replacement       Level II system will correct
most of the deficiencies        identified     by the audit.

OIG has issued three Systems         Development    Review    Reports
outlining    contractor    performance    problems,    general    design
problems,    and specific    weaknesses    in the Level II financial
management    subsystem.     The Level II system       is designed     as a
highly   integrated    system consisting      of seven interdependent
subsystems    and using data base technology.           We have concen-
trated   our review    efforts   on the financial      management     sub-
system.    We believe    the financial     management     subsystem    forms
the backbone     for Level II because      all financial      transactions
will be processed,      controlled,    and reported     within    the
subsystem.

The first report,      issued in September       1984, reviewed    the
functional    requirements     specifications      and contractor
performance    through   August    1984.    This report identified
problems   with   (i) the original      design   specifications    and
(2) management     turnover    among MMDS staff.       None of the
initially   negotiated     deliverable     deadlines,    which included
the MMDS system     design    specifications,      had been met at that
time.    ESA officials     stated    in their   response    to the report
that they had intensified         their level of involvement       in
overseeing    contractor    design    efforts   with special emphasis
on monitoring    quality    assurance     and control.




                                  -21-
        The second     report   issued   in March 1985 continued      the review
        process.     We again cited problems       with contractor     perfor-
        mance:     (i) excessive     MMDS management    turnover,    (2) the lack
        of deliverables,      and (3) the number      of changes   initiated    by
        both ESA and MMDS to the original          specifications.      This
        report   also stated concerns       with the schedule     for delivering
_-   " ,the system    design    specifications   for the financial      manage-
        ment' subsystem,     which was scheduled      to be the last subsystem
        devel oped.

        The third report,      issued to ESA officials        on September    3,
        1985, focused    on the December      1984 MMDS subsystem       baseline
        specifications     for the financial      management    subsystem°     This
        report   identified    omissions    and weaknesses     that could pre-
        vent the subsystem      from meeting     stated   objectives   and from
        providing    an accounting    system which would meet GAO
        Standards    and the Federal     Managers'    Financial    Integrity   Act
        requirements.      Specifically,     we reported    that the subsystem
        specifications     did not define      the following:

             --    accounting    processes       of! reconciliation        and
                   adjusting    entries,

             --    chargeback    process,

             --    debt   collection     process,

             --    interfaces    (linkages)       between     subsystems,

             --    exception    criteria/reporting           functions,

             --    bill   edits/audits      function,       and

             --    bill   examination     help    screen     function°

        The subsystem    specifications     also     did     not   fully   define   the
        manual  disbursements     function.

        We also reported  or reiterated     our concerns   regarding
        (i) lack of contractor    performance,    (2) funding   issues,              and
        (3) the absence  of contingency     plans  (to be implemented                if
        Level II proves  unsuccessful)°

        ESA officials     initially  responded    that they believed     the new
        baseline   specifications    would correct     many of the weak-
        nesses.    Many of the problems      identified    were the result of
         (i) inadequacies     of the original    document    reviewed,  which
        was not approved      by ESA as an acceptable      basis for further
        development,    (2) the scope of the OIG review,          which was




                                          -22-
limited   to one part of the integrated       system, and (3) the
identification   of weaknesses outside       the scope of the
contractor's   specifications.

On September    5, 1985, MMDS delivered       a revised   financial
management    subsystem    baseline   specification   which,   in our
opinion,   provided    improved   definitions    for the interfaces
(linkages)    between   subsystems    and the bill examination      help
screen   function.    However,    the other identified     weaknesses
remained.

ESA conditionally     accepted  the system design      specifications
as a whole.     In that acceptance,     ESA identified     conceptual
problems   in the financial    management    subsystem    specifica-
tions with fee edits,      bill processing,     recording   of debit
voucher   information,    the definition   of disbursement      data
base records,    and other areas.     All problems     identified    in
the ESA response     must be corrected    prior    to final
acceptance.

Recommendations     -- We recommended     that the Deputy  Under
Secretary   for   Employment  Standards    take the following
actions:

     --    ensure   that FECA program  operations    comply with
           requirements   of the Federal   Managers'   Financial
           Integrity   Act (FMFIA) either   through   Level  II or
           other alternatives,

     --    ensure   the financial    management   subsystem   design
           deficiencies    identified    in our third report     are
           corrected    in the contractor's     September   5, 1985,
           baseline   design,

     --    require   that a current  and    realistic  cost estimate
           be prepared   for completing     the system's   design and
           implementation,   and

     --    develop   a contingency   plan outlining   options,  while
           recognizing    the importance   of the Level II system
           and the problems     of the Level  I system,   that do not
           limit the Department     to the current   course of
           action.

Corrective   Actions   -- ESA requested     that the Comptroller's
Office  perform   an assessment    of the   Level II system for
conformance   with FMFIA    requirements    and OMB's objectives   for
financial   management   systems.




                                -23-
Also,   when    conditionally      accepting     the system       design
specifications,        ESA noted     several    areas    in the financial
management      subsystem     that must     be corrected°         In their
response     to OIG,     ESA officials      stated    that   many    of the
deficiencies       noted    in our third     report    were   to be corrected
in the MMDS      September      5 design    submission.       However,       our
brief    review    of the areas      in question      showed    that    only    two
out   of eight     areas   were   improved;     the   remaining      six areas
showed    little    or no improvement°

ESA also     provided     OIG with    cost   estimates    for completing     the
system's     design    and implementation        except   for the ESA em-
ployee    costs°      Further,   with    respect    to developing    a con-
tingency     plan   outlining    options,     ESA officials     stated   that
they   are prepared       to develop     a realistic    contingency    plan
should    the need     arise°



Vocational       Rehabilitation              Program

During    this  semiannual          period,    we completed     a review     of the
administration      of the         Vocational    Rehabilitation       program°
Our   review   was limited           to vocational     rehabilitation      services
provided     to FECA    claimants.     We found    the Vocational     Reha-
bilitation      Program    to be a viable,     cost   effective   method    of
reducing     Federal    employees'    compensation     payments°     However,
our   review    did disclose     that  opportunities      exist  for more
effective     administration       of the program     by strengthening:

      --       the   controls      over       program       expenditures,

      --       the   screening         of    potential       participants,

      --       the guidelines           for reviewing           and approving        the
               reasonableness           of proposed          services,

      --       the new system           for selecting    and           evaluating        private
               rehabilitation           counselors,   and

      --       the system        for    accumulating          and    reporting      program
               statistics°

We   believe     that    the     corrective            actions,     when    fully   imple-
mented,    should       correct        the    system      weaknesses        identified       by
our   review°




                                             -24-
Regulatory    and   Legislative    Reform

Progress   anticipated     for FECA regulatory    and legislative
reform during this period has not occurred.            Regulations    are
still pending     on medical   fee schedules   and administrative
procedures,    and the Department's     proposed   legislative
package   has still not been introduced       in Congress.      These
delays   continue   to impact on the Department's       ability    to
manage   the program    and on the employing     agencies'   abilities
to manage    their FECA responsibilities.

Medical   Fee Schedules     -- Since 1980, the OIG has stressed
regulations    which would establish        maximum   medical   fees for
specific   services    within    geographic    regions.    Medical    fee
schedules    could result     in substantial     savings   and more con-
sistent   payments   for the same services         to different    medical
providers.     We have reiterated       our recommendation      in semi-
annual   reports   since September      1981 and testified      to
Congress   in 1981 and 1982 on this matter.             In our last
semiannual    report, we noted that "...            ESA has informed      us
that the fee schedules        and accompanying      regulations    should
be published     in final form by June 1985."

Despite   assurances   to implement     medical   fee schedules     and
the need for such schedules       in the Level     II system,    the
schedules    have not been adopted.        ESA has advised     us that
some of the comments      made on the proposed       regulations
raised   complex questions    that had to be addressed         before
final regulations     could be proposed.        At the end of this
reporting    period,  the Deputy    Under Secretary      for Employment
Standards    had the proposed    final regulations       for review.
ESA now plans for the final regulations           to be published     and
implemented    by early Calendar     Year 1986.

Procedural    Regulations   -- We have continued      to urge
publication    of these regulations     since our September      1983
semiannual    report.    The regulations    would bring about a wide
range of needed changes      and specifically     clarify:    (i) re-
sponsibilities     of employing   agencies,    (2) the claims filing
process,    (3) responsibilities    for returning     injured  employ-
ees to work, and (4) claimants'        reporting   requirements.

In our prior semiannual      report, we noted that the draft
procedural  regulations    had not been approved    by the Deputy
Under Secretary    for Employment    Standards.   During this
reporting  period,    the package   was "fine tuned" and has been




                                  -25-
submitted    to the Deputy   Under Secretary    for approval.    Fol-
lowing that approval,      the package   must still receive   depart-
mental   approval   and OMB clearance    before  being published    in
the Federal    Register  for public    comment.

ESA could    not   provide    us with       a proposed   date   for   publica-
tion.

DOL FECA Legislative      Proposal    -- Starting   with our September
1981 semiannual     report,   we have supported     and stressed   the
need for the comprehensive        FECA legislative     proposal
developed   by the Department'.       The proposal,    first introduced
as the Federal    Employees'     Reemployment   Compensation
Amendments    of 1981, has since been revised°          The proposal,
designed   to apply benefits      under the Act more equitably       and
significantly    enhance    management   of the FECA program,     was
submitted   but not introduced       in the 1983 Congress.

ESA is currently      assessing the impact two legislative
proposals would      have on its FECA legislative  proposal:

     --     the Administration's     tax reform  proposal  (the
            President's    Tax Proposals   to the Congress  for
            Fairness,   Growth   and Simplicity)  which would tax
            FECA compensation,     and

     --     the Civil Service   Pension   Reform Act of 1985 (So
            1527) which would   establish    a new retirement   and
            disability  plan for Federal     employees  who enter
            Government  service  after December     31, 1983.


                             Black    Lung    Program

The Department     of Labor administers     Part C of the Black Lung
Benefits   Act.    The Act provides    monthly    compensation     and
medical   treatment   benefits   to coal miners     totally    disabled
from pneumoconiosis      arising  from their employment        in or
around   coal mines°     The Act also provides      for monthly
payments   to eligible    surviving   dependents.      Benefit   costs
are paid by coal mine operators        or by the Black Lung
Disability    Trust Fund if no coal mine operator          is liable    for
payment °

To administer   the program    for Fiscal Year 1985, Black Lung
had a staffing   level of 401 and a budget        of over $23
million.    The appropriation     for the Black Lung Disability
Trust Fund for disabled     coal miners'     benefits    totaled   almost
$638 million.    Approximately     91,000 claimants      were expected
to receive monthly    compensation     benefits   and an additional
105,800  miners  were eligible     to receive    medical    benefits°


                                     -26-
Review   of   Self-Insured   Employers

During   this reporting    period,   we performed   a limited     scope
review to determine     whether    ESA's Division   of Coal Mine
Workers'   Compensation    (DCMWC) was properly     administering      the
portion   of the Black Lung Benefits      Act which    allows    certain
coal mine operators     to be "self-insured."       This self-
insurance    is to cover liabilities     that may be incurred        as a
result   of total disability     or death of the miners       due to
pneumoconiosis   o

Such authorization      requires   that all self-insured       companies
either   (i) meet specified      indemnity    bonding   requirements,
(2) deposit    negotiable    securities    with a Federal     Reserve
Bank, or (3_) establish      a Trust Fund which will pay future
black lung benefits      to their employees       in the event the mine
operator   goes bankrupt.      The principal      attraction   of self-
insurance   coverage    is lower costs compared        to insurance
purchased   from an insurance       carrier.

Our review disclosed       that, for the last 4 years,          5 of the
127 self-insured      coal mine operators       were collectively
underbonded    by $116 million.        These operators      were allowed
to retain self-insured        status    by DCMWC while     operating    on
bonds significantly       lower than the most recently          computed
amounts   prescribed.      Our review of DCMWC's        files and
discussions    with DCMWC officials         led us to believe      that,
because   several   of the larger       companies   had challenged      the
necessity    of such large bond requirements,           DCMWC had
accepted   the bonding     levels    obtained   by the five companies
rather   than revoking     their self-insured       authorizations.
This was irrespective        of the other 122 self-insured
companies    that complied     with DCMWC's     prescribed     indemnity
bonding   requirements.

The Associate    Director    for Coal Mine Workers'      Compensation
advised   us that enforcement      of the self-insurance       require-
ments was initially      held in abeyance      in Calendar    Year 1981
for discussions     of alternative     bonding   formulas°     Further,
new amendments     in 1981 to the Black Lung Benefits          Act
transferred    significant    liabilities    from individual      coal
mine operators     to the Black Lung Disability        Trust Fund.      The
Associate   Director   further    stated   that specific    coal mine
operators   affected   by the amendments       and the effect of the
transfer   on individual     companies'    liabilities    have now been
largely   identified.

To prevent   the appearance   of favoritism    and to ensure  the
payment  of benefits   by "self-insured"    employers,   we recom-
mended in a draft report that DCMWC review        the bonding
levels  established   for the five companies     and either


                                  -27-
(i) devise    a new bonding     requirement    formula   for all
applicants     for self-insurance     or (2) enforce     established     or
adjusted    indemnity   bonding   requirements     by revoking    parti-
cipation    in the optional     self-insurance     program   when com-
panies   fail to obtain     an indemnity    bond in the required
amount°     The Deputy   Under Secretary     for Employment      Standards
agreed   to implement    our recommendations.


Proposed   Black      Lung   Legislation

The Black Lung Trust Fund           was created     in 1978 to ensure that
the coal industry     met its       fiscal   responsibilities     under the
Black Lung Benefits      Act.       An excise    tax on coal production
was levied    to support    the     fund, but the excise       tax has
proved   inadequate   to cover        the outlays    over the years.    As a
result,   over $2.5 billion         had been borrowed      from the U.S.
Treasury   as of the end of         Fiscal  Year 1984.

In July 1985, the Deficit      Reduction    Amendments   of 1985 was
introduced    in Congress.    This legislation     would   temporarily
raise the excise     tax on coal production      and by placing
restrictions    on future   increases    in Black Lung benefits.
According    to ESA projections,     the additional    tax revenue
would halt further     borrowing   before   the end of Fiscal     Year
1989 and repay the accumulated        debt by the end of this
century°     We fully support    this proposed    legislation.


Black   Lung   Case    Backlog

GAO has estimated     that it will take the Department     35 years
to eliminate     the backlog   of Black Lung benefit  cases pending
appellate    review°    Currently,  more than 21,000 cases are
awaiting   hearings   by administrative    law judges with approx-
imately   5,000 cases being added each year.

Based on the findings       of a senior   level task force,     the
Secretary    has asked for congressional       support   to implement    a
4-year   plan to eliminate     the backlog    of Black Lung benefit
cases.    The plan calls for productivity         improvements    in the
Department's     operations   and increased    program   resources   of
$17o7 million     and 141 new positions°       Under the plan,     it is
estimated    that administrative     law judges will be able to
dispose   of 8,500 cases a year in contrast         to the current
5,400°     (See also sections    beginning    on pages 40 and 41.)

We fully support  the Department's     request   for       additional
funding and staff to eliminate     tlhe backlog°




                                    -28-
          Office    of   Federal   Contract   Compliance     Programs

The Office of Federal        Contract    Compliance    Programs   (OFCCP)
enforces    Executive    Order 11246,     Section   503 of the Rehabil-
itation   Act of 1973, and 38 U.S.C 2012 of the Vietnam              Era
Veteran's    Readjustment     Assistance     Act.   The Executive    Order
and statutes     prohibit    employment    discrimination     by Federal
contractors     on the basis of race, color, sex, national
origin,   handicap,     religion,    or veteran    status°    In 1978,
responsibility      for contract     compliance    was removed from the
Ii major Federal      Departments     and centralized      in OFCCPo    The
new centralized      structure    preserved    most of the II depart-
mental   program    hierarchies°

The program   covers approximately      10.0,000 contractors,    30,000
of which are primary     contractors,    at any given time.      These
contractors   operate   approximately    225,000   facilities   employ-
ing approximately     31 million   people,   14 million   of which are
minorities   and women.     Total contract    dollars   exceed  $100
billion.    To administer    the programs    for Fiscal Year 1985,
OFCCP had a staffing     level of 964 and a budget of $46.8
million.


Survey    of OFCCP

During   this reporting    period,   we completed    an extensive
survey   of OFCCP to determine      if (i) OFCCP   is managing    its
resources    efficiently,    (2) the methods   and procedures     used
to accomplish     its mission   are effective,    and (3) the program
is achieving     its intended   results  as established     by the
Congress   and the Executive     Branch.    A draft report was
issued   to ESA in July 1985 and a final report in September
1985.

We found    that OFCCP has had limited   effectiveness    in
carrying    out its mandated mission   and functions   because:

     --     the    organization     and structure     limit productivity
            and    prevent   the   efficient  use    of resources,

     --     procedures   inhibit      complete,     timely    and   economical
            enforcement,   and

     --     results  are not regularly         measured      to determine
            their impact,   if any.

Many of the defects      created   or magnified    by the 1978
consolidation     continue   to exist.    The consolidation    caused
structural    imbalances   which continue     today and, along with



                                    -29-
other weaknesses,    have contributed    to inefficient   opera-
tionso    Further,  a reduction-in-force    in 1982 did not
eliminate    these major organizational    and structural   weak-
nesses o

Organization     and Structure   -- Our survey disclosed     that
OFCCP's   organization    and structure    is impaired  by excessive
overhead,    high grade levels,     inefficient   field structure,
duplication     and overlap,   redundant   layers of review,   and
inadequate    staff time reporting.

OFCCP's   organizational     structure   is top heavy and ineffi-
cient because     of an excessively     high ratio of overhead        staff
to compliance     officers.    More of its Fiscal       Year 1985 budget
(54 percent)     and staff   (55 percent)    went to support     this
overhead,    i.eo, management,     supervision,     technical   or
clerical   support,    than went to support      enforcement°      The
national   office   contributes    significantly     to the imbalance
between   overhead    staff and compliance      officers°

OFCCP has made some attempts       to alleviate   this situation
without   any significant    success°    Although  a reorganization
of the national     office  in October   1984 merged   two of the
four divisions,     it did nothing    to correct  the top heavy
structure°    This reorganization      eliminated  only one vacant
position,   changed   no grades,   and did not directly    affect
imbalances   in regional    offices.

In addition,    we found that a number      of national     and regional
staff,   none of whom are compliance       officers,    are at high
grades°    Approximately     55 percent   of national    office   staff
and 54 percent     of regional   office staff,     totaling   one third
of total agency     staff, are at grade GS-13 or above°           These
high grades    consume   scarce  resources,    thereby   reducing    the
number   of GS-12   and below staff available       for enforcement
casework°

In the   four smallest     OFCCP  regional    offices--Boston,    Kansas
City, Denver     and Seattle--we    found that costly regional
superstructures      oversee   the work of few employees       or
offices.     Yet these four regional       offices   necessitate   fixed
costs quite     similar   to those in the largest       regional
offices°

We also found duplication       of function    and overlap    of
responsibility     both within   the national    office   and between
the national    and regional    offices.    OFCCP has superimposed
redundant   layers   of review and the direct       involvement   of the
national   and regional    offices    in the decisions    regarding
individual    cases in place of front line manager         and
supervisor    accountability°      For example,   conciliation


                                -30-
agreements,    show cause notices,  and administrative   com-
plaints   go through   up to eight layers of review.   This
increases   the cost of enforcement    and the time required            to
resolve   cases.

In addition,   we found that OFCCP does not account       for how
many of its employees    spend their time.    We found that,
although  time is being reported     on staff in area and field
offices,  there is no effective     mechanism  to record and
analyze  staff time information     at the regional   or national
office levels,   areas where   staff utilization    information   is
most needed.

We   recommended   that   OFCCP:

      --    reduce significantly    staff engaged   in managing,
            supervising,  reviewing,    and processing  the work          of
            others and in performing     technical  and clerical
            support,

      --    revise superstructures         in the four     smallest   regions
            and collocate  offices        or designate     suboffices   where
            practical,

      --    reorganize     the national   and regional offices   to
            eliminate     the duplication   of field enforcement
            functions     and to reduce staff and grade levels,

      --    reduce the review of casework       within   the
            organization,    eliminate   mandatory   escalation    of
            cases to the national      and regional    offices,   and
            develop   policies   which encourage    and permit
            decision   making at the lowest possible        level, and

      --    develop    and   implement    a staff   time   reporting
            sy stem.

Enforcement    -- OFCCP procedures      hinder   complete,   timely and
economical    enforcement.     Our survey disclosed       (i) an inef-
fective   preaward   review   system,    (2) weak contractor     selec-
tion process     and documentation     of selections,     (3) an incom-
plete construction      contractor    universe,   and (4) inadequate
tracking   and untimely     evaluation    of contractor    progress
reports.

 The Contractor    Preaward  Review   System,    which was designed     to
 prevent   the award of Federal     contracts    for $1.9 million    or
 more to contractors     who discriminate     or fail to take affir-
 mative  action,   does not do SOo      Further,    the two systems
 OFCCP currently    uses to select     contractors     (construction  and
 nonconstruction)     for compliance    reviews    do not adequately


                                   -31-
guide managers     in selecting     contractors    with low minority
and female    utilization     rates.    Current   OFCCP regulations       and
procedures    permit   identification     of only a small portion         of
the construction      contractor    universe.     This severely      limits
OFCCP's   ability    to enforce    equal employment      opportunity
requirements    within    the construction      industry,    and the lack
of a common    employer    identifier    prevents    automated
crossmatching     of OFCCP's    data bases.

Procedures    do not assure    either the timely  evaluation   of or
followup   on corrective    action   reports from contractors.
Further,   followup  action was not taken on those contractors
who did not file or filed late corrective        action  reports.

We   recommended   that    OFCCP:

      --    eliminate     the preaward   review   process     and   redirect
            resources     to enforcement    activities,

      --    strengthen     the   contractor   selection     systems,

      --    take action     to enlarge the universe   of construction
            contractors     and use a common  identifier,  and

      --    establish   national  guidelines    for tracking
            contractor   progress  reports   and enforce   prompt
            followup   action with contractors.

Assessing    and Reporting   Program   Results   -- Our survey found
that OFCCP does not attempt       to regularly     (at least annually)
measure   or report on the results      obtained    with program
funds.    As a result,    no one can regularly      evaluate    the
effectiveness    of the Federal    Contract    Compliance    Programs.
In the absence    of hard data showing      program    results,   OFCCP
management    has traditionally    published    a variety    of staff
productivity    statistics   in an effort    to imply from these
that there has been some success        in achieving     Executive    and
Congressional    goals.

We recommended    that OFCCP develop    a system which will
produce   regular  reports  documenting   the reductions  in
discrimination    and increases   in affirmative   action resulting
from OFCCP efforts.

ESA Response    -- The Deputy Under Secretary       for Employment
Standards    responded  to our draft report that ESA is in
agreement    on many issues and concurred      with many, but not
all, of our findings.       ESA has long been aware of certain
deficiencies     and had already    begun taking   corrective    actions
in a number    of critical   areas,    such as reducing   excess
overhead   and overgrading.      The Deputy   Under Secretary     stated


                                    -32-
that   changes   were  also   under   way  in other    areas   determined
to have    some organization      and structure     problems°      Also,
other   findings    are being    reviewed   to determine      what  further
corrective     actions  may   be required.

The Deputy     Under    Secretary     and the new Director         of OFCCP
have   established      a task    force,    including     representation       from
OIG,   with   an aggressive       timetable     to analyze     the findings       of
our survey     and identify       corrective     actions.      The task     force
has translated       our findings       and recommendations         into 13
issues    organized     under    personnel,     operations,      contractor
selection,     and evaluation.         Workgroups      have   been   organized
to review     our findings       and recommendations,         determine
corrective     actions     taken    to date,    and recommend       specific
additional     corrective      actions     to be implemented        by manage-
mento    ESA   anticipates       completing     this work     by mid-November
1985o



                          Wage       and   Hour   Division

The Wage    and Hour    Division     is responsible       for administering
a wide   range   of labor     standard    laws,    including     the Fair
Labor  Standards     Act--the     country's     principal     minimum   wage
and overtime     standards     law.    To administer       the program     for
Fiscal   Year  1985,    Wage   and Hour     had a staffing       level  of
IF506  and a budget      of $73.7     million.


Followup    on   Wage   and   Hour     Recommendation

In April    1980,  we issued     a report    on selected     operations   of
the Wage    and Hour   Division.      We found     that,  in administra-
tively   closed   cases,   employers    were    allowed   to retain
undistributed     back wages     that  were   owed    to employees    for
violations     of the Fair Labor      Standards     Act.   We recommended
that   ESA revise    its policy     to require    that the Wage     and Hour
Division   assist    employers     in locating   their    former   employees
and,   if unsuccessful,      that   the undistributed      back wages    be
deposited    in the UoSo     Treasury    as miscellaneous      receipts°

In 1984,     we followed      up and found     that ESA had not imple-
mented    our recommendation.         We estimated       that   employers      were
allowed    to retain      about   $4 million    in undistributed         back
wages    in Fiscal     Year   1982o    Since   our original       report   was
issued    5 years    ago,    the cumulative     potential      loss of back
wages   to the employees         or the U.So    Treasury      is now approach-
ing $20 million°          Moreover,    we believe     the policy      of
allowing     employers      to retain   unpayable     back wages      acts    as an
economic     incentive      for employers    not to adhere        to the Fair




                                       -33-
Labor Standards     Act, particularly   since they              face no
penalties   for violating    the Act with respect               to the un-
located   employees.

In our last semiannual      report,    we reported    that the Deputy
Under Secretary     for Employment     Standards    had agreed    to
develop   and implement    a policy    to eliminate    the economic
incentive   for noncompliance      by establishing     criteria    that
would require    certain   employers     to submit unpayable      back
wages   into the U.S. Treasury.        We further    reported    that the
criteria   would  be based on a number        of factors,    including
the number    of employees    and total back wages       involved    and
the compliance    officer's    opinion    regarding   the employer's
good faith efforts.

In October    1985,    instructions    were issued for compliance
officers   to advise     employers    of the new policy     for deposit-
ing back wages      due unlocated     employees    (and employees   who
refuse   to accept    payment)    into the U.S. Treasury      as miscel-
laneous   receipts    where   specific    criteria,   such as cost
effectiveness     and feasibility,       are met°


Review   of    Internal    Controls     Over   Back   Wage    Payments

During   this reporting     period,   we also performed  a limited
scope review of the internal         controls over back wage
payments   processed    by the Wage and Hour Regional      Office   in
Chicago.     Our review    disclosed   a need to strengthen    the
internal   controls   over the disbursement/processing        of back
wages for ex-employees        due back wages.   By strengthening     the
internal   controls,    Wage and Hour can reduce the opportunity
for fraudulent    back wage disbursements.        Wage and Hour
agreed with our recommendations.


OCCUPATIONAL      SAFETY    AND   HEALTH     ADMINISTRATION

The Occupational      Safety   and Health Administration        (OSHA) is
responsible     for administering      the Occupational     Safety and
Health   Act of 1970o       The Act was passed to assure        safe and
healthful    working    conditions    and to preserve    our human
resources.      To accomplish     its mission    OSHA promulgates
occupational     safety    and health   standards    and enforces
compliance    by inspecting     places   of employment.      To
administer    the programs     for Fiscal    Year 1985, OSHA had a
nationwide    staffing    level of 2,323 and a budget        of almost
$220 million.

A discussion      of our review of debt           collection     in OSHA   is in
the section      beginning on page 36.


                                      -34-
During  this reporting   period,    we evaluated    the extent to
which OSHA's New Directions      Grant Program     has progressively
increased   grantee financial    participation     in occupational
safety and health programs.

New Directions       grants are awarded    annually  with renewal
possible    for   up to 5 years.     Annual grants   are generally
modest,   with    the grant recipients     expected  to contribute
some of their      own funds to projects.       Each year the
recipient    is   expected   to increase   its share of funding    as
OSHA decreases       its grant award with the idea that the
grantee   will    assume   total funding   for the program   by the end
of the 5- to      6-year   grant cycle.

We reviewed    eight grantees     that had completed      the full grant
cycle,   i.e., 5 or 6 years.       We found that all these grantees
had assumed    financial    responsibility     for occupational   safety
and health    programs   when Federal     funding   ceased.   In
addition,   we surveyed     23 grantees    that had not completed     the
full grant cycle for various         reasons.     Of these, only three
grantees   continued    to use their own funds for occupational
safety   and health    programs.

We concluded    that the New Directions   Grant Program   seems to
be having excellent     results when funding   is not prematurely
terminated   prior to completion    of the full grant cycle.
Accordingly,   we did not make any recommendations.

OSHA agreed with our conclusion     and plans to use our         survey
results  in restructuring   the program  for a new round         of
grantees  in Fiscal   Year 1986.


DEPARTMENTAL      MANAGEMENT

Departmental     management   refers to those activities         and
functions    of the Department      involving    the formulation     and
implementation      of policies,    procedures,    systems,   and stan-
dards to ensure the efficient          and effective    operation    of
administrative      and managerial     programs.    The Assistant
Secretary    for Administration      and Management     is charged with
providing    this oversight     responsibility.

During this reporting       period,    we continued  to review the
Department's     effectiveness    in implementing    Reform  '88
initiatives     in three areas:       (i) debt collection,   (2) pro-
curement,    and (3) financial      management.




                                -35-
                              Debt   Collection

During   this reporting    period,   we completed     debt collection
audits   in the Employment     Standards    Administration    (ESA) and
the Occupational    Safety    and Health    Administration    (OSHA) and
issued   three draft reports.       The objectives     of the reviews
were to evaluate    ESA's debt collection        activities   in the
Black Lung and Federal      Employee    Compensation    Act (FECA)
programs   and OSHA's   implementation      of the Debt Collection
Act of 1982,   including    the assessment      of interest,   penalties
and administrative     costs on debts owed to the Department°

Our review of      ESA's   debt   collection   activities   disclosed   the
following :

      --    Debt collection   has been excessively      slow for both
            FECA and Black Lung.     In 82 percent    of the cases
            examined  in FECA and in 40 percent      of the cases
            examined  in Black Lung,   inordinate    delays occurred
            in identifying   and establishing    debts,    notifying
            debtors,  and issuing  demand letters°

      --    Substantial    interest  and penalty   revenue  has been
            lost on the delinquent      debt because   of excessive
            delays   in notifying   debtors  that these charges
            would be assessed°

      --    The lack of adequate     internal  controls   and non-
            compliance  with FECA and Black Lung systems        of
            accounting   and reporting    has resulted   in inaccurate
            and unreliable   records   and reporting    on delinquent
            debt.

      --    Black Lung's   failure  to promptly   reduce,   suspend,
            or terminate   claimant  benefits   on a timely basis
            resulted   in about $3 million    of self-generated
            overpayments.

We   recommended    that   ESA:

      --    aggressively    pursue debt collection   through
            promptly   identifying   the debt, notifying   debtors,
            and issuing    demand letters   to avoid loss of
            interest   and penalty   revenue,

      --    ensure   adequate   internal   controls   as well as
            compliance    with established     accounting   and
            reporting    procedures,   and

      --    incorporate  FECA and      Black Lung procedures   in
            future accountability        reviews to check on whether


                                   --36-
           the deficiencies       noted    in the   reports   have   been
           corrected.

In response,    ESA has issued      instructions    for district
offices   to follow    in assessing     interest,   penalties,   and
administrative     costs on delinquent       debts.   This includes
manually   calculating     interest   for Black Lung debts until the
automated   accounting     system   is fully operational.      ESA also
agreed   to verify    in future   internal    accountability   reviews
that deficiencies      identified    have been corrected.

In OSHA,   we   found   the   following:

     --    OSHA needs to accelerate      its current   efforts   in
           implementing    the major  initiatives    of the Debt
           Collection   Act, including    ensuring   that OSHA's
           upcoming   planned  implementation    dates are met.

     --    Aggressive    debt collection   procedures  were not
           followed   and debts were written     off without
           adequate   justification    in 34 percent  of the cases
           reviewed.

     --    Significant    interest  and penalty   revenue  has been
           lost on the delinquent      debt because   of excessive
           delays   in notifying   debtors  that these charges
           would begin to be assessed.

     --    The amount  of the debt owed to OSHA was overstated
           by $5.3 million   in reports to OMB because of poor
           accounting  controls.

We recommended    that OSHA aggressively       pursue debt collection
through   timely  issuance    of demand letters,     use of third
party collection     agencies   and credit    reporting,  and prompt
referral   of delinquent    debts to the Solicitor's      Office prior
to write-off.     To ensure    corrective    action,  we also recom-
mended   that OSHA incorporate      procedures    in their future
vulnerability    reviews   to verify    that the deficiencies     cited
in this report have been corrected.

At the exit conference,       OSHA basically    agreed with our
findings   and recommendations       and indicated   that (I) debtors
were notified    of interest     provisions   in August    1985,
 (2) interest,   penalties,     and administrative     costs will be
assessed   beginning    in October    1985, and (3) delinquent
debtors   will be referred      to collection   agencies    beginning   in
November   1985.   By March 1987, OSHA plans to have its Inte-
grated Management      Information    System  fully operational      in
all 72 area offices.        This will enable    OSHA to manage     the
debt collection     activity    more effectively    and efficiently°


                                  -37-
                                   Procurement

OIG continued     to review the Department's    efforts   to improve
procurement    operations.     During this period,   we reviewed
 (i) the Department's     management  of indirect   costs, and
 (2) consultant    services°


Management     of   Indirect   Costs

As indicated     in our last semiannual       report,    OIG reviewed     the
Department's     management    of its stewardship      of indirect     cost
plans.    We noted that the Department         had not efficiently        or
effectively     managed   an estimated    $250 million      of indirect
cost payments     made to grantees     and contractors.        We con-
cluded   that the Department      needed to significantly         improve
its overall     management    of indirect    costs.    For example,     the
Department    made premature,     improper,    unnecessary,     or unsup-
ported   payments    of at least $30o5 million        during   Fiscal
Years 1979 through       1983, much of which was due to grantees
not preparing      cost allocation    plans and not documenting
indirect    costs charged     to the Federal     grants.

We recommended    that the Assistant       Secretary   for Adminis-
tration  and Management      assemble    a multidisciplinary    task
force to develop     alternative     management   approaches   to over-
come the deficiencies       identified    in our audit°     As a result,
an indirect   cost rate project       workgroup   was convened   to
address  the issues     raised in our audit report°

The workgroup  outlined   and fixed responsibilities   to improve
the management  of indirect    costs°  The following  major areas
have been identified    and are in various   phases of implemen-
tation:

     --      establishing    the Procurement  Executive  as the
             central   control  point for the management   of
             indirect   costs and preaward   audits,

     --      revising   indirect     cost   policies   and
             responsibilities,

     --      providing   feedback  to procurement        offices   on
             recipients   who are delinquent    in      submitting
             indirect   cost proposals,   and

     --      coordinating     requests   for and receipt    of audits
             from the Defense      Contract   Audit Agency,   Office  of
             Inspector    General,   Office   of Cost Determination,
             and contracting/grant       offices°



                                    -38-
Management's    immediate   actions  indicate   a commitment    to
improving    the indirect   cost process.     We believe   the
proposed   actions,   when fully implemented,      will greatly
strengthen    the management    of indirect   costs.


Consultant    Services

We completed   a review of the Department's      activity   in
awarding  consultant   service   contracts   and on the accuracy          of
reporting  to the Federal    Procurement    Data System   during
Fiscal Year 1984, as required       by Public Law 97-258.

We found khat management       has generally      made a good effort       to
comply with departmental       policy    in the awarding     and report-
ing of consulting     and related     services    actions.     However,
management   controls    are not consistently        implemented.      The
most significant    weakness    was the failure       to obtain    the
required   independent    review by the Procurement         Review   Board
of certain   consultant    or related     services    actions.     We found
that 82 of the 96 actions       sampled     (amounting    to $2.5 mil-
lion) had not been reviewed        by the board°

One major reason for this condition        is the lack of a clear
definition   of consultants    in OMB Circular   A-120o    However,
we understand   that OMB has drafted     an Executive   Order clari-
fying the use of consultants      and is revising    OMB Circular
A-120 to include    a detailed   definition   of consultants    as
well as other specific     guidance.

The Procurement     Executive    agreed to implement     the following
recommendations:       (i) issue clarifying     examples   to aid in
the correct    classification     of consulting    and related   ser-
vices awards    based on revised OMB guidance,        and (2) review
and update departmental       policy   on consultant   awards°


                          Financial     Management

We completed    a financial     audit of the Department's     Working
Capital   Fund for the 2-year       period ending  September    30,
1983.    The Working    Capital    Fund is a revolving    (no-year)
fund which operates      on the basis of incurring      expenses    for
services    and recovering    these expenses    by billing   recipient
organizations.    _ Total expenditures     for Fiscal Years 1982 and
1983 were $50.5 million       and $58.8 million,    respectively.

The audit disclosed   that the financial    statements   presented
fairly  the financial  condition   of the Working   Capital   Fund
and the results   of its operation.    However,   the evaluation



                                 -39-
of internal   accounting    and administrative   controls                        disclosed
several  areas where    improvements   were needed.

Major     findings      were    as    follow:

    --          The Working  Capita]. Fund is being operated  on an
                obligational  basis  rather than a cost reimbursable
                basis as required   by legislation and GAO fiscal
                procedures.

    --          The property         and   accounting        records    need    recon-
                ciling.

    --          The General   Ledger    Expenditures Account                   and    Budget
                Activity  Reports    were out of balance.

The Comptroller     implemented   all of our recommendations
except   converting   the Working   Capital   Fund to a cost basis.
However,   as a result    of recent meetings    with OMB, permission
was granted    to begin operating    the Working    Capital   Fund on a
cost basis beginning      Fiscal Year 1988.     The action    taken by
management    should improve    the operation   of the Working
Capital   Fund and ensure more accurate       financial   records.


OFFICE     OF    THE   SOLICITOR

The Solicitor's     Office   (SOL) is responsible       for all legal
activities    of the Department      and serves as legal advisor      to
the Secretary    of Labor.     In conjunction      with the Justice
Department,    it litigates    cases under various        enforcement
programs   in administrative      proceedings    and the U.S. Court
system.    The staff defends      departmental     officials     and
interests    in legal proceedings      and various     workers'
compensation    and damage    claims.    Legal   responsibilities
include   independent    reviews   of legal decisions        ensuring
legal sufficiency      of departmental     orders,    regulations,
written   interpretations,     and opinions.

At the beginning    of this semiannual     reporting  period,  we
issued   a report  to the Solicitor     on the vulnerability   in the
Division   of Employee   Benefits.     We found that the Solicitor
had not assigned    sufficient    legal staff to the Division     to
handle   its mandated   responsibilities     in four program  areas:

     --         Longshore      and    Harbor      Workers'     Compensation          Act,

     --         Federal     Employees'         Compensation      Act,




                                           -40-
     --        Black     Lung   Benefits     Act,   and

     --        Federal     Tort    Claims    Act.

Severe   case backlogs     exist.    For example,      in the Black Lung
program   21,000   cases are currently       awaiting    hearings   by
administrative     law judges,    and 6,000 appeal cases are
pending   review by the Benefits        Review Board.       In the Federal
Tort Claims    area, there are 50,000        asbestosis     claims and
7,000 third-party      FECA subrogation       claims awaiting     review.
Moreover,    insufficient    legal representation        is being pro-
vided to client agencies        causing    some benefit     denial deter-
minations    to be reversed     upon appeal,      resulting   in
additional    benefit   payments°

We informed    the Solicitor     that this significant       management
weakness   will need to be disclosed        this December      in the
annual   internal    controls   certification     by the Secretary     to
the President     and Congress.      This annual certification        is
required   by the Federal     Managers'    Financial    Integrity   Act
and includes    whether    the weaknesses     have been corrected      or
require   further    corrective   actions.

The Solicitor   has taken steps to increase       staff resources      in
the Division   of Employee    Benefits.   Junior   attorneys,    legal
interns,   and paralegals    were hired to expedite     the
processing   of claims,   and 22 temporary    attorney   positions
were authorized.      As noted on page 28, a plan has been
submitted   to Congress   for funding   to eliminate    the Black
Lung backlog.     This would    include 16 permanent    attorney
positions   in FY 1986 and 12 attorneys      in Fiscal Year 1987.

Although   we support   the action   to eliminate    the Black Lung
backlog,   we continue   to be concerned    about the need for
additional    legal staff to enable the Division       to properly
carry out its mandated     responsibilities     in the other three
program   areas as well.    As noted above,     in just the Federal
Tort Claims area, there are 50,000        asbestosis    claims and
7,000 third-party    FECA subrogation     claims pending.


OFFICE    OF    THE    SECRETARY
                .


                    -_             Appellate     Reviews

The Department's   appellate                function  is responsible   for
conducting  formal  hearings                and rendering  decisions   on claims




                                       -41-
filed under various acts and           executive   orders.      DOL   has    four
organizations with appellate           responsibilities:

    --     Benefits    Review     Board  (BRB), which    decides
           primarily    Black     Lung and Longshore     appeals,

    --     Employees'    Compensation    Appeals   Board  (ECAB),           which
           decides   Federal   Employees'    Compensation   Act
           appeal s,

    --     Office   of Administrative     Appeals   (OAA), which
           reviews   appeals   under several    programs   including
           the Job Training     Partnership    Act, Office   of Federal
           Contract   Compliance,    and Service    Contract   Act, and

    --     Wage Appeals  Board   (WAB),        which decides    appeals
           under the Davis-Bacon    Act        and related   statutes°

We reviewed   the operations    of the four appellate     organiza-
tions and compared    appellate   management   at the Department    of
Labor with that at the Department       of Interior   and the Social
Security  Administration    because   of similarities    in the pro-
grams administered.      The reviews were performed      to determine
whether :

    --     DOL's   appellate      responsibilities     are    being   met,

    --     resources    are    being   used   effectively,     and

    --     the appellate        responsibilities     should    be
           consolidated.

We concluded   that improvements      are needed  in the operations
of each organization      and that Departmentwide    changes   could
further  improve    the overall   effectiveness   and efficiency    of
the appellate    function.

We found that DOL's appellate         responsibilities     are not
always   being adeqaately     met.    For example,    BRB has a backlog
of 7,000 cases with long delays         in disposition.       For Black
Lung appeals,     the Board took an average       of 2.5 years to
issue a final disposition.          (For additional    information    on
the backlog    of Black Lung cases, see pages 28 and 40.)             OAA
does not have an adequate        case tracking    system,   which is
critical    for ensuring   disposition     of appeals   within
regulatory    time limits.

Resources    could be used more effectively        to raise produc-
tivity,   eliminate   overstaffing     and other organizational
inefficiencies,     and improve    management    reporting systems.
Furtherw   collocation    could eliminate     the space problems    of


                                   -42-
the appellate   organizations    and provide   savings  through
sharing  administrative    support  services   such as libraries,
computer  systems,   copying facilities,     and conference   rooms.

Consolidation     of OAA and WAB, which were administratively
established,    should result    in better    Secretarial  oversight,
reducing   the potential     for conflict   of interest,   better
resource   utilization,     and improved   case management.     What
appears   to be a lack of independence        in the adjudicatory
process   created   by OAA's placement     as a component   of the
Solicitor's    Office   could be eliminated      by moving OAA under
the Office    of the Secretary.

Consolidation     of all the appellate      functions    into a single
organization    with an administrative       head could streamline
Secretarial    oversight   and further    improve    resource    utiliza-
tion.   However,    the feasibility     of management     action    hinges
on legislative     changes  and policy    decisions    on current
operations    and resource    requirements.

In our draft reports,        we made specific    recommendations      to
the heads of each appellate         organization    to improve    their
organization's      efficiency   and effectiveness.       We also
recommended     that the Secretary      consider   (i) collocating     all
four appellate      organizations,     (2) establishing     an Adminis-
trative   Appeals    Board within    the Office   of the Secretary       by
consolidating     the OAA and WAB, and (3) consolidating           the
appellate    functions    into one departmental      appellate    organi-
zation with an administrative         head.

The Chairmen     of the Boards     and the Director       of the Office     of
Administrative      Appeals   agreed   to take corrective       action on
recommendations       in the following     areas:     (i) evaluating
performance     standards,     (2) eliminating     case backlogs      (BRB
just expanded     its staff by hiring additional           attorneys    which
will increase     case dispositions       from 2,400 in Fiscal Year
1985 to 4,200 in Fiscal Year 1986),            (3) evaluating      space
requirements,      (4) evaluating     resource    needs and workload,
and (5) improving       management    information     systems.    Addi-
tionally,    the Director     of OAA agreed     to work toward the
transfer    of OAA to the Office       of the Secretary.

All of the appellate    organizations        have raised a number        of
concerns  about consolidation     into      a single unit°    These
concerns will have   to be addressed         by the Secretary.




                                  -43-
                Chapter     2 -- Using     the Audit     Survey
                          for Long-term     Planning


                                Background

In the past two semiannual         reports we have highlighted        in
this chapter     issues we believe      should receive     separate
attention.      In our report a year ago, we discussed           what we
believe   to be conflicting      and confusing     requirements     for
administration      of Federal   grants.     Six months    ago, we
highlighted     significant    corrective    actions   that had taken
place by DOL management        on audit findings      during the
reporting    period.    During   this reporting      period,   we began
another    initiative   that we believe      will have a major impact
on our audit planning       process.

We believe    that a comprehensive      OIG approach     is necessary    in
planning   future    audit work in major agency programs.           Such
an approach    will assist the Department        in bringing    about
corrective    actions    by involving   program   managers    in the
audit planning     process    by informing   them of operational
areas which have been targeted         for review and improvement.
To accomplish     this, we will use the audit survey as the
first step in the audit planning         process.     The survey is
intended   to gather     information   on the program     or activity
being examined     and is used to identify       areas for further
audit work and to assist        in planning   this work.      The survey
is an effective     way to apply scarce      resources    where  they
will have the most impact.

For example,     we used the audit survey during this reporting
period   to develop     a long-term   workplan   in the Office     of
Workers'   Compensation      Programs   (OWCP) of the Employment
Standards    Administration.       The workplan,    which has been
issued in draft to ESA, is described           below.    Surveys   are
also being conducted       in the Employment     and Training
Administration,      Mine Safety    and Health Administration,
Occupational     Safety   and Health Administration,        and the
Pension   and Welfare     Benefit   Programs   to develop    long-term
plans for audit work.

Additional    information  on     OWCP    may   be   found   beginning   on
page 19 of    this report.




                                  -45-
                          OWCP    5-Year       Audit   Plan

Objectives

The    objectives   of   our    survey     project     in OWCP     were   to:

       --    identify   and     coordinate       OIG   resources     more
             effectively,

       --    determine    how    the    OWCP    components    interacted,

       --    identify    common    administrative         support     systems,   and

       --    determine   what ongoing   audit and investigative
             efforts   addressed  major problem  areas in OWCPo

From the results     of the survey,   we found five major areas
that warrant    audit and investigative     attention.    However,
because   each area will require     the commitment    of a large
number   of audit resources,    we formulated    a plan to consis-
tently   commit  these resources    over time, in this case,
5 years.


Plan    Organization

Each year the workplan      will contain     a major   initiative.     The
majority   of projects    started    in that year will be the result
of this major    initiative.      The deliverables     for each year
will be comprised     of completed     projects   which were started
in prior years as well as projects          being completed     for that
year's major    initiative.     Certain    factors,   such as our con-
sulting  role, automation,      and Reform     '88 initiatives,    will
be present   throughout    the next 5 years.

Our approach    will be coordinated       throughout   OIG and with the
program   agency.    The strategy,     goals,   and priorities    will be
clearly   stated and incorporated       into our annual workplano
Projects   will be proposed      and approved    on a priority     basis,
using the following      factors:    OWCP magnitude,      audit/program
review history,     current   congressional     interest,   management
interests    and concerns,    and issues    affecting   several    OWCp
programs°

We plan to hold periodic      meetings    with OWCP management     to
discuss   our plan and actively     seek management's     input.    We
recognize    that, as a result of both our periodic        meetings
with OWCP and our own planning        process,  the plan will change
as events warrant.       In addition,    we will coordinate    with
congressional     staff, OMB, GAO, and other departmental
organizations.


                                       -46-
Throughout    the next 5 years,    OIG will continue    to monitor
and provide    technical   assistance   to OWCP on their ADP
efforts   and implementation     of Reform   '88 initiatives.     In
particular,    OIG monitoring    of the Federal   Employees'   Compen-
sation   System Level    II will remain a priority.       (See page
19.)


Planned   Activities

The   planned   initiatives   for   each   fiscal   year   follow:

Timeliness   and Quality   of OWCP Services       (starting    in Fiscal
Year 1985 through    1986) -- We will concentrate         on improving
the timeliness    and quality    of OWCP services     with particular
emphasis   on the Federal    Employees'    Compensation     Act (FECA)
program.    The review of FECA operations        will be designed      so
that we can use a single      sample of cases and transactions
for several   different   studies,    such as comparing       the proce-
dures for processing     traumatic    injuries   to the procedures
used to process    non-traumatic    injuries.

Administration     of Private    versus    Federal   Workers'
Compensation     Programs   (starting     in Fiscal Year 1986 through
1987) -- Our major      initiative     will be to study the policy
and procedures      used by private     workers'    compensations
programs.     We will compare      legislative     and regulatory
requirements     placed   on Federal    programs    with the require-
ments placed on private        programs    in numerous    areas, such as
employer   involvement,     benefit    levels,   premium   costs, debt
collection,    financial    management     processes,    internal
controls,    administrative     costs, etc.

OWCP Program    Consolidation      (starting    in Fiscal Year 1987
through   1988) -- We will gather additional           data and evaluate
whether   similar   functions   within    the three OWCP programs       can
be merged.     In light of OWCP's       current   emphasis   on ADP
improvements    in claims adjudication         and processing,   we will
analyze   how administrative      systems    and programmatic    opera-
tions have been affected.         While    consolidation   of adminis-
trative   and ADP functions      appears    to be a sound concept,     we
believe   that additional     work is needed      to document   support
for such a recommendation.

Evaluation    of OWCP's ADP Efforts      (starting   in Fiscal Year
1988 through    1989) -- We will continue       ongoing monitoring    of
the development     and implementation     of the Level II system
(page 19) and plan to expand       this review in Fiscal Year 1988
to evaluate    how effectively    FECA personnel     and other ESA
programs   have utilized     the system.    ESA projects    the system
to be operational      at the majority    of their FECA district


                                -47-
offices   by the end of 1986; therefore,    our effort  in 1988
will allow OWCP time for operating     experience   with the
system.    Since this ADP effort   is of major significance    to
the Department,   we believe  that an extensive   evaluation   is
appropriate°

Trust Fund Management       (starting    in Fiscal   Year 1989 through
1990) -- Our major      initiative    will be to analyze      the manner
in which the Black Lung and Longshore           divisions,    which
operate   trust funds,    perform   their fiduciary      roles.     This
time schedule    should   allow adequate     time to implement       both
the 1984 amendments      to the Longshore      and Harbor Workers'
Compensation    Act and proposed      amendments    to the Black Lung
Benefits   Act.   We will perform      projects    to examine    the
nature, composition,      and soundness     of these funds, which are
made up of mostly     non-Federal     dollars.


OWCP   Response

In responding  to    the draft plan, the Director    of OWCP agreed
with the concept     of long-range   planning of audits as an
effective  use of    staff resources.




                               -48-
                      Chapter     3 --     Audit    Resolution


                        Audit     Resolution   Activity
                                  ($ millions)


 Period        Audit Reports                        AmouDt       __          Total
 Ending           Resolved ....          _                 Allowed          Resolved


3/31/84               412                    $ 58.2            $67.0         $125.2
9/30/84               610                    $100.5            $62.6         $162.9
3/31/85       F       456                    $ 44.2            $26.5         $ 70.7
9/30/85               387                    $ 29.0            $39.9         $ 68.9



Detailed  information        on audit resolution   activity  for                 the
period may be found         in the appendix  to this report.


SIGNIFICANT    RESOLUTION        ACTIONS

              Management        Commitments        to   Recover     Funds

Following are examples   of significant    resolution   actions
taken by program  officials,  which   resulted   in the disallow-
ance of costs claimed   by the Department's     contractors   and
grantees:

State of California     Employment           Development   Department   (Audit
Report   No. 09-4-058-03-391)     --         The Employment    and Training
Administration    disallowed   $3.2          million   in cost exceptions
which   related primarily    to the          following:

    --    $2.5 million          resulting  from         costs     charged   to   the
          wrong program          or grant,

    --     $555,466 for         unreasonable program    severance    costs
           for the Food         Stamp work registration     program,   and

    --     $132,391     in audit      exceptions         for    subrecipients.

Idaho Department   of Employment    (Audit Report  No. 09-5-503-
03-325)   -- The Employment   and Training  Administration
disallowed   $2.7 million   in this audit report performed     under
the provisions   of OMB Circular   A-128, which included    the
following:




                                    -49-
    --     $1.2 million  resulting   from      erroneous     adjustments
           to the accounting   records,

    --     $i.i million   for improper       posting  of extended
           benefit  payment  receipts       from other states,    and

     --    $400,000   from   improper  reporting   of      extended
           benefits   paid   to employees   of local       governments.

City of Oakland,     CETA Cash Balance  Review   (Audit Report  No.
09-4-071-03-345)     -- The Employment  and Training   Adminis-
tration   disallowed    the total $1.8 million   in identified  CETA
cash balances    remaining   after the completion   of the program.

Apparel   Job Training    and Research    Corporation   (Audit Report
NOo 11-4-131"03-350)      -- The Employment     and Training   Adminis-
tration   disallowed    $459,000   in this audit report.      The dis-
allowances    primarily   addressed   the following:

    --     $380,889   of salaries,   wages and related   fringe
           benefits   because   the contractor   had not maintained
           time and   attendance   records   to support payments,
           and

    --     $77,428   of training    costs    because  subcontractors
           could not support     payments     for on-the-job    training
           activities.

Environmental    Management   Consultants,     Inc. (Audit Report    No°
11-4-023-03-370)     -- The Employment     and Training   Administra-
tion disallowed     $1o16 million   of the $1o76 million      in excep-
tions.    The disallowances    primarily    included  the following:

    --     $595,797   of costs claimed  that could          not   be
           identified   to a contract  project,

    --     $207,237   of costs    claimed   based upon      a cost-plus-
           a-percent-of-cost      computation,   and

    --    $183,211 of wages claimed which   exceeded              the   daily
          wage rate negotiated  in the contract.

District   of Columbia   Department   of Employment     Services,
Unemployment   Services   Program   (Audit Report    No. 03-5-003-
03-325)   -- The Employment    and Training   Administration
disallowed   $202,429   in audit exceptions     related   to the
following:




                                 -50-
     --     $106,415     in insufficient       supporting       documentation,

     --     $48,734  in vouchers and          supporting   documentation
            for WIN in-kind matching           contributions    that were
            not retained,   and

     --     $47,280     in unsupported     vendor      costs.

Pacific   Northwest    Labor College   (Audit Report   No. 09-4-532-
10-101)   -- The Occupational     Safety and Health    Administration
disallowed    $90,760   in audit exceptions,   of a total Federal
share of $115,000,      under a New Directions    program   grant
primarily    due to a failure    to meet non-Federal    matching
requirements     ($86,742).


     Management       Commitments    to Use    Funds    More    Efficiently

 During   this reporting      period,   program   officials    and grantees
 agreed   to implement     auditor's    recommendations     to improve
 agency   systems    and operations     and thereby    avoid unnecessary
expenditures      of program     and administrative     funds.     These
 management    efficiencies     will result     in a one-time     savings of
 approximately     $223,000    and annual    savings   of approximately
 $8.5 million.       Following    are examples    of management
 efficiencies     which have been implemented°

Followup   Review   of Selected  Operations    of the Employment
Standards   Administration's    Wage and Hour Division       (Audit
Report No. (01-3-002-04-420)     -- In our followup      review,   we
found that employers     were allowed    to retain   undistributed
back wages    due employees   who could not be located.        ESA
agreed   to implement   a policy   to require   employers    to deposit
unclaimed    back wages   in the Treasury   rather   than keeping     the
funds.    We estimate   an annual   savings   of $4 million.      (See
also page 33.)

Followup   Review   on MSHAWs Approval        and Certification    Center
(ACC) (Audit Report       No. 03-4-906-06-001)       -- Our followup
review   of the ACC resulted        in MSHA's   proposing   a regulation
that would    update all fees for approval          and certification     of
products,   originally      recommended    by OIG in a report entitled
"Time For A Change      In Approving      Mine Equipment, " issued on
October   20, 1981.    An    annual   savings   of $3 million   will
result when a final regulation,           expected   in July 1986, is
published.

Audit   of Indirect  Cost Proposals    and Cost Allocations
Plans -- Our audit of seven indirect         cost proposals resulted
in savings   of $968,060   on an annual basis for six audit
reports   and $197,166   on a one-time    basis for two audit


                                    -51-
reports_    These potential     cost savings were attributed    to
(i) unallowable    expenses   contained   in the indirect  cost
pool,   (2) inappropriate    allocation   bases, (3) duplicate
charges   to Federal   programs,    and (4) lack of documentation
to support   charges°     (See also page 41.)

Operational    Audit  of the Georgia     State Employment      Security
Agency   (Audit Report    No. 04-4-034.-03-325)      -- The report
identified    cash management     recommendations     that should
result   in annual   cost savings     of $209,000°     These savings
are based on the assumption        that the agency     transfer    money
from the clearing     account    to the trust fund within       one day.
The agency    is implementing     operational    changes   that will
result   in the savings     identified°

Federal   Share of Unemployment    Compensation     (Louisiana)
(Audit Report   NOo 04-5-086-03-315)     -- The report identified
$180,967   in expected  recurring   interest    savings   based on our
recommendations    that the state:

     --    maintain    only one benefit   payment  account  with an
           adequate    reconciliation   being prepared   on a monthly
           basis,   and

     --    request   funds from the UoSo Treasury       on a daily
           basis and in an amount     equal to the     amount of
           benefit   payments  projected   to clear    the bank on    the
           subsequent    day°

The grant officer's      final determination     instructed   the
agency   to establish    one benefit   payment   account   and to
implement   a procedure     for requesting   funds from the U. So
Treasury   on a daily basis and in an amount         equal to the
amount   of benefit   payments   projected   to clear the bank on
the subsequent    day.     (See also page 8°)

Federal   Share of Unemployment   Compensation    (Mississippi)
(Audit Report NOo 04-5-021-03-315)      -- The report    identified
$83,435   in expected   recurring interest   savings  based on our
recommendations    that :

    --     funds be requested   from the UoS. Treasury on a
           daily basis and in an amount equal to the amount            of
           benefit  payments  projected to clear the bank on
           that day,

    --    funds deposited      into the state treasurer's   bank
          accounts    should   be transferred to the benefit
          payment   accounts    on the same day the deposit    is
          made,   and



                                -52-
    --   when in an extended     benefit (EB) period,   the   agency
         should estimate   daily EB charges   attributable     to
         state and local governments     and reduce their     EB
         drawdowns  accordingly.

As a result of our recommendations,     the agency   has delayed
drawdowns  by 2 days and implemented    procedures   to reduce EB
drawdowns.   (See also page 8.)




                            -53-
                           OFFICE         OF    INVESTIGATIONS


The Office   of Investigations                   has achieved      outstanding
results  during this reporting                    period  and     for the overall
Fiscal  Year 1985.

There were 386 indictments     and 289 convictions     obtained
during   this 6 months.    The overall  figures   for Fiscal Year
1985 of 661 indictments     and 570 convictions    represents    an
increase    of 51 percent  and 125 percent,   respectively,     over
the prior fiscal year and is an all time high°          The
following    chart sets forth a comparison    of these figures      for
the past four fiscal years.


                      OFFICE OF INVESTIGATIONS
                             Fraud & Integrity         Investigations


          800                                                             _   INDICTMENT.;

                                                                u_        _   COHVICTIO_
    e'600
    _                                                                _o


     >
    •_- 4110
     2_
     U
     m
     M




     0o
    I1. 200     ,,,                   1_2




                n,-1982         n'-lga3            n'-1984     n'-1985
                          Indictments          and Convictions


These statistics     are enhanced      by the fact that our cases are
becoming   more complex     and addressing      more significant
problems   and issues.      A new policy      has been implemented     of
putting   more emphasis     on the "quality"       of investigations    as
opposed   to the "quantity. W This ties in with our
initiatives    mentioned    in the last report involving         the
kproactive"    or self-initiated       approach    to our work
addressing    potential    or known high impact problem         areas.
Our investigative      operations    ate   being guided    by established
priorities    and regional     investigative     plans developed     by our


                                                -55-
field managers                  in order     to   achieve      the   most    from     our    limited
investigative                  resources°

Our caseload     has reached    an all time high with 1,726 cases
pending   at the close of this reporting        period   as compared  to
the I_401    cases that were pending      at the close of the prior
period°    We anticipate     that our caseload    will decline    as the
complexity    of matters    being handled   continues    to expand.   We
continue   to receive    more prosecutive    action    for our cases
through   the innovation     reported  last period of combining
similar   type matters    into "clusters"    that together    meet or
surpass   prosecutive    thresholds   followed   by the UoS.
Attorneys o

Financial    results   achieved    by investigations     totaled
$7_613w188    during   this period     and $13 _822 ,503 for the
overall   Fiscal   Year 1985o      These figures    include    recoveries,
restitutions_     settlemtnts    and cost efficiencies.
Investigations     involving    potentially    significant     financial
results   are being afforded       priority  handling.      The following
chart displays     a breakdown     of the results    achieved    during
Fiscal   Year 1985o

                               OFFICE OF INVESTIGATIONS
                                  Fraud & IntegH_ Investlgatlons
          8000                                                       _] n._ a RESTrrUnO_S

                                                                         COST EFFICIENCIES

          3000                                                       _   RECOVERIES

    "0
     c:
    E_
          4000
    0
    r-
   I--



          2000




             O"
                     FY-Ig82      F'Y-1983   F'Y-1984   F'Y-1985

                  F1nes,SeHlernents,Res_ItuHons, RecoveMes,Cos_EfflcTenc[es
During   this reporting    period  much emphasis   has also been
placed   on furnishing   management    with information   and
recommendations     to increase   the efficiency   of operations   and
improving    the systems   of internal    control.  Some examples    of
these efforts    are set forth in the program      narratives.    In
additionF    new joint efforts    were initiated   with the Office
of Auditq    and plans have been made to survey and test what


                                                    -56-
positive    results    can be achieved       by having   investigators
join   certain   audit    survey   teams    for the first    time.     The
blending    of the investigative         and audit   expertise     should
increase    the quality      of both   fields   of work.




EMPLOYMENT      STANDARDS     ADMINISTRATION

Investigations       of Employment        Standards     Administration       (ESA)
claimant     fraud    cases    continued     to require     a significant
commitment      of investigative         resources     during    this  reporting
period    and   resulted     in substantial        recoveries     and savings      to
the Government.         We also     expanded     our joint     investigative
efforts    concerning      wage    and hour violations         with   the
cooperation      of ESA's     Wage    and Hour     Division     (WH) and further
developed     our major      innovative      re-testing     program    within    the
Black   Lung    Program     area with     the full     cooperation     and
assistance      of ESA's     Division     of Coal Mine Workers'
Compensation      (DCMWC)    program     officials       at   both   the   national
and district      office    levels°

                              Black    Lung    Program

In Fiscal     Year  1984  Black   Lung  medical   benefits    and
treatments     totaled   over   $116 million    of which   over   $7.7
million    represented      rental    or purchase      payments     made    by DOL
to providers      of durable     medical     equipment      for oxygen      related
equipment     used   by qualified      Black    Lung   victims.       Payments      to
providers     are made    based    on the receipt       and approval        of a
Certificate      of Medical     Necessity     used    to certify      that    a
miner   is medically      qualified      for and in need of supplemental
oxygen.     If oxygen     usage    prescribed      exceeds     12 or more       hours
per day,    the use of an oxygen          concentrator       will   be
authorized.        In accordance     with    program     guidelines,       oxygen
concentrators       are,  in most     instances,      rental    items    with    an
average    rental    fee of approximately          $400 per month        which     the
provider    may bill     directly     to the Federal        Government.

The Atlanta     Regional    Office,     in close    cooperation     with    the
Division    of Coal    Mine Workers      Compensation      (DCMWC)   program
officials,     utilized    a new approach       to correct     provider
billings    within    the Black    Lung   program.      The approach
involved    an extensively      controlled      retesting    of miners
previously     certified    as eligible      for oxygen     related
equipment.      The   retesting    approach     has been    expanded     to
include    the Philadelphia       Region.

The   retesting     disclosed     that  approximately     90 percent           of
those   tested     did not qualify      for benefits.      Program
officials     have    taken   immediate    steps   to remove   those         found


                                        -57-
not qualified    from the program°     This has resulted     in over
$1.6 million   in cost effectiveness      realized.    In addition,
the amount   of overpayment    in one provider    case alone has
been determined     to be at least   $2.1 million   and efforts    to
effect  recovery    are currently  underway°

Based on findings     to date, several      recommendations      have been
made to DCMWC program      officials    concerning    (i) accepting
arterial   blood gas tests only from DOL authorfzed             providers,
 (2) enacting   "kick-back"    or "referral     fee" statutes      for
goods or services     paid for by Black Lung funds,           (3) studying
cost of purchase     vs. rental of oxygen       related    equipment,     (4)
amending   the Certificate     of Medical    Necessity     to include    a
 "false statement"    provision   for the physician,        and (5)
applying   regulatory    requirements    for arterial     blood gas test
results   to those used in the approval         of the Certificate       of
Medical   Necessity.     DCMWC program    officials     have taken
action   on some of these recommendations         and are studying       the
others   in an effort    to reduce    the fraud vulnerability        within
the program.     One Black Lung office has applied           the
Standards    in recommendation     (5) and has realized        a 95
percent   declination    rate on approval     of oxygen
concentrators.

With an estimated      Fiscal Year 1986 budget     of approximately
$984 million,     the Black Lung Program     is clearly   an area of
continued    concern   to OI.   Plans are underway    to expand   our
investigative     efforts   in these provider   cases as well as to
review   other related     areas of potential   fraud involving
providers.

Examples   of other    investigative     case results    in the Black
Lung program   area    during   this   reporting  period   include  the
following:

     --    On August    2, 1985, an attorney,        who was a one-time
           candidate    for prosecuting      attorney     in Marion
           County,   West Virginia,      was indicted      by a Federal
           grand jury on six counts of mail fraud.               The
           indictment    stemmed    from our investigation         of his
           alleged   scheme   to defraud      DOL during the period
           1979 to 1983 when he allegedly           collected    more than
           $16,_00   in Black Lung benefits         while acting     as the
           executor   for a deceased       miner's    estate.    The
           indictment    charged    that the attorney       withheld    from
           DOL the fact that the miner had died and withheld
           from the miner's      children     the existence     of the
           Black Lung benefits,        thereby   converting     the money
           to his own use°       The attorney      has entered     a plea of
           not guilty    and trial is pending.          UoS_ v, Espos_to
            (N.Do West Virginia)


                                    -58-
     --    A man who worked     one day for a coal company        in 1969
           was convicted     on July 2, 1985, after a 3-day jury
           trial, on three counts of making false statements
           to receive    Black Lung benefits.        He had received
           $38,000   in benefits    after he submitted      claims for
           having worked     as an underground      miner  from 1969
           through   1973o    On August   8th, he was sentenced       to
           serve 13 months     in prison    followed    by 18 months'
           probation.     A declared    overpayment     of $33,899°70
           has been made against       the individual,     and the
           $1,581.50    in Government-paid      attorney   fees must be
           repaid by him.      U.S_ v. Yates      (E.D. Kentucky)

     --    After pleading     guilty,   an individual,     who had been
           a fugitive    since his indictment      in February     1983,
           was sentenced     on August   12th to 10 years in prison
           for _his involvement     in receiving     and negotiating
           checks   issued to a Black Lung widow whom he knew to
           be deceased°      He will begin serving this sentence
           upon completion     of a 4-year    sentence   he is now
           serving   in Illinois    for rape.     The Southern
           District   of Alabama    in Mobile    is awaiting    his
           release   from the Illinois      prison to prosecute       him
           for approximately      12 additional    crimes,    including
           assault,    receiving   stolen property,     burglary    and
           robbery.     U°S. vl Murphy     (N.D. Alabama)

     --    A widow who had been receiving         Black Lung benefits
           based on the alleged     mining    experience    of her late
           husband   during the 1930's     signed a Consent     Judgment
           on August    30, 1985, and agreed      to repay the
           Government    $29,540°    This action     resulted  after it
           was determined     that during four of the years her
           husband   was allegedly    working    in the coal mining
           industry,    he was in fact in prison.         U.S. Vo
           Franklin    (W.Do Virginia)

                Federal    Employees'       Compensation   Act

Our efforts    to eliminate     claimant     and provider    fraud within
the ESA compensation       benefit    programs,    especially    in the
Federal   Employees'    CompensatiOn      Act (FECA) area, continued
during   this reporting     period with several        significant
investigations     being reported.        During   the last 6 months,     we
opened   77 FECA cases and closed         46 cases.      The concealment
of earned    income from employment         or self-employment     or the
false billing     for services     reportedly    rendered continues     to
be the most prewalent       findings     in these type of cases.

                              FECA    Project


                                     -59-
Eight criminal       investigations    have been opened      based on the
results   of the Office       of Investigations'     continued    proactive
approach    to identify     and eliminate    fraud within     the FECA
program    through    its special    case file review project        at the
FECA District      Office,   Jacksonville,     Florida°     The primary
thrust   of the project,       in addition   to identifying      unreported
wages,   was to review      the office's    claim folder for file
administration,       maintenance,    and accuracy.      Monetary    savings
can reasonably      be projected    to be at a minimum       of $100,000
to $150,000     in overpayments     and $50,000     to $75,000    in wage
earning    capacity    adjustments°

As previously     reported,   we matched    approximately   2,700 FECA
recipients    residing   in Florida    against   wage data maintained
by the state.      In addition,     a statistical    sample of 300 of
these were identified       for a detailed     file review°    Each of
the 300 recipients      identified    in tlhe sample was advised    in
advance   of the review and was asked to report any wages or
earnings   not previously      reported°    No undeclared   wages were
reported   by those responding.

The match showed      that 196 recipients    had wages    reported    by
employers   during    the prior five calendar     quarters,    but only
25 represented     potential   unreported  wages°     Further   review
of the sample    disclosed    that over ihalf required     no
administrative     corrective    action.  A review of the actions
taken by the program      on those in the sample where
recommendations     were made illustrated     that management      was
making   a serious   attempt   to correct  or expedite     all
re commenda tions.

Examples   of other significant  FECA fraud cases reported
during   this period and the array of schemes   investigated             are
next highlighted.

     --    While most FECA investigations           involve   a recipient
           working    while   receiving    compensation     benefits,    in a
           less common occurrence,         on July 25, 1985, a FECA
           recipient     was indicted    on 62 counts of false
           claims,    false statements,      and/or mail fraud after
           he falsely     reported    a non-existent     continuing
           disability.       The recipient     claimed   he was unable to
           speak as a result of a reported           traumatic    injury   in
           1973 while working       for the Defense      Supply Agency.
           While maintaining       his ruse, he received        in excess
           of $300,000      in compensation     benefits.     Utilizing
           sophisticated      investigative     techniques    and the
           execution     of an arrest and search warrants,           in
           cooperation     with the U. So Marshal's       Office   in
           Tampa,   Florida,    evidence    was obtained     that firmly


                                    -60-
         established     the recipientUs    ability  to speak
         normally.     On September    19th, the defendant    entered
         a guilty plea to three of the 62 counts°
         Sentencing    has been scheduled     for November   22,
         1985.    U.S.v.    D_appo   (E.D. Virginia)

    --    An Incident    Report   forwarded    to OIG by the ESA
          Regional   Administrator      in Seattle,    resulted    in the
          declaration    of a $62,405.16      forfeiture     after
         investigation      determined    that a FECA recipient,       on
          compensation    since 1966, had income         from several
          jobs reported     on social security       records which had
          not been reported      to the Office     of Workers'
          Compensation    Programs     (OWCP).    Prosecution     was not
          sou°ght as the unreported       work was sporadic       over a
          10-year   period and two of the three jobs were
          beyond the 5-year      statute   of limitations.

    --   Information     provided    by a U.S. Iostal      Service
         injury   compensation      specialist    resulted   in the
         April 19, 1985, indictment          of a former    letter
         carrier   on 16 counts of mail fraud and 4 counts of
         providing    false statements.         He had been collecting
         FECA benefits      since 1980 and had been self-employed
         since 1981 in a pumping         and/or   lease service with
         up to 13 oil companies         identified    as having
         contracts    with his firms.        He received
         approximately      $49,165    in FECA benefits,     while
         failing   to report in excess        of $82,000    in earnings
         to DOL.     On August    6th, after previously        pleading
         guilty   to three counts of the indictment,            he was
         sentenced    to 2 years     in prison,    suspended;     placed
         on probation     for 5 years; and ordered         to make
         restitution     of $35,000.      U.S.v.     Opersteny    (S. Do
         Texas)

As followup  to a pending FECA      investigation     reported   in our
last report,  the final action      taken in that     matter   is next
described.

    --   On June 28, 1985, after being found guilty of
         making false     statements,   a former air traffic
         controller,    who managed    several  apartment  complexes
         and earned    in excess of $94,000 while also
         receiving   FECA benefits,     was sentenced   to 2 years
         in prison with 6 months       to serve and the remainder
         suspended   on the condition      that he pay a $10,000
         fine within    90 days, serve 3 years' probation,       and
         pay restitution      in an amount yet to be determined.
         U.S.v.    Olsen   (W.D. Washington)



                                 -61-
                             Internal    Controls

Our efforts    to reduce fraud within     the ESA benefit    programs
were further    strengthened   by program   personnel   demonstrating
their  concern   about early detection     of fraud by giving
closer  attention    to routine procedures.      One example    of how
the implementation     of efficient   internal   controls   aided in
the detection    of fraud follows.

     --     The alertness     of an OWCP supervisory        claims
            examiner   who questioned      billing   amounts     submitted
            by a physical     therapy   clinic   predicated      an
            investigation     which   resulted   in the indictment        of
            the owner of the clinic        on 21 counts     of false
            claims   and mail fraud°       The investigation        disclosed
            that the clinic      staff would have had to work 50
            hours per day over a continuous           30-day period      to
            earn the money the owner had billed            to OWCPo
            During   our investigation,       we discovered      that the
            owner had been convicted         of a similar     scheme    in the
            late 1970's     involving   private    insurance     companies.
            He was sentenced      to 18 months     in prison,     which he
            appealed°     He remained     free pending     his appeal     and,
            after losing his appeal,         the Justice    Department
            failed   to have him rearrestedo         Our agent brought
            this matter     to their attention      and the subject was
            imprisoned    after more than a 2-year         delay°     Even
            while   in prison    on his original      conviction,     the
            owner continued      his fraudulent     billings     to OWCP by
            use of the telephone.         He pled guilty to one count
            of false claims and on August          30th was sentenced        to
            2 years   in prison.      U_S. v_ Gottheiner        (N.D.
            California)   .

Another   example    of how tighter      controls    help prevent      fraud
and abuse was demonstrated         when the ESA's Division          of
Internal Management       Control,    working    with recommendations
from OI, incorporated        a "Warning    Message"     into ESA's
Division    of Automated     Systems   Development,      effective     June
20, 19850     The warning     is a direct      result of the amendments
to Chapter    XXI of the Comprehensive          Crime Control     Act of
1984, which    added a new Section        1030 to Title 18, United
States   Code, making     it a crime to knowingly         access    a
computer   without    authorization      and thereby,     to use, modify,
destroy   or disclose     the information       therein,    or prevent      the
authorized    use of the computer.          Since one of the essential
elements    of proof of this crime is to knowingly             access     a
Government    computer,    ESA has adopted       a "Warning    Message"      on
its computer     systems   and will ensure       that such warning        is
included    on systems    currently    in the development        stages.


                                     -62-
Because   of the importance   of this new amendment,     the
Inspector   General  has since issued a memorandum      to all
agency  heads detailing    the provisions   of Section   1030 and
recommended    that they direct their respective     EDP staffs to
insert a similar    "Warning  Message"   in all EDP systems    used
by their agencies.

                      Wage   and   Hour    Violations

OI continues     its proactive    or self-initiated  approach   with
various   U.S. Attorneys,     other law enforcement   agencies,    and
the Wage and Hour Division        (WH) of ESA to investigate
potential    instances   of conspiracy    to defraud the Government
in the area of construction        contracts.

The results   of our continued    development    of understanding
and expertise    in handling  these type of investigations        is
reflected   in the fact that during Fiscal Year 1985, 22
contractors   were indicted   or had informations     filed against
them.   Of those previously    indicted,    23 have been
convicted.    Additionally,   the firm(s)    and/or  its principal
officer(s)   were fined a total of $1,101,825       and ordered    to
make restitutions    totaling  $912,225   to employees.

In all of these investigations,     the contractors   involved
were found to be submitting    false certifications    to the
Government for wages paid their employees.        By so reporting,
they could consistently   underbid   other contractors    to obtain
Government contracts.

In addition     to the criminal      prosecution    of these
contractors,     the U.S. Attorneys'        offices  have requested
restitution     for the employees       under the Victims     and Witness
Protection    Act of 1982.       In one judicial     district,   the court
has debarred     the contractors      from bidding    on Federal
contracts    as a condition      of probation     at sentencing.     OI is
referring   the    results   of these investigations       to the program
agency   and recommending       that the contractors      be
administratively       debarred    and placed    on the Consolidated
List of Debarred,       Suspended,    and Ineligible     Contractors,
thereby   preventing     them from bidding       on future Government
contracts    for specific     periods    of time.

Some of the more significant         WH    investigations    conducted
during the reporting  period        are    outlined   below.

     --    On August  20, 1985, the president   of Avella   Lumber
           and Supply Company,   who had been indicted    on 25
           counts of making false   statements  and aiding and
           abetting,  was sentenced  to 4 years' probation    and


                                    -63-
            fined $5,000,    after pleading    guilty   to one count of
            making   a false statement     in connection   with the
            provisions   of the Davis-Bacon     Act.   As president,
            he also pled guilty      to one count of making a false
            statement   on behalf of his company.        The company
            was fined $10,000,      plus cost of prosecution.      He
            must also make restitution       of $90,523   in wages   due
            his employees.      This was a joint investigation       with
            the FBI.    U.S.v.    Wasik   (W.D. Pennsylvania)

     --     As a result of a joint OIG and WH investigation,
            Meredith   Worley,    Inc., and three of its officers
            each pled guilty      to a one-count      felony    information
            charging    them with submitting       false statements       to
            DOL regarding     a Federal     painting   contract.      On May
            6, 1985, the judge placed         each officer     on probation
            for 5 years,     debarred    them and the firm from doing
            business   with the Federal       Government     for 5 years,
            and ordered     payment   of approximately       $253,949   in
            restitution     to former employees      for underpaid
            wages.    The corporation      was also fined $2,000.
            U.S.v.    Meredith    Wo_ley    Inco. et al (S.D.
            California)

As followup    to an investigation     mentioned     in our last
semiannual    report,   the U. So District    Court in Honolulu,
Hawaii,   has ordered    the Atlantic    Construction     Company  (ACC)
and its president,      to forfeit: all ACC property,       valued  at
approximately     $I million,   to the Federal     Government.     The
president   was also personally      fined $63,000     and sentenced    to
serve 4 years in prison.        The company's     secretary-treasurer,
was placed    on 5 years'   formal   probation.     They had been
found guilty of a scheme       to defraud    the government     on
military   construction    projects   in Hawaii.      This was a
18-month   joint investigation      by OI, WH, FBI, IRS, and Naval
Investigative     Service.  U.S.v.    Atlantic    Construction.
Busher.   Miller    (D. of Hawaii)

          Longshore   and   Harbor   Workers'   Compensation    Act

With the new amendments     to the legislation     increasing   the
penalties   for violations   of this Act, OI has begun to review
its efforts    in this particular   area.    Using experienced
personnel   from our Seattle   and Boston    field offices,   we are
presently    targeting our efforts   and reviewing     the "second
injury"   claim procedures   and developing     a plan which will
assist   us in identifying   potential   fraud in such claims.
The plan will be tested     in the New England     Region.

As followup     to a case    mentioned  in our last semiannual
report,  the    following    final action  is reported.


                                     -64-
     --     While employed     as a teamster,    a member  of Local 19
            of the Longshoremen      and Warehousemen's    Union also
            received   over 81 weeks of total disability
            compensation     based on a claim for a back injury he
            allegedly    sustained.     On June 7, 1985, he was
            sentenced    to 6 months    in prison,  5 years'
            probation,    and ordered    to make restitution     in the
            amount   of $32,500.     U. So v° McClinto_ck   (W.D.
            Washington)


ETHICS    AND   INTEGRITY   MATTERS

Employee   ethics    and integrity     awareness   has always   been a
priority   item to the Inspector        General,    and also the subject
of several    special   training    sessions,    during which   the
supervisor's     role in handling     ethics    and integrity    issues is
discussed.     We continue    to investigate      employees   and/or
former   employees,    or others associated       with DOL programs      for
integrity    type issues when allegations         are received.      The
following    are some examples      of the investigations      culminated
during   this reporting     period.

     --     A former Office     of Labor-Management       Services u
            Administration     supervisory     computer   systems    analyst
            signed a plea agreement        and pled guilty on May 16,
            1985, to charges      that he illegally      supplemented     his
            GM-14 salary by advising        departmental     officials    to
            purchase   over $24,878      in computer    equipment    and
            subsystems    from a firm that he owned.          The
            individual    was sentenced     to probation,     fined,    and
            ordered   to perform     community   service.     U_So Vo
            Goldberg    (District    of Columbia)

     --     An investigation     referred     to OI by a regional
            administrator     for the Occupational      Safety and
            Health   Administration      (OSHA) disclosed     that two
            employees    of the State of Hawaii,       AFL-CIO,
            Occupational    Safety and Health      Program   embezzled
            over $7,600,    by writing     checks to themselves      or
            altering    the amounts    of the checks.      On August    29,
            1985, both were indicted        by a Federal    grand jury
            for embezzlement.       One, the secretary,      was charged
            with 16 counts,     while   the bookkeeper     was charged
            with three counts.      UoS. v. Liu and Suzuki        (Do of
            Hawaii)

     --     A former OWCP employee    in New York City, pled
            guilty  on July 3rd to a one-count   criminal
            information   charging her with conspiracy    to possess


                                      -65-
             and circulate      counterfeit  securities.     She was a
             member  of a ring that printed       and negotiated
             counterfeit    Chase Manhattan    Bank money    orders°
             Four other members       of the ring have already      pled
             guilty   to similar     charges filed against    them.     The
             DOL employee     was terminated    in January°     OIG
             participated     in this joint investigation      with the
             Secret   Service    and bank investigators     because   a DOL
             identification      card was used to cash some of the
             counterfeit    money orders°     The investigation      is
             continuing.    UoS° v. MillgJ[ (E.Do New York)

     --      An ESA timekeeper/secretary     in Washington,    Do C.
             was sentenced    to 5 years' probation   and ordered    to
             make restitution    of $12,990  she received    from
             fraudulent   overtime  claims.   She had accepted     a
             one-count   felony plea offer of making     false
             claims°    ESA took action to remove her from Federal
             service°    U_S. v. Williams   (District  of Columbia)

     --      Based on information      discovered    by an audit of the
             New York regional     FECA bill payment      systems   on
             September   18th, a former OWCP employee         pled guilty
             after being indicted      on charges    relating    to his
             participation    as a principal     in an embezzlement
             scheme wherein     he aided in issuing     fraudulent     OWCP
             payments   to confederates     who then cashed the checks
             and shared the proceeds       with him.     He is the second
             person   to be indicted    in this case.      The first
             individual,    a non-DOL   employee,    had previously     pled
             guilty   on June 12th to one count of embezzlement
             and one count of aiding and abetting.            Sentencing
             is pending.     UoS. v° Gaston.     D_xon   (S. Do New York)


EMPLOYMENT     TRAINING   ADMINISTRATION

The ETA program     work continues       to receive   a significant
commitment    of investigative       resources   and priority     status.
Our investigations      of unemployment      insurance    claimant    fraud
has once again achieved        noteworthy    results   through    the
innovative    "clustering"     of cases for prosecution        while we
continue   our proactive      effort   to identify    and investigate
the larger    dollar   frauds    such as the fictitious
employer/employee      schemes.     We have been successful        in
recovering    for the government       the costs of investigating
some claimant     fraud cases successfully        prosecuted°      In JTPA
as well as CETA much effort          is being spent on embezzlement
investigations     while we are also exploring         such systemic
problems   as the inconsistent        contract   language   used to
define   "placements"    and its potential       to cause substantial


                                    -66-
dollar   loses to the Government.        The alien labor
certification     program   investigations    have uncovered  pockets
of immigration     attorneys    and or agents who are suspected     of
having   subverted    the programs.     Some have been indicted    and
prosecuted    during   this period.     The following   cases
highlight    our ETA investigative      efforts°

                         Job   Training    Programs

Although    cases involving   the Comprehensive    Employment
Training     Act (CETA) have declined     and conversely    the Job
Training    Partnership  Act (JTPA) cases have begun to
increase,    we continue   to devote  considerable   time in both
areas.

The following   illustrates      the variety  of      cases   and   problems
being investigated    within     JTPA and CETA:

    --      In a case we highlighted       in the last report,       the
            administrative     assistant   for an American      Indian
            Nation   CETA/JTPA   program   had been charged      in a
            three-count    indictment    for the embezzlement       of
            $251,956    in DOL funds.     The defendant     siphoned    the
            funds through     her personal    bank accounts     from March
            1982 through    September    1984.    The defendant,     on May
            6, 1985, was sentenced       to serve a 6-month      jail
            term, placed    on 5 years' probation        and ordered    to
            make full restitution.        U.S.v.     Espinoza   (E.D.
            Washington)

    --      On April 24, 1985, a 17-count         indictment   was
            returned   charging   the embezzlement      of $61,000 by
            the owners    of a company    and one of its employees.
            They submitted    invoices    for training    expenses   which
            were not incurred,     materials    never purchased,     and
            for salaries    of instructors     for training    never
            provided.    U.S.V.    Perez,    et al. (D. Puerto Rico)

    --      Also, we reported     previously    a joint investigation
            with the City of Los Angeles        Special    Investigation
            Unit and the FBI which      resulted    in the indictments
            of a former    fiscal officer    and a former job
            developer   who were charged     with defrauding      the CETA
            program   of approximately     $50,000.     They were
            indicted   on March 5, 1985, for embezzlement,           having
            issued checks    to each other to bring their scheme
            to fruition.     On June 12, 1985, both defendants
            pled guilty.     U.S.v.    Hammond.   et. al. (C.D.
            California)




                                    -67-
--   A former    director   of the Shoshone,     Bannock   JTPA
     program   was indicted     in Boise,   Idaho, on June ii,
     1985, on charges      of embezzling    $34,321   from the
     CETA/JTPA    programs   from December     1982 through
     October   1984.    Her scheme    entailed    the forgery   of
     participants'     names to 113 stipend      or emergency
     service   checks which were either        cashed or
     deposited    into her personal     bank account.      U.S.v.
     Teton   (Do Idaho)

--   On May i, 1985, five individuals          were charged      in a
     69 count indictment     with making     false    statements     to
     the Government    and embezzlement       of CETA funds.        The
     president   of a farm corporation        contracted    with a
     CETA subgrantee    at Turtle Lake, Wisconsin,           for
     training   of chronic    unemployable     and chemically
     dependant   individuals.      The president,      with the aid
     and assistance    of others,     submitted    fraudulent     time
     sheets for CETA participants,         fraudulent     training
     schedules   and cost invoices.        This resulted      in a
     loss to the Government       in excess    of $53,000.       Prior
     to the trial on July 29, 1985, three of the
     defendants   pled guilty.      The president      was
     convicted   by a jury on 50 counts        of making    false
     statements   and theft or embezzlement         of CETA
     funds.    A hung jury resulted       in the case of the
     fifth defendant    and a decision      has not been made
     whether   to retry the case.       U.S.v.     Rogers    (W. Do
     Wisconsin)

--   In an ongoing    investigation     of the Southern     Nevada
     Employment    and Training    Program,   three defendants
     pled guilty    on July 10, 1985, at Las Vegas.           The
     owner of a plumbing     company    pled guilty    to one
     count each of conspiracy       and false statements       and
     agreed   to make full restitution      of $28,000.       The
     other two defendants      also pled guilty.       The
     investigation    to date has resulted      in the
     conviction    of eight conspirators.       U.S.v.     Germain;
     e_. al. (D. Nevada)

--   Also, as a result of the above investigation,         the
     former executive   director   of the program    was
     indicted  on September   25, 1985,    and charged with 39
     counts of fraud related     offenses.    To date, a total
     of 19 staff members_    contractors,    and participants
     have been indicted,    resulting   in 15 convictions.
     H. S. v. Williams.   et, a]._ (D. Nevada)

--   A 13-count  indictment      was returned     on April    24,
     1985t at Des Moines_,      Iowa, stemming     from an    OIG


                             -68-
           investigation     of a scheme     to defraud   the Department
           of Labor of $79,595.        From May 5, 1982, to March 8,
           1983, the defendant       submitted   false claims    to the
           Iowa Office     of Planning    and Programming    for
           non-existent     salary and office      rental expenses.
           Such funds came from a $151,000          contract  to provide
           the state with technical        assistance    in training
           during   its transition     from CETA to JTPA.       The
           investigation     also precluded     the defendant    from
           expanding    her planned    operation    to other DOL
           regions.     U.S.v.    Link (S.D. Iowa)

     --    A former CETA job developer          at the Avalon-Carver
           Community    Center    pled guilty    to three counts of
           embezzlement     and conspiracy      to defraud   the
           Government    on July 17, 1985, at Los Angeles,           CA.
           He was involved      in a conspiracy     to appropriate
           funds through     the use of fictitious       participants,
           phony job    sites,    and by cashing    participants   _
           checks   through    friends   and associates.      He
           converted    approximately     $100,000    of CETA funds to
           his personal     use or the use of others from 1981
           through   1983.     This was a joint investigation         with
           the FBI.     U.S.v.     Smith   (C.Do California)

On a continuing    basis, the Office    of Investigations
endeavors  to identify    systematic   problems  which lead        to
fraud, waste,   and government    inefficiency.

We believe    a significant     problem   was noted during an
investigation      in a southern    state concerning      the
inconsistent     contract   language    used to define     a "placement"
in JTPA programs.       In this regard,      contractors     and
subcontractors      are to assist    students    of the program    in
finding   employment    following    completion    of their training.
A fee is paid by DOL to the contractor            for each successful
"placement."      Since the length      of employment     and the types
of employment     have not been clearly       defined    in the
contracts,    contractors    are being paid for placement         of JTPA
students    in jobs which    are unrelated     to the training.       For
example,     one contractor     trained   students    as tractor   trailer
operators    and then hired them as janitors          for a 3-day period
for which he received       $750 per placement.        Our staff is
researching     this problem    and expects    to provide     more details
during   the next reporting      period.

               Fictitious    Employer/Employee      Schemes

In the last semiannual      report we stated     it was our belief
that fictitious    employer/employee      Unemployment  Insurance
(UI) schemes   represented    potentially     one of the greatest


                                   -69-
threats   to the integrity   of the UI       program.    Our
investigative   efforts   in this area       continue   to pursue    this
assessment.    For example:

     --    In an ongoing     investigation,     on August     27, and
           September    24, 1985, indictments       were returned
           charging   21 individuals     with 64 counts of mail
           fraud and use of false/fictitious           social    security
           numbers°     The indictments     alleged    that the
           defendants    caused approximately       190 fraudulent
           unemployment     insurance   benefits    claims to be filed
           with the Ohio Bureau       of Employment     Services.      It is
           estimated    that the scheme netted        the defendants
           approximately     $1.2 million.      Additional     indictments
           are expected     in the near future°        UoS. vo Leslie_
           et al. (AoD. Ohio)

     --    In our previous      report,   we highlighted     two
           investigations     involving    an individual    who carried
           out a fictitious      employer/employee      UI scheme    in
           Ohio and Georgia,       i oeo Ohio v. Hampton     (Cuyahoga
           County,   Ohio) and U.S_ V. Hamilton         (N.D. Gerogia) o
           This individual     was responsible      for schemes    which
           netted   him at least $72,000°        The defendant,      having
           been sentenced     to 6-years'     imprisonment    for similar
           charges   in Ohio, entered      a Rule 20 guilty      plea on
           July 23, 1985, to four of the 102 counts            on which
           he was indicted     in Georgia°      He was sentenced      to
           5-years'    imprisonment     on each of the four counts°
           U°So vo Hamilton       (N.D. Georgia)

                            UI   Claimant   Fraud

Our Office    of Audit conducted       a Federal    employee   UI
crossmatch,     to which   reference    was made earlier      in this
report.    As a partial      result of that crossmatch,        we
conducted    a joint investigation       with the OIG, Department        of
Interior,    which   resulted    in the indictment      of 21 National
Park Service     employees    for UI fraud.      The indictments
charged   each employee     with numerous     violations     of making
false statements      and mail fraud.       In addition,     similar
charges   were lodged     against   14 employees     of the Tennessee
Valley  Authority°      Also, on September       30, 1985, charges      were
filed in the Northern        District   of California     against    an
additional    34 individuals,      31 of whom were former employees
from nine other Government         agencies°     The loss to the UI
system   identified    in these cases is estimated         to be in
excess   of $94,000.

                        Clustered    Prosecutions



                                    -70-
In past semiannual       reports we have provided       several   examples
of "clustered"     UI claimant     fraud prosecutions.       This method
of obtaining     prosecutions    for otherwise     unattractive
singular    cases, has generally       been accepted    nationwide    by
U.S. Attorneys.       Furthermore,    we have initiated      a joint
effort   between   a state Attorney      General   and a U.So Attorney,
which has resulted      in numerous     "clustered"    indictments
during this period.        Highlighted     below are the details      of
this joint effort      that we believe      adds a new dimension      to
our efforts     of fraud prevention.

Our 0IG agents met with officials          of the Nevada     Employment
Services   Division,     the Nevada Attorney     General,    and the U.S.
Attorney,   District     of Nevada    to coordinate   and unify efforts
in fighting    fraud,    waste and abuse in the UI program.           As a
result of this joint cooperation,           an initial wave of
indictments    was returned      during July 1985 charging       38
individuals    with various      frauds.   To date, ii of the 38
individuals    have agreed to plea negotiations         drafted     by the
U.S. Attorney     and    five have been sentenced,       requiring    full
restitution    ranging    from $1,500 to $5,400,      3-years'
supervised    probation,     fines from $1,000 to $2,500,        and court
ordered   reimbursement      to the Department     of Labor for our
investigative     costs.

Through   the initiative    of our OIG special     agents,   we have
been successful     in obtaining    court ordered   remuneration    for
our investigations.       Defendants    in two of our regions    have
been ordered    to reimburse    the DOL for the costs incurred
during   our investigation     of their fraudulent     acts.   These
costs were determined      by our special    agents and made
available    to the U.S. Attorneys     who included    them as a
condition    of the plea agreements.      We are encouraging    our
agents   to seek such remuneration       in all future plea
agreements    in particular    and as appropriate     in other
matters.    To insure uniformity      in the calculation     of the
costs, policy and instructions        have been issued detailing      a
methodology    and formula    for these computations.

                      Alien   Labor   Certification

The Office    of the Inspector      General  is very sensitive     to the
impact   that illegal    aliens have upon the American        work force
through   the abuse of the alien certification          process.
During   the last reporting       period we advised    of the
continuing    attention    being afforded    the alien certification
program   to ensure    the viability     and integrity   of the labor
certification     process.     Our efforts   have resulted    in the
initiation    of approximately      50 investigations    of suspected
violators    of the process.       Many of these individuals      have



                                   -71-
been identified    as immigration    attorneys°       Below   are   a few
of these types    of investigations:

    --    In a case highlighted         in the last report, we
          detailed    a 31-count     indictment    charging     criminal
          violations    by a former      congressional      aide, a former
          assistant    U.S. Attorney,       a former    Immigration     and
          Naturalization      Service     (INS) employee,     and a
          current    INS employee.       On August    19, 1985, the
          former   INS employee      pled guilty     and was sentenced
          to a 3-year     period   of probation      and 200 hours of
          community    service°    As part of his plea
          negotiations,      the defendant     agreed    to testify
          against    his co-defendants.        Subsequently,       such
          co-defendants      entered    guilty pleas and were
          sentenced    to 18-months u incarceration          to be
          followed    by 1-year    probation,     and 100 hours
          community    service    and were ordered       to immediately
          surrender    their licenses       to practice     law to the
          Texas Bar Association°           U_S° v_ Duke et al. (S. Do
          Texas)

    --    On August    28, 1985, an individual        practicing    law
          without   a license    was indicted     and charged    with six
          counts   of making false      representations     and
          statements    on applications      material    to alien
          employment    certification.       On September    4, 1985, a
          co-conspirator     pled guilty     to an information
          charging   similar    violations.      The latter,    who will
          be a witness     against   the former,    was fined $250 and
          sentenced    to perform    250 hours of community
          service.     The violations     occurred    from December
          1981 through    August    1982 and entailed      the mailing
          of employment     certifications      to the California
          Employment    Development     Department    which were
          subsequently     transmitted     to DOL and INS.      U.S_ v.
          Yang et al. (COD° California)

    --    On September    23, 1985, at Asheville,     NC, an
          eight-count    indictment   was returned   charging   an
          immigration    attorney   with violations   of mail fraud,
          fraud and misuse     of visas,  permits   and other entry
          documents.     It was alleged   that the attorney
          falsely   informed   INS that his client,    a British
          citizen,    had been hired to work as a consultant        in
          this country    for 1 year when allegedly      his client
          had been hired as president       of the company.
          According    to the indictment,    from about February
          198_ through    about May 1982, the defendant       filed
          several   documents   with INS claiming    the client
          intended    to return with his family     to Great Britain


                                  -72-
           after 1 year's  residence   when, allegedly,  company
           officials  had informed   the client that they wanted
           him to serve as president    for 3 years. U_So v.
           Schwartz   (NOD. No Carolina)

     --    On April 29, 1985, executives          of a Los Angeles
           marine   products    corporation     entered   a guilty pleas
           following    the filing of a two-count          information.
           It charged    the corporation      with having made false
           statements    and with visa fraud.         The investigation
           revealed    the corporate     officers    fired all American
           workers   and replaced      them with Korean       aliens
           certified    by DOL.     Furthermoret     the corporation      had
           represented     to DOL that qualified        American    workers
           cduld not be found for the jobs.             The corporation
           is awaiting     sentencing.      UoS. v. All Marine
           Products;    Inc,    (D. Oregon)

Another   area of concern      has been allegations        received   by the
Inspector    General   and Employment      Training    Administration
officials    regarding    job advertisements       by certain
institutions.       It is alleged     that these institutions        are
discouraging     applications     from American     workers    by
advertising     technical    positions    at salaries     much less than
the prevailing     wage.    As a result,      aliens allegedly      are
being employed      in positions    which    conceivably     could be
filled   by qualified     American    workers.     We have added this
problem   to work currently       ongoing    in this area.      We will
continue    to examine    allegations     of this type as part of the
priority    that will be afforded        the alien certification
program   as a whole.




                                    -73-
  OFFICE   OF RESOURCE     MANAGEMENT      AND   LEGISLATIVE   ASSESSMENT


The Office    of Resource     Management     and Legislative      Assessment
 (ORMLA) provides     the OIG with direction         and support     by
carrying    out various     policy    and program    functions    and
activities.      In discharging      its responsibilities,        ORMLA
fulfills   certain    statutory     requirements     prescribed    in the
Inspector    General   Act; develops      and implements      policy
statements    affecting     part or all of OIG; reviews          and
assesses   existing    and proposed      legislation     and regulations;
conducts   OIG-wide     initiatives;     arranges,    coordinates,      and
directs   evaluations     within    OIG such as the Self-Inspection
Program;   serves    as a representative        of the Inspector      General
in dealing    with officials       and employees     outside    the OIG and
when participating       in activities     where OIG        presence    has
been requested;      coordinates     and directs     internal    control
activities    for all of OIG; performs          all administrative,
budget,   and personnel      management     functions    pertaining     to the
OIG; and provides      the OIG with management          information
services   and requested       data through     its ADP staff and
equipment.


LEGISLATIVE    AND   REGULATORY    ASSESSMENT

Section   4(a) of the Inspector     General   Act of 1978 requires
the Inspector    General  to review existing     and proposed
legislation    and regulations   and to make recommendations     in
the semiannual     report concerning    their impact on the economy
and efficiency     in the administration     of the Department's
programs    and on the prevention     and detection  of fraud and
abuse in departmental     programs°

The prevention     implications    of this responsibility      recognize
that the Federal     programs   may adversely     be affected   by
certain   provisions    of the acts that govern DOL programs°
Because   of the particular     concern    by the OIG regarding
actual   or potential    situations   of fraud or abuse,      review of
existing   and proposed    legislation     and regulations    can
identify   current   or potential    problems    and may result in
substantial    savings   of Federal    resources.

In discharging   our legislative   and regulatory    review
responsibilities   as a means of possibly     reducing   fraud,
waste,  and abuse in DOL programs     and operations,    we reviewed
602 items, which consisted     of proposed  bills,   reports,
regulations   and testimony.

In the first session  of the 99th Congress,    two legislative
items -- amendments  to the Inspector  General   Act and the


                                    -75-
Program   Integrity   Act of 1985 -- were of particularly
significant    interest   to the OIGo   We also continued  to voice
our support    to the Congress   for legislation  to provide  full
law enforcement     authority  to Special  Agents of the Office   of
Labor Racketeering°

     Inspector    General    Act   Amendments   of   1985   (HoR°   3077)

We strongly    support    this bill, which would amend the
Inspector   General    Act of 1978 by establishing        Inspectors
General   at three additional      Federal   agencies.     HoRo 3077
would also extend most of the Inspector           General   Act
protections    and requirements     to similar    audit and
investigative    activities    conducted    in Federal    agencies   not
covered   by the Inspector     General   Act°

Of particular      interest   were the provisions        in Section   4
relating    to additional     semiannual     reporting    requirements°
These   requirements     should serve to strengthen          the role of
the Inspector     General    by increasing      the accountability      of
Federal   managers     to take timely corrective        actions°
However,   we are concerned       that the proposed       bill may serve
to overemphasize      audit statistics       while de-emphasizing       more
potentially     significant     contributions     of the Inspector
General,    such as management       improvements,     that may not be
readily   quantifiable°       Rather,    we would suggest      that any
legislation     place a greater      emphasis    on reporting    the
Inspector    General's    involvement     with agency managers       in
furthering    the aims of the Department          as well as on the
identification,      discussion,     and reporting     to the Congress
and the public      of programmatic      problems   and their
solutions°

We specifically       suggested    that the definition        of "audit
resolution"     in this bill be made consistent            with its use in
OMB Circular     A-5Ho     In our opinion,      "audit resolution"
begins   when an official       makes   a determination       to take
corrective     action on the auditors'         recommendations°       We
believe   that "audit      closure,"    which   occurs    at the completion
of corrective      actions,    is a distinct     function     that should
begin as soon after resolution            as possible°       In our
viewpoint,     it would    be clearer     if the proposed      bill
recognized     these two separate       stages    rather than attempting
to combine     them, which serves       to confuse     the process°      As a
further   point of simplification,          we also suggested       that the
timeframe    for the resolution        of Federally     and non-Federally
prepared    audit reports      both be 6 months       after OIG's issuance
of the report to the agency manager°

Finally,   we recommended   that      the requirements    of reporting
audit   resolution  information       be simplified    and that greater


                                     -76-
reporting   emphasis be placed on the prevention           of fraud,
waste,   and abuse as well as reporting  savings          and management
efficiencieso

             Program    Integrity    Act   of 1985   (So 1134)

We continue   to strongly    support   legislative    efforts  to
reduce  fraud and false claims by strengthening          mechanisms
for the recovery   of civil penalties       and assessments    for
false claims and statements       involving   Federal   contracts,
grants,  or programs°     This bill would significantly         assist
the Federal Government      in making   such recoveries°      While we
support  the intent of this proposed        bill, we recommended
several  specific   changes   or clarifications     in the language.

We believe   that the $100,000      statutory    limit contained  in
this bill is unduly      rigid°    While we agree that cases
involving   substantial    money should be pursued       through the
judicial   process,   we recognize     that there may be situations
where the Justice     Department's     resources   may not be
available   to pursue    a case over $100,000o        In these
situations,    the statutory    limit would preclude      the use of
this Act to attempt      a recovery°

We also raised concerns        that this bill did not include
offset   authority,    which    is an important    collection    tool.
Although   some offsets      are possible   under the provisions       of
the Debt Collection      Act, that Act does not apply to state
and local governments°         Finally,   we also made suggestions
relating   to the substitution       of "reasonable     cause" rather
than "probable     cause" of liability      before    referral,
elimination     of the burdensome     notification     requirement
before   subpoenaing    witnesses,    and clarification      of the
language    relating   to the assessment     of fines in lieu of
damages   sustained.

                       Law   Enforcement    Authority

The need for law enforcement       authority   for Special Agents
employed   by the Office   of Labor Racketeering        (OLR) continues
to be of concern°     This authority     includes    the power to make
arrests,   administer  oaths to witnesses,      carry firearms,     and
execute  search warrants°      Such permanent     authority   can only
be granted   through  legislative    action°

Despite   some very notable     successes,    the Department's
ability   to investigate    and combat    labor racketeering    has
been significantly     hampered    by the lack of law enforcement
authority    for its Special    Agents°    At hearings   before  the
Senate   Committee  on Labor and Human Resources        in February
1983, we documented     a number    of instances   where labor


                                    -77-
racketeering    cases had to be abandoned  or could not be
initiated    due to the lack of law enforcement   authority°

During   the 98th Congress,     So 2090, a bill which would have
provided   limited    law enforcement    authorities    to designated
OLR Special    Agents    did not reach the floor.       Consistent   with
the Department     of Justice's    "Guidelines   for Legislation
Involving   Federal    Criminal  Law Enforcement     Authority,"   a
request   for this authority     has also been forwarded       to the
Department    for consideration.


ETHICS   AND   INTEGRITY   AWARENESS

During   the reporting     period,     our ethics and integrity
training    course   "Knowing    Where   The Buck Stops:     Ethics and
Integrity    in the Workplace",        that was described    in our prior
report was expended       to 6 hours and presented       functions  to
more than 90 supervisors         and managers.    Most participants
were grades     12-15,   although    some were in lower grades or in
the Senior    Executive     Service.

The training,     which  relies heavily    on case studies    and group
discussions,    emphasizes    the supervisory    or managerial    role
in dealing with questions        or problems  of ethics and
integrity    in the workplace.      Among the topics emphasized       are
conflicts    of interest;    acceptance   of gifts and gratuities;
outside   employment;    improper   use of Government    resources    or
facilities;    and reporting     of fraud, waste,   and abuse.

Preliminary    discussions    are already    underway   with the
Department's    training   office   to design    a self-contained
regional   training   package    to complement    the National    Office
effort.

Discussions    also took place during the reporting           period   to
plan a training      program   specifically   designed    to meet the
specialized    needs of the Mine Safety       and Health
Administration      (MSHA).    Because   of regulatory    requirements_
the training    needs for MSHA go beyond        the range of topics
included    in "Knowing    Where   The Buck Stops° " This need has
also been highlighted        by the Office   of Government     Ethics°
It is anticipated       that the specialized     training   effort will
go a long way toward fulfilling          the longstanding
informational     needs of MSHA employees.

In addition    to the training   efforts    described   above,  plans
were made for a special     October    seminar   exclusively   for SES
personnel   to deal with ethics     issues   relevant   to that
group°    Co-sponsored  by the OIG and the Department's         Office



                                   -7 8-
of Executive  Personnel Management,    this session        will   feature
experts  in the field of public   sector ethics.

In addition    to our training    efforts,    we initiated    a fact
sheet series designed      to provide    general   information    and
guidance    to DOL employees    and members     of the general
public.    Among the subjects     being covered     in the forthcoming
new series are the Inspector        General   Act; Reporting     Fraud,
Waste,   and Abuse;   and Ethics    and Integrity     in the
Workplace.     New advertisements      for the Department's      Hotline
were also developed      and placed    in the recently    issued
departmental    telephone   directory.      Other written    materials
are also being contemplated        for future use.


ADP   INITIATIVES

During   the second half of Fiscal     Year 1985, major    strides
continued    to be made in the effort     to meet the ADP goals set
forth in our ADP Master     Plan.   The Plan identified     these
requirements    which, when implemented,     would improve   the
productivity    of all mission-related     functions.   Computer
tools are now in use throughout       the OIG for the auditing     and
investigative    work processes.

                              Minicomputers

During this reporting     period,   minicomputers   were installed
in New York, Philadelphia,      and Chicago,    thus meeting  our
initial  objective    of installing    one large minicomputer    in
the National   Office   and one medium minicomputer      in each of
the six regions.

We have also completed        conversion  of the OIG Information
System   from contractor      mainframes  to our in-house    data base
management    system    (ORACLE),   which utilizes  the
minicomputers.       Conversion    helped reduce our costs and also
upgraded   the information       system to modern  technological
levels.

Prudent   ADP management     which    includes  active oversight     by
the ADP Executive      Steering   Committee,    coupled with rigorous
review   of budget    requirements,     continues   to guide the OIG's
conservative    and economical      approach   in configuring    the
minicomputers.      Hardware    upgrades    are phased-in   according   to
the OIG ADP Master      Plan, but only to match verifiable         needs
at the various     computer    sites.

Finally,   we have    added a powerful     electronic   spreadsheet    and
modeling   software    package to our     software   inventory,   which



                                   -79-
are widely   used   in audit,   investigative,     and   administrative
functions°

                            Microcomputers

Portable   microcomputers     have continued    to aid in improving
productivity    by broadening     our analytical   methodologies  in
field and remote     operations    for our labor racketeering    and
fraud and integrity      investigations    as well as our audit
functions°

During   this past summer,    fifteen   investigators    received
training    in two OI and two OLR offices°        This training    began
with the basics of portable       microcomputer    usage and advanced
into more sophisticated      subjects   such as in-depth     training
on data base design and data verification°            A "live" case,
used as a training     tool, provided    the trainees    with the
experience    of confronting    real problems   of application
design°

Some examples  of successful      microcomputer     applications
include  the following:

     --    In a case involving    the construction     of a union
           hall, which was to be financed     by a $750,000      bank
           loan and $1,000,000    from the union's    own funds,     it
           was suspected    that the general   contractor    hired to
           oversee  this project was sending     duplicate    billings
           to the bank and the union for the same items°            The
           double  billings   were discovered   through   entering
           all payments   made by both sources     into the computer
           along with the purpose     of the payments°

     --    In a case in which it was suspected            that Labor
           Standards    Office    (LSO) interviews     had not taken
           place and that the information          was being
           fabricated,     information    from those interviews      was
           extracted    and entered    into the microcomputer       by OLR
           agents°     The computer    listing   from this file was
           introduced    at the trial to point out
           inconsistencies      in the defendant's      testimony.
           During   this trial,     the prosecutor     was able to
           quickly   refer to the printout       and prove that the
           defendant    had conducted     improper    interviews   and to
           pinpoint    inconsistencies     rapidly    and accurately.

     --    In a case in which      a real estate   developer
           allegedly   was not making     required  contributions   to
           the various    union health    and welfare   funds,
           information    extracted   from cancelled    checks was
           entered   into the microcomputer°       After sorting   the


                                  -80-
           information    obtained   by the different trade funds,
           a determination     was made as to whether  correct
           payments   actually    had been paid.

     --    In a case involving      falsification    of certification
           documents   for aliens,     investigators   entered
           information    into the computer,      and it was analyzed
           in several    different   ways, that revealed      that a
           number   of "employers"     had the same address     and the
           same phone number,      giving   our investigators
           numerous   leads to pursue.

     --    In another    case, extensive    automobile    tag
           information    was collected   and entered     into the
           micro.    This information    was used to establish
           those cars that were present        at certain   locations
           at a particular    time.

     --    In a case in which      a contractor   was suspected    of
           overbilling    the Government    for services    and also
           short-changing     contributions    to the unions'    benefit
           funds and bribing      union officials    to cover for him,
           contractor    invoices   were used to develop     a database
           on the microcomputer.        The UoS. Attorney    was
           thereby   provided   much useful information.


PRESIDENT'S    COUNCIL   ON   INTEGRITY   AND   EFFICIENCY   (PCIE)

The Inspector     General   continued    to provide   leadership   to the
PCIE as co-chairman       of the Long-Term     Computer   Matching
Project.     ORMLA has furnished      continuing    support   to the
Inspector    General   who has served as a member        of the PCIE
Committee    on Productivity/Performance        and the Single Audit
Coordinating     Committee.

In 1984, the first comprehensive          "Inventory   of Federal
Computer   Applications    to Detect/Prevent      Fraud,   Waste, and
Mismanagement"    was issued.      This publication      contained
synopses   of 200 program     agency   computer   applications
performed   by various    Inspectors    General.     The Long-Term
Computer   Matching   Project    subsequently    issued a supplement
to the Inventory,     in July 1984, which       contained    additional
computer   applications.

The Long-Term   Computer   Matching   Project  has assigned   the
DOL-OIG  with the responsibility      for overseeing   publication
of the Computer   Matching   Newsletter    for Fiscal Year 1986.




                                   -81-
                    OFFICE   OF LABOR     RACKETEERING


Protection    of the law provides       the labor movement     with a
vital  service   that readily     promotes    the welfare   of wage
earners,   improves   their working      conditions,    and advances
their opportunities      for profitable      employment.    The Office
of Labor Racketeering       (OLR) provides      such protection    by
investigating    significant     racketeering     activity  within    the
areas of employee     benefit    plans,   labor-management     relations,
and internal    union affairs°

OLR has taken several       actions   to enhance   the ability    of its
staff to produce     the most effective      detection   and
investigation    of depredations      by organized   criminals    and
racketeers    in the labor-management       field°   To begin,     it has
consolidated    its limited     resources   in geographical     areas
where   its work will have the most impact°          This has resulted
in the closing     of units in Orlando      and Tampa,   San Juan,
Syracuse,    and Las Vegas,    while   increasing   OLR presence     in
Boston,   metropolitan    New York, New Jersey,      and the Kansas
City-St.   Louis area.       OLR will continuously      monitor   and
evaluate   organized    crime involvement     nationwide    to determine
additional    relocation    of resources.

Using computer   technology,   OLR is developing   a model
statistical  diagnostic    tool that will identify   benefit         plans
and unions vulnerable     to criminal  abuse°

To maximize    the Federal     Government's     commitment    to
combatting    organized    crime in the labor-management          area, OLR
is developing     formal   working    agreements    concerning
jurisdiction     and working     relations   with other agencies       both
in and out of the Department          of Labor.     The anticipated
working   agreements     should   improve   the effectiveness      of
enforcement    in areas where      investigative     jurisdiction     is
shared among agencies.

OLR recently    obtained    excepted  civil service  hiring
authority°     Obtaining    this authority   allows OLR to recruit
and retain special      agents possessing    the work experience    and
academic   background    necessary   to investigate   sophisticated
labor   racketeering    schemes.

During  this reporting   period,  OLR's accomplishments    included
28 convictions   and 28 indictments.     Employee  benefit  plans
were found to have been defrauded      of over $6°5 million
through  various  schemes.

Significant   activities     resulting   from OLR investigations
follow   under the three     major  areas of investigative    concern.


                                   -83-
BENEFIT   PLANS

Teamsters   Local 701
Newark;   New Jersey

Three   former New Jersey      State officials    were indicted      on
September    19 in Newark    in a multi-million      dollar    fraud
against   the Teamsters     Local 701 Pension     Fund.     David
Friedland,     a former  State Senator,     Joseph J. Higgins,       a
former   State Assemblyman,      and Kenneth    Zauber,   a former
Assistant    U.S. Attorney     and former Bureau     Chief in the State
Attorney    General's   Office,    were charged   with mail fraud,
wire fraud,     and submitting     false statements     required    by the
Employee    Retirement   Income Security     Act.

The investigation       centered   around   approximately    $23 million
from the local's      pension    fund that was placed with the Omni
Funding   Group,    Inc., of Ft. Lauderdale,        Florida,  and
subsequently     granted    by Omni in 21 loans and mortgages.
Friedland    is allegedly      an undisclosed    partner   in Omni, which
is headed    by Higgins     who is the president      and sole
shareholder.      Zauber was counsel      to the fund during the
period   covered    by the indictment.

The indictment      charges   that between     approximately      June 1982
and September     1985, the three defendants          engaged    in a series
of schemes    to defraud     local 701's pension       fund.     Some of the
alleged   schemes    included    granting   loans to Higgins       and Omni
and concealing     them from the pension        fund trustees,       granting
loans that were barred        by the agreements      with the fund, and
using reserve     money    to make loans    in default     appear
current°     As a result     of these alleged      frauds,    the Teamsters
Local 701 Pension       Fund has to date lost approximately             $5
million.     This is the largest       fraud detected      against    a New
Jersey   benefit   plan.

Higgins   was also named on September        19 in a related      9-count
indictment    of perjury    in Miami.     He allegedly    provided
perjurious    testimony    during the bankruptcy      proceedings     in
U.S. District     Court   in Miami in November     and December     1984.
The testimony     primarily    concerned   the financial     operations
of Omni.     One count relates      to an alleged   robbery    at
Higgins'    residence   in October    1984 when approximately        $i
million   in U.S. currency      and gold was reported      taken°     He
was arrested     by OLR and FBI agents.       Bail was set at $i
million.

The 15-month      fraud investigation,   which continues,  was
initiated  by     the Newark  OLR and later   joined by the FBIo


                                    -84-
The investigation      of perjury    was   conducted   jointly   by   the
Miami OLR and the      FBIo

Friedland   was convicted     in 1980 of having received       a
kickback   relating    to the same Local 701 Pension       Fund while
he served as its counsel.         He was sentenced     to 7 years
imprisonment,    but based on an agreement       with the government
to cooperate    in Hudson    County corruption     investigations,    he
had not begun serving      his sentence.      On September    2, while
scuba diving off Grand Bahama         Island,  he was reported
missing.    OLR and the FBI are investigating         his
disappearance.      U.S.v.    F riedland   et alo (N.J.); UoS. v.
Higg_ns   (S.D. Flao )


Team stel8   Local   436
Cleveland.    Ohio

Five additional     persons  have been indicted   in the continuing
investigation    by the Cleveland   OLR into bribery    and illegal
payments   to union and benefit    fund employees    and officials
of Teamsters    Local 436 and its related pension      and welfare
funds.    Two of the five entered     guilty pleas during this
reporting   period.     To date, 12 defendants   have been charged
in this investigation.

The eighth to be charged        in this investigation         was Donald
Henry Haueter,      owner of Russell     Haueter    Excavating,      Inc., in
Chardon,   Ohio.     A May 30 indictment       charges    that, from March
1981 through     June 17, 1981, Haueter        allegedly     paid
approximately     $3,500 to Angelo      T. Regalo to allow him to
underpay    contributions    due to the local's welfare           and
pension   funds.     A former business      agent of local 436 and
trustee   of the local's     benefit    plans,    Regalo    is named as an
unindicted    co-conspirator     in this indictment.          He had
previously    pled guilty    in a September      1983 indictment       that
charged   him with soliciting       and receiving      $7,000 to
influence    his conduct    concerning     the funds.      Hauter    is also
charged   with knowingly     making    false statements       to the
benefit   funds,    also a violation     of federal      law.

On August   i, two former Teamsters      Local 436 officials     and
their wives were charged        in two separate   indictments.
Charges   of conspiracy,     false statements,   and embezzlement
from an employee     benefit    plan were included    in a 10-count
sealed indictment     filed in U.S. District     Court against    Paul
A. Morabith   and Frances     M. Morabith,   and in a 3-count
indictment   against   James M. Bartkus     and Mary Lou Bartkus.
The Morabiths,    who were also charged      with mail fraud, pled
guilty to four counts of their indictment          on September   26.



                                    -85-
Morabith    was a trustee   and recording        secretary  of the
union's    Executive  Board; Bart-kus, an        office manager.

Both couples    allegedly     submitted    medical    claims to local
436's welfare     and benefit     fund for medical       costs that had
been paid previously        by a medical     insurance    carrier.      The
indictments    allege    that the Morabiths       embezzled     $26,460    from
the welfare    fund through      the false medical       claims   they
submitted    in 1984, and the Bartkus'          embezzled    $3,463 through
a false medical      claim in 1980o       The indictment      further
charges   that in each couple        t.he spouses    conspired    with each
other   in the submission      of these false claims,         and that the
submission    of false claims caused         the welfare     fund to report
to the U. So Department       of Labor an inaccurate         account    of the
fund's   financial    standing°

The UoSo Postal     Inspection  Service   and financial
investigators    from Blue Cross/Blue     Shield   of Northern  Ohio
joined with OLR in the investigation        that resulted    in the
latter   indictments°     UoS. v._Haute_,   U. Sov.   Morabith  and
Morabith,    U_So v. Bartkus   a_d__artkus    (NOD. Ohio)


Sheetmetal   Workers     Local   13
Newark,   New Jersey

Ralph Torraco_      sentenced    in 1983 to 1 year in prison and            1
year's   probation,     has been found by the U.S. District            Court
in Newark    to have violated       debarment    provisions     of ERISA,
and was sentenced       on July 23 to a 1-year         suspended
sentence.     He was automatically        barred    for 5 years following
his conviction      from serving     as a fiduciary      consultant    or
counsel   to any employee       benefit   plan covered      by ERISAo     The
Newark   OLR found that following         his conviction,       and while on
probation,    Torraco    served as the accountant          to the
Sheetmetal    Workers    Local 13 benefit       funds.    He had been the
accountant    for the benefit       funds of Teamsters       Local 560
controlled    by Salvatore      Provenzano,    brother    of Anthony    "Tony
Pro" Provenzano      and Nunzio     Provenzano,    when he pled in 1982
to a 1-count     information     charging   him with willful       violation
of the reporting       requirements     of ERISA and to one count of
income   tax evasion°       U_S. _. Torrac__, (N.J.)


Bakery  Local 348
Boston,  Massachusetts

Four defendants    in the case involving    the Bakery,
ConfectioneryF    and Tobacco  Workers Union    (BCTWU) Local           348
in Boston   pled guilty   on September 9o    Thomas   Hantakas,
president   of the local, and Anthony    Stancato,    a former          local


                                      -86-
officer,    pled to two of five counts       charging    them with
making   false statements     to an employee     benefit    plan and
violating    the Taft-Hartley    Act by receiving      illegal    payments
from an employer.      Matthew   O'Toole   and John Orr, both
members   of the local's    Executive    Board, pled guilty       to all
counts of their indictment:        O'Toole    to six counts      and Orr
to four of mail fraud, aiding and abetting,            conspiracy,     and
making   false statements     to an employee     benefit    plan.

The defendants     were indicted      in January    following    a 3-year
investigation     by the Boston      OLR that found that the
defendants    had embezzled      health   plan funds by filing
fraudulent    and forged     claims   and had embezzled      pension   funds
by conspiring     with the Stop and Shop Companies,           Inc., and
its bakery general       manager,    William   Tully,   to have an
illegal   pension    awarded    to Stancato.      Stop and Shop and
Tully pled guilty       in February.      U.S.v.    Hantakas;    O'Tooleo
Orr. Stancato,      (Mass.)


Office   Prpfessional     Employees     I        'o a     o al   227
Miami;   Florida

Norman Warren     Hochdorf    was indicted    on September      3 in Miami
on three counts of embezzling         from an employee        benefit
plan.    Hochdorf    is president    of Executive      Insurance
Advisors,    Inc.,    (EIA), the plan administrator         of the
Consolidated     Labor Union Trust, which is a health benefit
fund affiliated      with the Office     Professional      Employees
International     Union Local 227 in Miami.          Hochdorf     allegedly
embezzled    about $28,000     by transferring      trust funds to the
EIA administrative       account  and subsequently        issuing   checks
to himself.      The Miami OLR conducted        this investigation       with
assistance    from the FBI.      U.S.v.     Hochdorf,     (SOD. Fla.)


Teamsters   Local _01
Wil kes-Ba_le,   Pennsylvania

On September    10, Elias L. Namey,       chairman   of the board of
the Teamsters    Local 401 Health and Welfare         Fund in
Wilkes-Barre    was found guilty on one count of racketeering
and two counts of soliciting        and receiving     kickbacks.
Namey, who retired     from his position       as vice president     and
business   representative    of local 401 in 1982, unlawfully
solicited    and received   $50,000    from the administrator      of
local 401's health     and welfare     fund.    This was a joint
investigation    by the Philadelphia       OLR and the FBI.      U.S. v_
]_      (M.D. Pa.)




                                      -87-
LABOR-MANAG   EMENT   RELATIONS

Painters   Unig/l_b_ocal i_
Bethl ehe_j pennsylvania

A 35-year   prison    sentence   was ordered    on April 29 for Robert
Po Delker,   convicted     on March 7 of racketeering        to control
Local  1269 of the International         Brotherhood     of Painters  and
Allied  Trades   in Bethlehem,      Pennsylvania,     and to control    the
union painting     work in the Lehigh Valley.          He must also make
restitution    of $26,497    to the various      injured   parties°   As a
condition   of probation,      he must cooperate      with the IRS to
settle his taxes.

In the last semiannual     report, we reported     that Delker, the
local's  business   representative,     and five co-defendants  were
charged with committing      52 specific   racketeering  acts, using
force, violence,    threats,   vandalism,   and physical   and
economic  intimidation.

Richard   Malgadey,   who was the local's  president   until his
conviction    in March, was sentenced   to 10 years  in prison   and
ordered   to make restitution    of $40_ to one of the injured
parties°     Donald J. Parker was sentenced    to 3 years in
prison,   5 years'   probation and ordered  to cooperate    with the
IRS to settle his taxes.

On April 8, Franklin       Delker,    who had pled guilty       to one
count of RICO conspiracy         and testified     against   his brother
Robert, was sentenced       to 3 years in prison.          Russell  J. and
John Ro Antalosky      had each pled guilty        in March to one count
of conspiracy     to violate     the Hobbs Act.      They were each
sentenced    to a 5-year     suspended    sentence    and placed   on 5
years'  probation     and ordered     to make restitution       of $1,495
to various    local 1269 benefit       funds°    This was a joint
Philadelphia     OLR-FBI-IRS     investigation°       U.S. Yo Delker et
al. (EoDo Pao)


Deran Marketing   Corporatio_
Newark._New  Jersey

Salvatore   Profaci,   Joseph   F. Derrico,  and Gus Spatafora      were
convicted   on July 19 by a petit jury in Camden        of three
counts   of mail fraud.     James To Gow was convicted      of one
count of mail fraud.       All were acquitted    of racketeering
charges.    The defendants     had been indicted   in August    1984 on
13 counts   of mail fraud and racketeering       regarding    the A&P
supermarket    chain's  disposal    of waste corrugated    cardboard.
Following   a joint investigation      by the Newark OLR, the FBI,
and IRS, the indictment       charged  that during his employment


                                   -88-
as a senior vice president        of A&P between      1977 and 1983, Gow
caused A&P to enter into an exclusive           contract    with a
brokerage    company,   Deran Marketing     Corporation      in Newark,
New Jersey,     controlled    by Profaci   through    Derrico   and
Spatafora.      In return, Gow allegedly       received    approximately
$100,000    in bribe payments     disguised    as consulting     fees.
Gow was responsible       for the chain's     cardboard    waste disposal
program   in the U.S. and Canada.         Through   this exclusive
contract,    the defendants     then caused A&P to enter into
contracts    with five other corporations         controlled    by them.
They were alleged      to have thus defrauded       A&P through     a
variety   of schemes,     including   receiving    inflated    commissions
and kickbacks     on equipment    purchases.      Over a period of
years,   A&P paid the various       companies   approximately      $3.5
million.     U.S.v.    Profaci   et al. (D. N. J.)


International     Brotherhood     of_lity        Services
Baton Rouge,     Louis_D_

On September    13, Robert H. Blanton,         III, former president        of
the International      Brotherhood     of Security     Services     (IBOSS)
in Baton Rouge,     Louisiana;    Jerome    Banks,   director     of IBOSS
Internal   Secret Service;      and Clyde Daigle,        investigator     and
bodyguard,    IBOSS Internal     Secret   Service,     were sentenced
following   their July 26 conviction         of one count each of
conspiracy   and extortion.       A March indictment         had
charged        that they had solicited         payment    from officials
of a security     guard company     working    at the Atlanta      Airport
in return for favorable       testimony     before a National        Labor
Relations   Board hearing,      documentary     evidence     against   the
union, and the guarantee        of labor peace.        They were
acquitted   on a count of extorting         and receiving      a payoff to
a labor official.

Blanton   was sentenced   to 10 years   in prison to be followed
by 5 years' probation.       Banks and Daigle each received     a
2-year  prison  sentence.     The Atlanta   OLR was joined  in this
investigation   by the FBI and officers       from state and local
law enforcement    agencies.     U.S.v.   Blanton  et al° (N.D. Ga.)


International    Longshoremen's      AssociatioD     Local   1315
Kenosha,   WiSConsin

On August   13, Ralph Thomas,     ILA Local      1315 president    and
pension   fund trustee,   pled guilty    to     a May 22 indictment
charging   that he accepted    the use of       the employer's    payroll
deduction   system  to collect    personal      loans from union
members   employed  by Morelli    Overseas      Export.    He was
sentenced   on September   18 to 2 years'        probation,   fined


                                    -89-
$1,500,   and barred    from union office    for 13 years.       He was
also instructed    that     any intimidation    or harassment     of
witnesses   would  be dealt with severely     by the court.

The owner of the company,   Mario Morelli,  had been charged
with allowing   Thomas the use of his company's  payroll
deductions  system to collect   the loans°  In a non-jury
trial, he was acquitted   by the judge.

The 2-count    indictment  follows   a year-long   investigation      by
OLR agents    in Milwaukee   and is part of a national
investigation    of waterfront   corruption.     U.S. vL Thomas,
(E.D. Wiso)

INTERNAL     UNION    AFFAIRS

Roofers    Local 33
Boston.    Massachusetts

Harold   "Happy" Lynch was sentenced      in Boston    on July 16 to
serve 6 months    of a 1 year prison    sentence    and 2 years'
probation.     He was convicted   on June 4 on two counts of
violating    the provision   of the Labor-Management      Reporting
and Disclosure    Act that makes it unlawful      to use force to
interfere   with a union member's     right of speech     and
assembly°     He had physically   assaulted   and broken     the nose
of a union member     and threatened   to assault    another    during a
local 33 executive     board meeting°

In January   1983,    the local's   business   manager,   Paul Gibson,
was convicted     and sentenced    to a 1-year prison     term for
extorting   payoffs    from contractors°      Lynch maintained
control   of the local in Gibson's       absence.    A dissident
element   had been trying      to gain control    of the local.     The
two leaders    of the group lost their jobs and were ignored            by
Lynch when work was available.          They were forced     to find
non-union   work.     Lynch and the two victims      filed charges    and
countercharges,     which were heard at the September         Executive
Board meeting    where    the threats   and physical    assault
occurred.    The Boston     OLR participated    in this investigation
with the FBI.      U_S_ v, Lynch     (D. Mass°)


Teamsters     Local    507   and   Bakery   Local   19
Cleveland.     Ohio

In prior semiannual    reportsF  OLR has discussed   the
convictions   of Allen Friedman   and Jack Nardi, Jr., following
an investigation    by the Cleveland   OLRo  Both had been
indicted   by grand juries   and convicted  of embezzling  union


                                       -90-
funds by accepting       money    for work they had not performed.
Friedman   was sentenced       to a jail term and Nardi was awaiting
sentence°      Various   grand juries      continued    their
investigation      of other individuals        associated    with locals
507 and 19o      No further     indictments     have been rendered       to
date.    However,    as a result of new evidence           that came to the
attention    of the Department        of Justice    and was raised in
hearings    in UoS. District       Court   in the Northern      District    of
Ohio, Friedman      was granted     a new trial.      A subsequent     motion
by the government       to dismiss     the case with prejudice        was
granted   by the court°        Nardi recently      requested    he be
allowed   to change     his prior guilty plea.          The court has now
granted   a motion     to dismiss     his case°     No future
prosecutions      of either of these individuals          will be
undertaken-based       on their ghost employment.           U. Sn v.
Friedman,     (N.D. Ohio), U.S_ v° Nardi,          (NOD. Ohio)


MISCELLANEOUS     SIGNIFICANT     CASES

City Labo_ StaDdards   Office
Philadelphia.  Pennsylvania

In the last semiannual      report, we mentioned       the December
indictments     of three current   and former     inspectors     in the
Philadelphia     Labor Standards   Office    following    an
investigation     by the Philadelphia     OLR.    On April 16, Joseph
Crosley,    supervisor   of the Labor Standards       Office,   was found
not guilty on 14 counts of an indictment           charging    him with
falsely   reporting    time spent on federally-funded         projects.
The jury was deadlocked      on nine other counts°         He is
expected    to be retried   on those counts.

The other defendants,    both former   inspectors   with the
office,   have been sentenced.    Thomas Barnum    was sentenced    on
July 31 to 5 years'    probation  as a result of his guilty plea
on June 17 to one count of false claims against         the Federal
Government°    Charles  Conwell  was sentenced    August 1 to 1
year and 1 day in prison     as a result of being found guilty
on May 31 of one count of false claims       against   the Federal
Government.    U_S. v_ Crosley,   U.S° v. Barnum     and Conwell
 (EoD. Pao)


Seafarers   International     Un_on
Philadelphia,    pennsylvania

John Goodwin,     a member of Roofers   Local 30 indicted   in
November   1984 in Philadelphia    for his   role in a drug
conspiracy,    was sentenced   June 28 to 18 months   in jail, 2
years t special    parole,  and 5 years _ probation.   In the last


                                    -91-
semiannual     report,   we mentioned      his guilty plea to four
counts of distribution         of methamphetamine       and conspiracy.
This case was part of a continuing             joint investigation      by
the Philadelphia       OLR, the Customs       Service,   the Drug
Enforcement     Administration,      and the FBI that centered        on the
Seafarers    International      Union Hall in Philadelphia°          Two
others,   including     Joseph   Walsh,    an organizer     for the
Seafarers    Union,    and Lorraine     Weierbach,     part owner of the
Easy Street     Pub, had also previously          pled guilty   to
conspiracy    charges    and were sentenced        in March.    U. Sn v.
Goodwin    (E.D. Pa.)




                                   -92-
                         COMPLAINT        HANDLING       ACTIVITIES



The Office      of Inspector      General    is the focal       point    for
receiving     and tracking      reports     of alleged      fraud,    waste,    or
irregularities        in Department      of Labor     programs.
During    this   reporting     period    the OIG     received    1379
complaints      nationwide     from   the general      public,     departmental
employees,      Congress    and other     agencies.       These    complaints
were   made   directly     to the OIG National         Office,     OIG Regional
Offices,     and the OIG     Complaint      Analysis     Office.      Following
is a breakdown       of the various       sources     of complaints       we
received:

            TOTAL     ALLEGATIONS          REPORTED:                    1379

                             ALLEGATIONS           BY   SOURCE:



     Walk   -    in                                                        29
     DOL/IG      Hotline                                                  119
     Telephone    calls                                                   102
     Letters   from   Congressmen                                            6
     Letters   from   Individuals             or
        Organizations                                                     489
     Letters    from   non-DOL   agencies                                 183
     Letters    DOL Agencies                                               75
     Incident    Reports    from  DOL Agencies                            233
     Reported    by agents/auditors                                       121
     Referrals     from GAO                                                22

     BREAKDOWN      OF     ALLEGATIONS        REPORTS:

     Referred   to Audit/Investigations                                  679
     Referred   to program    management                                 108
     Referred   to other   agencies                                       43
     No further   action                                                 196
     Pending      Disposition        at    end     of   period            353




                                           -93-
The OIG Complaint     Analysis    Office    serves as a resource      for
employees    and the general     public to report suspected
incidents    of fraud, waste,     and abuse in Department        of Labor
programs   and operations.       The Inspector     General   Act of 1978
provides   that employees     and others may report such incidents
with the assurance      of anonymity     and protection     from
reprisal.     The OIG Complaint      Analysis    Office  staff received,
analyzed,    and processed    over 205 complaint(s)        from all
sources   during   the period.     Over 458 calls were received         on
the "DOL/IG    Hotline"   phone;   however,     of that number,    only
119 were actual     allegations,     and the remainder      informational
type calls.

The following   are examples    of allegations  handled   by       the   OIG
Complaint  Analysis   Office   that led to improvement    of
government  management    during this reporting   period:

     --    The OIG Special      Investigations    office   responded     to
           allegations    received    by the "IG Hotline"      that a
           former   Defense   Department    employee   was receiving
           Federal   employment     compensation   benefits    as a
           result of a staged       and faked accident.       As a result
           of the contrived      accident   and resulting     claimed
           disability,    the former DOD employee        received
           benefits     in excess    of $295,800   and caused the
           Office   of Workers'     Compensation   to make medical
           payments    in excess of $1,700.       A thorough
           investigation     resulted    in an indictment     being
           returned   charging    the employee    with 62 counts      of
           false claims,     false statements     and mail fraud°

    --     A Hotline    caller alleged    that an Labor Management
           Services   Administration     employee   was operating     a
           full-time   business   without    disclosing   his financial
           interest   in that business.       The caller    indicated
           that the individual      was doing personal     business     on
           government    time and, in his official       capacity,    was
           advising   other DOL officials      concerning    the
           purchase   and upgrade    of computer    equipment    from his
           firm--    a conflict    of interest.     The information
           was referred     to OIG Special    Investigations     Office.
           After extensive     investigation,     the individual
           entered   a guilty plea to violations        of 18 USC 209
           (dual compensation).

    --     The Complaint     Analysis    Office   received    allegations
           that an individual       'was receiving   unemployment
           compensation    while gainfully      employed.      An
           investigation     by the OIG Special       Investigations
           Office   revealed    that the individual       had
           fraudulently    received     over $800 in unemployment


                                  -94-
     compensations     while employed.     Subsequently, the
     matter  was referred     to the State of Maryland   who
     disqualified     the individual   from receiving
     unemployment    benefits   for 1 year based on this
     fraudulent    overpayment.

--   A Hotline    caller    reported   that an individual    was
     working   two jobs and, after being laid off from
     one, collected      unemployment     compensation.   As a
     result of an investigation         conducted    by the OIG
     Special   Investigations      Office,    the individual   was
     charged   for fraudulently       receiving   over $5,000 in
     unemployment     compensation.




                           -95-
       Complaint                        Handling             Activities
                                        NATIONWIDE

                                                                          ]'_ WALK-IN

                                          j--6(OX)                   _       IG HOTLINE
  489 (,36_)--_                                 F-102(7X)                   TELEPHONE


                                                     ,-_-_ 19(9_)    _]      CONGRESS


                                                     "--29(2X)       _       LETTERS
                                                       _22(2X)               NON-DOL AGY


                       I       t   _i                        (9T,)   _       DOL AGENCIES
                       t_•'         i


174,
                       /:' ;
                           -        i
                                                                             INCIDENT RPTS

                        _/iJ                                                AGT/AUDITOR


                                                                     _-]    GAO HOTUNE

 Allegations      Revieved From All Sources




                                         -96-
         Complaint            Handling            Activities
                Aprll 1, 1985 -       September   30, 1985

                                                      _   AUDIT/INVESTIGATION

                       r--679(49_,)                   _   PROGRAM_ANAGEM_T




                                                      /_] NorU_rHER
                                                                  ACT_O_
                                                          PENDING DISPOSITION
+08(8=)--



     196(14_,                           5(26_)




    Drsposifion - Referral Action




                               -97-
                          MONEY OWED TO THE
                         DEPARTMENT OF LABOR


In accordance    with a request    in the Senate Committee      on
Appropriations'     report on the Supplemental     Appropriation    and
Rescission   Bill of 1980, the chart on the following         page
shows unaudited     estimates  provided   by departmental    Agencies
on the amounts    of money owed, overdue,     and written    off, or
under appeal    as uncollectible    during the 6-month    reporting
period.




                                 -99-
                             SUMMARY     OF ESTIMATED  DEPARTMENT     OF
                                          LABOR RECEIVABLES
                                       (Dollars in thousands)


                                Outstanding      Del in-   Adjustments   &    Under
Program                         Receivables     quencles    Wrlte-of fs       Appeal
Name                              9/30/85 i/    9/30/85 2/    9/30/85   3/   9/30/85       4/


Employment     Standards
Adm ini st ratl on
Federal    Employees'
Compensation     Act
- beneficiary/provlder
   overpayments                      $ 23,996    $    8,616    $     3,000   $     9,622
Black Lung Program
- responsible      mine
  operator     reimbursement;
  be nef ici ary/pr ov ide r
  overpayments
                                     176,788         52,989          (851)       123,799

Employment     & Training
Administration
- disallowed     costs;
   outstanding    cash
   balances;    grantee
   overpayments                      290,771      289,986           12,100       231,989

Mine Safety      & Health
Adm inl st r ati on
- mine operator      civil
   penalties                            8,984         8,984          1,300         -0-

Pension Benefit
Guaranty   Corporation
- plan assets    subject
   to transfer;   employer
  liability;    accrued
  premium   income                     55,421        10,581         83,061         -0-

All   Other    Agencies                 6.811         6,806          1.509         3.837

 Totals   _/                     _                                               $36_._2_/



See   following    page   for   footnotes.




                                                -i00-
i/   Includes    amounts  identified  as contingent    receivables
     that are    subject  to an appeals  process   that can
     eliminate    or reduce the amounts   identified.

2/   Any amount more than       30 days overdue  is delinquent.
     Includes  items under      appeal  and not in collection   mode.

3/   Includes   write-offs   of uncollectible     receivables   and
     adjustments    of contingent    receivables   as a result of the
     appeals   process   and reclassification     of disallowed   costs
     based on documentation      submitted   after audit resolution.

4/   Currently    under   appeal   to an Administrative   Law   Judge.

5/   Agencies   of the Department    estimate    that actual
     recoveries   of accounts   receivable    for the period     are     $99
     mil I ion.




                               -I01-
APPENDIX




 -103-
                                         SELECTED      STATISTICS


Audit    Activities

    --         Reports   issued on DOL activities                  ...........                       346
    --         Audit exceptions     ..............                                      $75.8   million
    --         Reports   issued for other Federal                 agencies          ......              8
    --         Dollars   resolved   ..............                                      $68.9   million
                     Allowed   ................                                       $ 39.9    million
                     Disallowed     ..............                                    $ 29.0    million


Fraud    and    Integrity       Activities

    --         Allegations    reported      ...............                       1,379
    --         Cases opened     ....................                                 781
    --         Cases closed    ....................                                  431
    --         Cases referred     for prosecution     ...........                    280
    --         Individuals    or entities    indicted    ..........                  386
    --         Individuals    or entities    convicted     .........                 289
    --         Cases referred     for administrative      action   ......             69
    --         Fines,   penalties,    restitutions    and settlements     . $3,644,280
    --         Recoveries    ...................                            $1,007,506
    --         Cost eff iciencies      ...............                      $    14,924


Labor    Racketeering         Investigation         Activities

    --         Cases opened        ....................                                               38
    --         Cases closed        ....................                                               31
    --         Cases referred           for prosecution            ...........                        19
    --         Individuals        indicted            ................                                28
    --         Individuals        convicted             ...............                               28
    --         Fines        ...................                                            $     11,500
    --         Restitutions        ..................                                      $1,200.000
    --         Investigative         monetary           findings      ........             $6,560,265
                        Benefit    plan related             frauds   ........              $6,481,765
                        Benefit    plan related             kickbacks      ......          $     50,500
                        Union embezzlements                ............                    $     28,000




                                               -105-
                 _3MMARY OF AUDIT ACTIVITY OF DOL PRGGRAMS
                    April i, 1985 to Septenber 30, 1985


                                                                Amount
                                               Amount of      Recommended
Agency              Reports Grant/Contract     Questioned        for
                    Issued Amount Audited        Costs        Disallowanoe


Employment and
  Training
  Administration      257    $5,027,3.51,433    $42,981,984    $24,880,818

Bureau of Labor
  Statistics           ii        1,9"71,282          -               -

_pl oyment
  Standards
  Admini stration       6      853,7"76,653          -               -

Mine Safety and
  Health
  Administration       12        4,047,233          244,423          8,655

Occupational
  Safety and
  Health
  Administration       24       23,789,896          205,425        191,389

Office of the
  Assistant
  Secretary for
  Administration
  and Management       33       76,668,511        6,601,081        666,636

Solicitor's
  Office                1            -               -               -

Veteran's
  _nplqnnent
  and Training
  Services              2          528,420           -               -

Totals                346   $5,988,133,428      $50,032,917    925,747,498




                                 -106-
                   gJMM_RY    OF AUDIT    ACTIVITY     OF ETA PROGRAMS
                        April i, 1985 to Septenber            30, 1985


                                                                              Amount
                                                             Amount   of    Reoommended
Program                 Reports   Grant/Contract         Questioned             for
                        Issued    Amount Audited           Costs            Di sall_ance



Agency
  Adainistration              3   $       28,557,872     $        -          $       -

CETA Grantees              128         1,789,823,517          30,697,539         3,704,334

Job Training
  Partnership    Act:

 JTPA Grantees                4           97,857,222              ii ,458            -

 Native Americans            31           39,281,536             427,160           308,919

 Migrants                    17           17,083,809             508,545           143,801

 Job Corps                   ii           59,793,841           1,170,173         2,400,558

 Older Workers               18           95,064,961                  245            -

 Strategic
   Planning and
   Pol icy
   Devel o_ment              25           84,282,928           1,573,093           936,736

State Employment
  Security
  Agencies                   20       2.815.605,747            8,593,771      17.386.470

  Totals                   257        $5.027.351.433         $42.981.984     $24.880.818




                                         -107-
          SUMMARY   OF AUDITS    PERFORMED    UNDER    _HE SINGLE _JDIT      ACT
                      April i, 1985    to September       30, 1985


                                                                            Amount
                                                        Amount       of   Recon_nended
Agency                Reports    Grant/C_ntr act        Questioned           for
                      Issued     Amount Audited           Costs           Disallowance



_npl oyment and
  Training
  Adninistr ation          72      $1,40!),099,962        $2,565,685        $1,740,455

Bureau of Labor
  Statistics                5           1,157,688                -                 -

Empl oyment
  Standards
  Administration          ....

Mine Safety and
  Health
  Administration            1                367,933             -                 -

Occupational
  Safety and
  Heal th
  Adaini stration           5          10,708,384                -                 -

Office of the
  Assistant
  Secretary for
  Administration
  and Management          ....

Sol ici tor 's
  Office                  ....

Veter an' s
  Employment
  and Training
  Services                  1                428,6_3             -                 -

Total                      84      $1,421,726,590         $2,565,685       $1,740,455




                                     -I08-
-109-
                                STATUS   OP AUDIT RESQLUTION  ACTIONS  ON BBGINNING
                                            BALANCE OF UNRES(X_VED AUDITS


                                                                                                            September    30, 1985
                                          April i, 1985                         Resolved                 Balance   Unresolved
                                         Balance UnresoIV_d                    (Decreases)                 Oqer 6 Months      i/
        AgencylProgr       am            Reports   Dollars                 Reports     Dollars           Reports      Dollars


 Employment   and       Training
   Administration

     Agency     Admi_   st r atlon             1   $           33,535          -      $         -             1   $          33,535

     CETA    Grantees                     51           37,890,459           40            35,913,887         10        1,976,572

     Job Training
      Partnership       Act :

       JTPA    Grantees                        -                -              ....

       Native     Americans               II                  316,0:24     ii                 316,024        -               -

       Migrants                                5              667,010          5             667,010         -               -

       Job    Corps                            6        4,770,156              5           4,195,733         1           574,423

       Older     Workers                   ......

     Strategic     Planning   &
       Policy     Development             13            1,732,771          11              1,616,093         2           116,678

     State Employment
       Security  Agencies                 23           11,192,891          22             11,!92,327         1                    564

Bureau       of Labor      Statistics      1                    -           I                   -        -

Employment   Standards
  Administration                           5                    -           5                  -             -               -

Mine Safety   a Health
  Admlnist[at/on                           5            1,346,735           5              1,346,735         -               -

Occupational   Safety  a
  Ueal th Administration                   2                   -            2                  -             -               -

Office  of the Asst Secy
   for Admln and Mgmt                     23           13,688,371          19             13,258,019         5           430,352

Veterans'        Employment     and
   Training       Services                 ......

     Total                               146       $ 71_37.952           126       $ 68.505r828          20--     _    3.132.124

i/     The 20 unresolved         audit   reports       were    precluded        from       resolution.       Details   are       on the
       following  page.




                                                               -ii0-
                               ONRESCLVED AUDITS _    6 N3N_S
                                  PRK_ED    FROM RESC5_



                       Audit                                             No of   COst
Agency    Program Report   Number    Na_e cf Audit/Auditee               Rec,,   EzEeptions


_r       Inves_gation-i/
EI_       SESA    09-2-503-03-325 GOg--_2_T OF GUAM                        1     $         564

EI_       CE_%    02-4-010-03-345 PRCVII)E_(]_,CITY OF                     1           -
ETA       (_TA    03-4-063.-.0.3-345
                                  SCU_E_N ALLBSH_NIES CC_SCRT_M            I          27,373
ETA       CE_%    04-4-029-03-345 BIRMINGHAM CSI_                          1          20,970
EI_       f_TA    04-4-153-03-345 TENNESSEE BOS                            1         441,342
EI_       fETA    05-1-152-03-345 M[X_GCRERY PR_BLE CSI_                   2         172,818
ETA       _       05-1-156-03-345 ILLINOIS BOS                             2         598,852
ETA       (_'TA   05-4-067-03-345 DETROIT, CITY OF                         3         583,793
EI_       f_'TA   09-2-705-03-345 SAN DIEGO, CITY OF                       1          40v990
EI_       CE_     09-3-068-03-345 IES ANGELES, CITY OF                     1          88,624
ETA       _       09-4-001-03-345 SANTA C_3Z CO                            1           1,810

ETA       OSPRD   05-1-301-03-350 CSRT VENTURE CDRP                        5         75,013
EI_       OSPPD   ii-2'-084"03-350 MDRGAN MGMr S_TEMS        INC           3         41,665

EI_       CEC     11-3-114-03-370 BRDNS_I(_ JOB CORPS CN_R                 7         574,423

(1%SAM    OP       11-4-014-03-741 _              (17JRTREK)R_S    INC     7         430,352


Pendlng Indirect Cost Negotlatlon:i/

C_SAM     OlD      05-3-065-07-742   D_ROIT, CITY OF                      11           -
OASAM     OCD      05-4-092-07-742   SING_ CO                              8           -
C_SAM     Ca)      05-4-227-07-742   FLCRIII%ES                            7           -
(1%SAM    OCD      05-4-!89-07-742   M_G_T      _%NG _                     5           -


Bending Contract Negotlations:3/

ETA       All,
             IN    11-5-126-03-001 CCtTIRAC_SET_L_E2_T OF ABT ASSOC        7           33,535




i/        Fifteen audit reports are precluded frun resolution pending the outumne u_
          investigati0_or lit/gat/_

2/        Four audit reports are _resolved pending the conclusion of indirect cost rate
          negot/atlons and, in accordance wlth OM8 Circular A-50, are not subject to the
          180-day time limit for resolutio_

_/        Ore audit report is unresolved pending contract negotiation and, in accordance _ith
          0MB Circular A-50, is not subject to the 180-day time limit for resolutic¢_




                                          -111-
                        SUMMARY  OF AUDIT REPORTS   ISSUED
                     DURING   THE CURRENT REPORTING   PERIOD
                     APRIL i, 1985 q_3 SEPTEMBER    30, 1985



DEPARTMENT      OF    LABOR

  Employment         and    Training     Administration

     Agency   Administration                                               3
     CETA Grantees                                                      128
     Job Training    Partnership   Act:                                 106
        JTPA Grantees                                               4
        Native Americans                                           31
       Migrants                                                    17
       Job Corps                                                   ii
        Older Workers                                              18
        Strategic   Planning   and Policy  Development             25
     State Employment     Security  Agencies                             20

  Bureau     of Labor        Statistics                                  ii

  Employment         Standards     Administration                         6

  Mine     Safety     and    Health     Administration                   12

  Occupational         Safety     and    Health   Administration         24

  Office   of Assistant  Secretary   for
     Administration   and Management                                     33

  Solicitor's         Office                                              1

  Office     of Veterans         Employment       & Training              2

  Subtotal                                                              346

OTHER    FEDERAL      AGENCIES                                            8

 Total                                                                  354




                                        -112-
                                                                                                      .
     _       - _ -._____.
                                                                                                      m
             m       m       _mm_mmmmmmmmmmmmmm                                                      -_




O_       _       '       I   I   i   I   I   ,   '   I   '   I   I   I   I   I   I   I   I   i   I


             ?       ?       ??TT_                   ????????????
             0       0       OOO000000000000000                                                      0




             0       0       O0000OO000OO000000




                                     -113-
          o
          !           _
                      o           _
                                  o _ _ o
                                        _                      _
                                                               _ __ !_                  _  o
                                                                                        _ 8_8




                      OO OO OO u'_             co oo
                                                  u'J co
                                                      u'% No_o_o_N_ocooooo
                                                                       u_ u_                            u'%




     00000_00                           C)     0       0       0   0000000000




 I    I   I   I   I   I   I   I   I        I       I       I   I    I   I   I   I   I   I   I   I   I   I




o_,ooooo_
 I   I    I   I   I   I   I   I   I
                                        o o o _ _ooooooooo
                                           I       I       I   I   I    I   I   I   I   I   I   I   I   I
000000000                              0       0       0       0   0000000000




                                      -114-
i   o   ???o?o?
        ooo?ooo    ?
                   o      _?   T_
                               oo   ?
                                    o   ?o?????
                                        _ooooo?   oo
    0   0000000    0      0    O0   0   0000000   0




                  -i15-
                                                                                                                      0



                                        o                                                _                            _o                                                      o _

sss s sss                                                                                                     s gsss




0       0       0       0       0       0       0       0   0   0    0       ¢_ 0        0   _        0       0       0       0       0       0       0       0       0       0       0




    I       I       I       I       I       l       I   I   I   l        I       I   I   I       t        I       I       I       I       I       I       I       I       I       I       I

                                                        I   I   I            _       I   I       I'       I       I       I               I       I       I       I       I       I       I


oooooooooooooooo_?__
 IIIIIIIIIIIIIIIIII                                                                                                                       IIIII
                                                                                                                                                                              oI      oI
¢¢¢¢¢¢¢_¢¢¢¢¢¢¢¢¢¢¢¢¢¢¢¢
0       0       0       0       0       0       0       0   0   0    0       C_ 0        0   _        0       0       0       0       0       0       0       0       0
                                                                                                                                                                              ¢
                                                                                                                                                                              0       0




                                                                    -116-
    ?   ???????????????                                       ?   ????            ?
    _ ;_oooo_oooooooo oooo
                 I   I    I   I   I   I   I   I   I   I   I   I   I   I   I   I




0   0
        _,lllll,,,,,I,,
        O000OOOOOO000OO
                                                              ,
                                                              0
                                                                  _,,,
                                                                  OOO0
                                                                                  ,
                                                                                  0




0   0   000000000000000                                       0   0000            0




                          -i17-
        _    _       ??????        ?????????????????
_   _   _    _       000000        00000000000000000


                      IIIfll        IIIJ/iifllJllI|ll

         i       f    IIIIll        liilliiliiillilll
        0    0       000000        00000000000000000




        0    0       000000        00000000000000000




                               -1:[8-
000000000000           0   0   000   000000




IIIIIIIIIIII           I   I   III   IIIIII




_,,,,,,,,,,,           ,   ,   ,,,   ,,,,,,




               -119-
    III           I       I       I    I      II   IIIIIIIIIIIII



_   _
    _
              o o o o o_ oo**ooooooooo,,,,,,,_,
              _       _       _        _      _    _0_             0000_




    ?'
    000
          '   &
              0
                      &
                      0
                              &
                              0
                                       &
                                       0
                                              &&
                                              O0
                                                   &&&&&&&&&&&&&
                                                   0000000000000




                                      -120-
0000           0    0    0       0    O0       0000000                  O0       0




  _0           0    _    _       0    O_       _00_                     _        0
   I   I   I    I    I    I       I    I   I    I  I   11   I   I   I    I   I    I

&&&&
0000
               _
               0
                    &
                    0
                         &
                         0
                                 _
                                 0
                                      &&
                                      O0
                                               &&&&&&&
                                               _000000
                                                                        &&
                                                                        O0
                                                                                 &
                                                                                 0




0000           0    0    0       0    O0       0000000                  O0       0




                              -121-
             _       000            __                               0000000000000

     0       0       _              __                               _____



         I
                 '
                 I
                     ,,,
                      III
                                    _,,,
                                    IIIIII
                                                                     &IIIIIIIIIIIII_                                   '"''
     o o ooo oooo_ o_o22_oooo
     _ , ,,, ,,,,,,
                     _          _
                    ,,,,,_ --- ,,,,
                                    ooo_                             oooooo__
         I       I    I     I   I    I      I     I     I    I   I     I     i     I     I     I     I     I     I     I   I   I   I   I




_H   r-'l    ,--I    _l_l,_l        ,--I,-'lr-4r-'l,_lr--I           ,--'l_lr--I,--Ir-lr--I,---I,--Ir_l,_l,--I_lr--I




                                                -I 22-
000000000000                                 000000000000000




IIIIIIIIIIII                                  IIIllllilllllll
                                                                                                            III


                                                                                IIIIIIIII

_I _I _I _._
          I I _I _I _I   _I   _I   _I   _I   _I   _I    _I      _I   _I   _I   _I   _I   _I   _I   _I   _I _I     _I   _I




                                                                                                                       Z




                              -123-
_Illlllllllllllll
      ___(__                                                                        _lilllllllll
                                                                                          ____

___   oooooo ooo ooo
             IIIIII                            III
                                              _0_
                                                                      III
                                                                     0_             oo ooooooo
                                                                                    _
                                                                                        II                 IIIIIII
                                                                                                          _0_


                                                         IIIII                          Illllllllll
 I     I     I        I   I   I   I   I   I    I     I   I       I    I     I   I       I     I       I    I    I    I   I   I   I   I   I




                                              - 124-
O000000                        0000000000000000                                                                 OOO




I      I   I   I   I   I   I    I     I     I      I   I   I   I   I     I     I   I        I   I   I   I   I    I     I   I
                                                       I                           IIIIII                        III



                                                                   IIIIIIIII
                                                                                                                ooo
                                                                                                                 Ill
 IIIIIII                        IIIIIIIIIIIIIIII                                                                 III




_--I P-IPIr--Ir-IPt
PI   r--I PI PI PI PI PI
                      PI       PI PI
                               i--I r--I PIPir-I_--I
                                         PI _1 PI _--I r--IP-Ir--I_l
                                                       r---IPI r-I r-I r--I,-'l
                                                                       r---Ir-I r'lr'-I
                                                                                PI r'-I PI,--I
                                                                                        r"l _1                  r--I r'-I r-I
                                                                                                                r-lr'-Ir--I




                                      -125-
                                 II         I     If       I   I             IIIIIIII



_   ._oooo__
      ' '''  _ _o
                ' o
                  ' o_oo_o_oo_
                    ' '&_& &A_
    YIIlll                       II         I     II       I   IIIllllllll

     I       I   I   I   I   I   I    I     I     I    I   I   I      I      I      I   I   I   I   I   I   I   I




                                                               00000000000




                                          -126-
                                                             o_o




__
 I   I   I   I   I   I   I
                             _
                             I     I     I
                                             °°_°
                                             I   I   I   I    I    I   I   I   I   I   I   I   I




                                 -127-
                                 FOOTNOTES     USED   IN LIST
                           OF    FINAL   AUDIT    REPORTS   ISSUED


1
    The Regions    are:
       02   New York
       03   Philadelphia
       04   Altanta
      05      Ch i ca go
      06      Dallas
      09      San Francisco
      Ii      Washington
      16      Division      of       Advanced      Audit   Techniques
2
    The Agencies     are:
       BLS      Bureau     of Labor   Statistics
       ESA      Employment     Standards    Administration
       ETA      Employment     and Training      Administration
       MSHA     Mine    Safety   and Health    Administration
       OASAM    Office     of the Assistant      Secretary     for
                Administration      ,and Management
       OSHA     Occupational      Safety   and Health      Administration
       SOL      Off ice of the Solicitor

3The   types     of programs    audited   are."
    ADMIN        Agency  administration
    BLSG         Bureau  of Labor    Statistics               Grantees
      CETA       Comprehensive        Employment     and Training      Act
      CMSH       Coal   Mine    Safety    and Health
      COMP       Comptroller
      DFREP      Division     of Farm     and Rural     Employment      Programs
      DINAP      Division     of Indian      and Native     American     Programs
      DOWP       Division     of Older     Worker    Programs
      FECA       Federal     Employees'      Compensation      Act   programs
      MSHAG      Mine   Safety     and Health     Administration        grantees
      OCD        Office    of Cost     Determination
      OJC        Office         of    Job  Corps
      OP         Office         of    Procurement
      OSHAG      Occupational     Safety    and Health      Administration
                 grantees
      OSPM       Office   of Supply     and Property       Management
      OSPPD      Office   of Strategic      Planning     and Policy
                 Devel opment
      OWCP       Office   of Worker's      Compensation       Programs
      OT AGY     Agency   other   than DOL
      SESA       State   Employment     Security     Agency
      UIS        Unemployment     Insurance      Service
      USES       United   States    Employment      Service
      WIN        Office   of Work    Incentive      programs




                                           -128-
                      Copiesof this report may be obtained
                      from the U.S.Departmentof Labor,
                      Office of InspectorGeneral,
                      Room S-5506
                      200 ConstitutionAvenue N.W.,
                      Washington,D.C.20210.




,.,n...............   _   .....................................................




                                   DEPARTMENT OF LABOR
                                        OIG HOTLiNE

                          357-0227(Washington Dialing Area)

            (800)424-5409(Toll Free--outside Washington Area)

            The OIG Hotline is open 24 hours a day, 7 days a
            week to receive allegations of fraud, waste, and
            abuse. An operator is normally on duty on work-
            clays between 8:15 AM and 4:45 PM, EasternTime.
            An answering machine handles calls at other times.
            Federal employees may reach the Hotline through
            FTS. The toll-free number is available for those
            residing outside the Washington Dialing Area who
            wish to report these allegations. Written com-
            plaints may be sent to:

                            OIG Hotline
                            U.S. Department of Labor
                            Room $1303 FPB
                            200 Constitution Avenue, N.W.
                            Washington, D.C. 20210
us
 Depar,
  men,
   o,
   Labor
Office of Inspector General
Washington, D.C. 20210
                                  Plllll      f    ._dB        _



Official Business
Penalty   Ior pnvate   use $300

P1 t6                                  PosTage and Fees Pa_d
                                     U.S   Department   of Labor
                                                        LAB 441


                                     THIRD CLASS MAIL
